<html>
<title> - CHALLENGES AND SUCCESSES FOR U.S. POLICY TOWARD COLOMBIA: IS PLAN COLOMBIA WORKING?</title>
<body><pre>[Senate Hearing 108-399]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-399

   CHALLENGES AND SUCCESSES FOR U.S. POLICY TOWARD COLOMBIA: IS PLAN 
                           COLOMBIA WORKING?

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



92-685              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    41
Charles, Hon. Robert B., Assistant Secretary of State, Bureau for 
  International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State, Washington, DC............................     6
    Prepared statement...........................................     9
    Responses to additional questions for the record from Senator 
      Biden......................................................    80
Coleman, Hon. Norm, U.S. Senator from Minnesota, opening 
  statement......................................................     1
Council of the Americas, statement submitted for the record by 
  Eric Farnsworth, vice president for Washington Operations, 
  Washington, DC.................................................    79
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    52
Franco, Hon. Adolfo A., Assistant Administrator, Bureau for Latin 
  American and the Caribbean, United States Agency for 
  International Development (USAID), Washington, DC..............    28
    Prepared statement...........................................    30
    Responses to additional questions for the record from Senator 
      Biden......................................................    90
Hill, General James T., U.S. Army, Commander, United States 
  Southern Command (SOUTHCOM), Miami, FL.........................    21
    Prepared statement...........................................    22
    Responses to additional questions for the record from Senator 
      Biden......................................................    87
McLean, Mr. Phillip, senior fellow and deputy director, the 
  Americas Program, Center for Strategic and International 
  Studies, Washington, DC........................................    67
    Prepared statement...........................................    69
Schneider, Hon. Mark L., senior vice president, International 
  Crisis Group, Washington, DC...................................    55
    Prepared statement...........................................    58
Sweig, Dr. Julia E., senior fellow and deputy director, Latin 
  America Studies, Council on Foreign Relations, Washington, DC..    62
    Prepared statement...........................................    64

                                 (iii)

  

 
   CHALLENGES AND SUCCESSES FOR U.S. POLICY TOWARD COLOMBIA: IS PLAN 
                           COLOMBIA WORKING?

                              ----------                              


                      WEDNESDAY, OCTOBER 29, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met pursuant to notice at 2:34 p.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Norm Coleman 
presiding.
    Present: Senators Coleman, Biden, Dodd, Feingold, Bill 
Nelson and Corzine.


               opening statement of senator norm coleman


    Senator Coleman. This hearing of the Senate Foreign 
Relations Committee will come to order.
    First, I would like to thank the full committee chairman 
for his attention to Colombia and for asking me to chair this 
full committee hearing on Plan Colombia. As chairman of the 
Subcommittee on Western Hemisphere, Peace Corps and Narcotics 
Affairs, I have a strong interest in Colombia. I had the 
opportunity to visit in Bogota back in June. I have met a 
number of times with President Uribe and members of his 
cabinet.
    Many Americans, when we think about the war on terrorism, 
we think about countries like Afghanistan, Iraq, and other 
countries in the Middle East. But there is a battle going on in 
this hemisphere, a battle in Colombia, between an elected 
government and three narco-terrorist organizations, the FARC, 
the ELN, and the AUC; all three, are terrorist organizations. 
They use violence against civilians and against an elected 
government. Their tactics of extortion, kidnaping, and 
intimidation with few, if any, legitimate political objectives 
show just how criminal these groups are.
    And their top fund-raising enterprise, drug trafficking, is 
a violent and self-serving endeavor associated with money 
laundering, weapons trade, and a whole range of dangerous and 
criminal behaviors. I believe that 90 percent of the cocaine 
that enters this country may come from Colombia.
    Plan Colombia is a Colombian strategy to retake the country 
from the grips of narco-terrorist. U.S. support for Plan 
Colombia is predicated on a mutual understanding of what is at 
stake in Colombia and a belief that the United States and 
Colombians can work together to address the crisis.
    Drug eradication and interdiction remain a central part of 
our support for Plan Colombia. Not only is it in the interest 
of the United States to keep drugs from flooding our 
communities but it is also essential to cut off this critical 
source of funding for all three terrorist groups. The U.S. is 
doing much more in support of Plan Colombia. We are training 
police and soldiers to reassert state presence throughout 
Colombia. The U.S. is supporting programs for internally 
displaced people; we are encouraging alternative crops.
    And human rights is an essential part of this strategy. The 
Colombian people must be able to trust their government to be 
on their side. Three years into Plan Colombia, there are 
indications of great progress. The U.N. estimates that at 
current rates of spraying we could see a 50-percent drop in 
coca production in 2003 alone.
    Kidnapings are down. Highway assaults have fallen. Murders 
in Bogota and Medellin have been reduced by two-thirds since 
1994. Desertions from terrorist groups increased 80 percent 
this year with the demobilization of more than 2,400 illegal 
combatants. And with U.S. support, the Colombian Attorney 
General's office is moving ahead on more than 100 
investigations of human rights abuses.
    This progress, I believe, is a direct result of the 
leadership of President Uribe. In a very difficult and complex 
situation and fully aware of the personal risks to him and his 
family, President Uribe is addressing Colombia's problems head-
on. In President Uribe, I would submit, the U.S. has a 
trustworthy partner in the war on terrorism.
    The purpose of this hearing is to assess the achievements 
of the first three years of Plan Colombia. We will consider 
Colombia's current challenges and discuss ongoing U.S. 
assistance programs that help Colombia meet these challenges. 
We also look ahead to the next three years of Plan Colombia and 
explore ways to make U.S. assistance to Colombia even more 
effective.
    We have with us, this afternoon, two distinguished panels 
of witnesses whose breadth of experience illustrates the scope 
of the U.S. involvement in Colombia. First, we will hear from 
Assistant Secretary of State for International Narcotics 
Affairs, Robert Charles, who will discuss INL's activities in 
Colombia.
    The second witness will be General James Hill, who will 
give SOUTHCOM's assessment of the situation of Colombia and the 
work with the Colombian military.
    Third, we will hear from Assistant Administrator Adolfo 
Franco, who will discuss the contributions of USAID to Plan 
Colombia.
    In the second panel, we will hear from Mark Schneider of 
the International Crisis Group, Ms. Julia Sweig of the Council 
on Foreign Relations, and Phillip McLean from the Center for 
Strategic and International Studies.
    I would like at this time to introduce the ranking member 
of our subcommittee, Senator Dodd, for any comments he may 
have.
    Senator Dodd. Well, thank you very much, Mr. Chairman.
    Let me welcome all of our witnesses here today to the 
hearing. And thank you, Mr. Chairman, for holding this hearing 
on a very, very critical subject matter, the efforts in 
Colombia and the U.S. support for those efforts.
    We are convened, obviously, to talk about that. The 
witnesses we are going to hear from this afternoon should give 
us a very thoughtful analysis of the progress that has been 
made thus far in dealing with the twin challenges of narco-
trafficking and the civil conflict in the nation, and the 
challenges that lay ahead, obviously.
    I would be remiss, Mr. Chairman, if I did not also take 
this opportunity to mention my deep concern, and I know you 
share this along with many others, for the fate of three 
Americans who are currently being held captive in Colombia. 
Mark Gonsalves and Keith Stansell and Tom Howes were captured 
by the FARC when their plane went down over Colombia, February 
13 of this year. And I do not believe there is any higher 
priority than finding a way to bring these three Americans home 
safely. And I know that the prayers of all Americans remain 
with them and their families during these very, very difficult 
times.
    On each occasion over the last eight months, when I have 
met with President Uribe or other Colombian officials, I have 
urged Colombian authorities to make every effort to gain their 
release. And the recent airing of a videotape showing them in 
captivity only further highlights the importance of ensuring 
their safe return. I might point out as well that President 
Uribe and others have indicated to me that they are doing 
everything they can to help secure their release.
    I also hope that Ingrid Betancourt, a former Presidential 
candidate, and other Colombia citizens who are being held by 
the guerrilla organizations, will also gain their freedom. I 
have spoken with her husband. I know how painful it has been 
for him and for Ingrid's two children over these past many 
months of separation.
    The plight of these individuals are painful reminders, of 
course, of the violence and unrest that have been the core of 
Colombian society for 40 years. Despite Colombia's rich 
cultural heritage and magnificent scenery, the Colombian people 
have lived under constant threat. However, they have also 
heroically managed to continue to live active and productive 
lives. And Colombia remains one of the most vibrant cultural 
centers in all of Latin American. I believe that is truly a 
testament to the strength of the Colombian culture and the 
fortitude of her people.
    Over the past 15 years, the United States has provided 
Colombia with over $3.6 billion in assistance. More than $2.5 
billion of this has been allocated since fiscal year 2000, when 
President Pastrana developed Plan Colombia, a strategy to end 
the conflict, eliminate drug trafficking, and promote economic 
and social progress in Colombia.
    I have continued to support providing assistance to Plan 
Colombia. However, I strongly believe that the problems we see 
in Colombia are not solely Colombia's problems but part of a 
regional crisis that requires both a military and economic 
strategy by all of the countries in the region. To President 
Pastrana's credit, he attempted to fashion Plan Colombia as an 
integrated plan, aimed at renewing many different sectors of 
Colombian society to include not only strengthening the 
Colombian Armed Forces and going after narco-trafficking 
guerrilla organizations, but also improving the judiciary and 
respect for the rule of law, providing economic alternatives 
for coca growers, and undertaking meaningful land reform.
    I continue to believe that President Pastrana was on the 
right path to addressing the serious problems confronting 
Colombian society. Clearly, the job was far from complete when 
he left office last year. His successor, President Uribe, now 
faces many of the same challenges: Popular resistance to aerial 
eradication of coca crops, human rights abuses by irregular 
forces, internally displaced people, unemployment, poverty, and 
civil conflict.
    We are all aware that Plan Colombia has undergone changes 
in its name. Now, we talk about the Andean Counter-drug 
Initiative and the Andean Region Initiative. It remains to be 
seen whether the new name reflects a shift in focus from 
Colombia specific to a more comprehensive regional strategy. I 
certainly hope it does.
    As I mentioned before, I strongly believe the United States 
assistance to Colombia and other Andean countries must support 
a regional game plan to include countries such as Venezuela, 
Ecuador, and Peru as full partners in destroying the drug 
cartels and the scourge of this hemisphere.
    I welcome certainly comments from our witnesses on this 
point, because my impression is that there remains a lack of 
regional focus in our current policies. President Bush has 
requested $990 million for fiscal year 2004 for the Andean 
Regional Initiative, which includes $730 million for the Andean 
Counter-drug Initiative, a mix of military and economic 
assistance.
    Some of our colleagues and outside experts have argued for 
a more balanced distribution of military and economic aid to 
Colombia. However, the four-to-one ratio in military to civic 
aid in Colombia, if we include Department of Defense programs, 
is not even close to being balanced. Clearly, we cannot ignore 
the significant unrest in the nation and the needs and problems 
faced by the Colombian Government. But neither can we ignore 
other needs of the Colombian people, both in cities and in the 
rural areas.
    One possible path for nonmilitary initiatives includes 
negotiations and voluntary disarmament of rebel groups. Last 
July, President Uribe and an umbrella paramilitary 
organization, the United Self Defense Forces of Colombia, 
reached an agreement under which the AUC would demobilize its 
force of approximately 13,000 fighters by December, 2005; these 
negotiations were an important step.
    Having said that, I am concerned about the President's 
legislative proposals to grant amnesties to paramilitary 
leaders as part of the deal with the AUC. Certainly 
negotiations will require concessions. However, paramilitary 
leaders involved in massacres, assassinations, and large-scale 
drug trafficking must be held accountable for their actions. 
The Bush administration should be doing more to strengthen 
respect for human rights in Colombia.
    Secretary Powell's recent meeting with President Uribe, in 
which he stressed the importance of protecting human rights, is 
a good start. But given President Uribe's statements in early 
September about Colombian human rights organizations, I think 
it is imperative that the administration continue to impress on 
him the importance of democratic values, such as the respect 
for human rights and free speech.
    I raised these issues with him, by the way, during his 
recent visit here. And President Uribe admitted that maybe some 
of those statements could have been--better words could have 
been chosen, to put it mildly, in terms of how he characterized 
some of these human rights organizations.
    Colombia's problems are complex and have a long and painful 
history. They are not going to be solved overnight. Today's 
hearing provides an important opportunity to assess whether we 
are at least on the right track to making Colombia and the 
entire region more secure and stable or whether other 
initiatives should be considered to make that possible.
    Let me say at the conclusion, if I can, Mr. Chairman, as I 
have said on numerous occasions in addressing the issue of 
Colombia, my respect for the Colombian people and what they 
have been through over these past number of years is unlimited. 
It has been remarkable to me what they have withstood, what 
they are withstanding on an hourly, daily basis.
    Still, the numbers of kidnapings that go on, the constant 
fear that people have to live with is something that very few 
people anywhere in the world are even remotely familiar with. 
And so I admire them immensely, for those who are hanging in 
there and making the good fight to get their country back. And 
I want them to know whatever questions I have and concerns and 
criticisms I may raise, I have done so in the spirit of trying 
to be cooperative and helpful on achieving what every single 
Colombian that I believe, the decent-minded ones, want; and 
that is, of course, return to the peace and stability in their 
country.
    So, I want the record to reflect what I am sure is the 
sentiments, as well, of many others here. But I do admire 
immensely the Colombia people.
    Senator Coleman. Thank you, Senator Dodd. Senator, I also 
want to thank you for your commitment to this area of the world 
and your focus and your efforts here. So when you speak about 
what you admire, you are speaking from a long-term perspective 
and a deep commitment to make sure that we do the right thing. 
So, it is an honor for me to serve with you.
    I also appreciate mentioning the issue of the three 
Americans who are being held hostage and the two individuals 
who were executed, one being an American. That issue does hit 
particularly close to home for me. And I was going to ask, and 
will ask, General Hill about that after the testimony. One of 
the cousins of Randy Howes is a Minnesotan, has been in 
correspondence and contact with me. And I know this is an 
extraordinarily difficult issue, certainly for the families of 
those involved, but for all of us. So, I appreciate raising 
that and do look forward to addressing that issue during this 
hearing.
    With that, we will start with Secretary Charles. Please 
note for all the witnesses that your full statements will be 
part of the record.
    So, Secretary Charles.

  STATEMENT OF HON. ROBERT B. CHARLES, ASSISTANT SECRETARY OF 
 STATE, BUREAU FOR INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Charles. Thank you, Mr. Chairman. And thank you, 
Senator Dodd. And I would just like to say, at the outset, that 
I share the concerns that you both raised in your openings very 
sincerely.
    It is a pleasure for me to be here. And I want to thank you 
for my first chance to speak about the real progress that is 
being made in Colombia and in the Andean region toward a 
hemisphere, not only fighting but winning against the twin 
scourges of heroin and cocaine. I would like to share with you 
my views on the efforts to date, the threats that are afoot, 
and the administration's sense of optimism; but also the 
tempering realities that we face in Colombia and the region.
    As time allows, I would like to share with you also a sense 
of the conceptual battle that I believe is going to call forth 
ever greater leadership in this area; one that is significant, 
I think, in historical context. The future is likely to stand 
in sharp contrast to the recent past. And it is appropriate 
that, at the first hearing that I have the opportunity to speak 
at here as an Assistant Secretary for INL, I should sit before 
some of the Nation's strongest supporters of counter-narcotics 
efforts in the Andes.
    The administration's policies are bearing fruit, thanks to 
a bipartisan effort made real by your commitment to the future, 
to our kids, to our national and community stability, and to 
hemispheric neighbors. Looking south, I can assure you that the 
top levels of the Colombian Government are extremely grateful 
for the strong, sustained, and equally determined support of 
you, Mr. Chairman and Senator Dodd and the members of the 
committee, dedicated to Plan Colombia and the Andean Counter-
drug Initiative or ACI.
    President Uribe had broadened the aerial eradication 
program, enhanced the capabilities of all Colombian counter-
narcotics forces, increased the effectiveness and coverage of 
drug interdiction programs, and enhanced refugee and 
alternative development programs. In turn, thanks to U.S. 
congressional support, we have exercised expanded legislative 
authority to selectively support high value Colombian counter-
terrorism efforts without sacrificing our core counter-
narcotics mission.
    Under Plan Colombia, we have assisted the Colombian 
national police in re-establishing a police presence in 140 
municipalities out of a total 158 that had no rule of law 10 
months ago. This effort has a direct and important long-term 
impact on U.S. counter-narcotics policy, bringing the rule of 
law to more remote areas where drug crops are cultivated and 
where we have the greatest stake in keeping hitherto isolated 
populations from falling into the hands of drug and terrorist 
organizations, for lack of alternatives.
    After three years, I am pleased to report that the 
Government of Colombia's implementation of Plan Colombia is 
beginning to reverse 30 years of large-scale coca and opium 
production in Colombia. Incredibly, this bureau, the INL 
Bureau's air wing, and the Colombians have virtually eliminated 
the coca crop in the Putumayo region, once home to the world's 
largest nucleus of illicit cultivation. The coca crop in 
Putumayo reached 47,400 hectares in 2002; incidentally, view 
able, in part, here on the left.\1\ In March, 2003, that same 
area was estimated to have only 1,500 hectares of coca, a 97-
percent decline.
---------------------------------------------------------------------------
    \1\ In reference to charts that appear at the end of Assistant 
Secretary Charles's prepared statement on page 13.
---------------------------------------------------------------------------
    More broadly, coca cultivation in Colombia declined 
nationally, declined by 15 percent with an overall decline of 8 
percent in the Andean region during 2002. So far in 2003, you 
and INL have supported the Colombian national police in 
spraying 118,000 hectares of coca. And we will probably achieve 
140,000 hectares sprayed by the end of 2003. We have done it 
while adhering to strict and completely appropriate 
environmental guidelines.
    One of Colombia's goals was to reduce coca cultivation by 
50 percent by 2005. President Uribe's aggressive support for 
spraying and the professionalism and efficiency of the State 
Department contractors may well have put us ahead of that mark. 
If that trend line holds and we apply the right combination of 
management accountability and measurable results on the ground, 
we may get to a point in which we have reduced cultivation of 
coca and heroin poppy to levels not seen in two decades.
    On opium poppy, I am, and I know you are, deeply concerned. 
South American heroin has made its way in ever greater 
quantities in recent years to U.S. cities and suburbs, places 
like Minnesota, Connecticut, Indiana, Delaware, even Maine. To 
combat this growing threat, we have initiated and maintained an 
aggressive spray program that has already covered 2,527 
hectares in 2003 with an identifiable estimate of 4,900 
hectares of poppy total. These poppies are identified through a 
range of means and virtually all cultivation lies in remote, 
difficult to navigate mountainous areas.
    As we move into a new phase of spray aircraft deliveries, I 
am pressing for a three-tiered approach that will accelerate 
success. The three tiers are greater safety, more direct and 
measurable accountability, and higher and more measurable 
results on the ground as a result of methodical aerial 
eradication. While guarantees are not possible, we nevertheless 
expect a significant fall in total hectare-age of poppy 
cultivated, as repeated spraying of small fields in outlying 
areas discourages poppy cultivation by poppy farmers. We will 
be attacking heroin poppy cultivation through a number of 
means, including a new rewards program and an existing program.
    Also a pivotal point for the committee, our combined 
effort, Congress's and ours at INL, to make permanent strides 
in Colombia goes well beyond crop reduction. For 3 years, a 
sizeable portion of INL's funding has gone to Colombian 
national police interdiction efforts and to training and 
deployment of a Colombian Army Counter-Narcotics Mobile 
Brigade. This effort has been animated by a need to press 
forward with counter-narcotics missions in terrorist-held areas 
of a beautiful but terrorist-ravaged country.
    Specifically, our funding, your funding, implemented by INL 
has trained over 10,000 municipal and rural police and provided 
hardened police stations in key municipalities to prevent 
terrorist forces from overrunning them. Countless redeeming 
effects flow from that.
    The determination has effectively allowed the Colombian 
forces to strike deep into trafficker areas, and FARC-held 
areas, and AUC and ELN areas. As many of you know, that has 
called for a substantial commitment in helicopter airlift 
resources. But Congress has been there, again. For Plan 
Colombia, the combination of congressional and INL leadership 
has created a Colombian Army helicopter airlift capacity of 72 
helicopters to support the brigade and an increased capacity of 
66 helicopters of the Colombian national police.
    Lest cynics try to bend your ear, so far in 2003, this 
counter-narcotics brigade has destroyed 15 cocaine 
hydrochloride and 278 base labs, seized over four tons of 
cocaine, and dismantled five FARC-base camps. In another sign 
of progress, the Colombian national police has destroyed 71 
cocaine hydrochloride and 239 base labs. Further, on the 
strength of your commitment, they have seized 41 tons of drugs, 
mostly refined cocaine.
    I would also like to note that they are not alone in 
supporting--that we are not alone in supporting these 
successes. Today, in 2003, the Colombian Government is spending 
3.8 percent of GDP on security, with plans to spend 5.4 percent 
by 2006.
    This measurable progress also shows up in other areas. 
Already, we have had the ability to--with the Air Bridge Denial 
Program agreement, we have been able to show again the 
Colombians' significant progress. The program has resulted in 
the destruction and capture of five aircraft, the seizure of 
one go-fast boat, and the seizure of approximately 5.6 metric 
tons of cocaine.
    There is more to this comprehensive effort, however, than 
that. We have made significant progress in a range of areas 
which, again, are across-the-board programs to establish and 
maintain special human rights units to reform the country's 
criminal code, to improve money laundering and asset forfeiture 
regimes, and to provide for witness protection in key cases. 
There has been a 25-percent increase in money laundering 
prosecutions and a 42-percent increase in asset forfeiture 
cases.
    In essence, what President Uribe is ushering in and what 
you and we, as implementors of your program, have been able to 
do is to establish a paradigm shift. We are in the midst right 
now of what I would--and I will roll this out further, if you 
ask me about it--I think is a tipping point in the history of 
the international drug war. It absolutely depends upon respect 
for human rights. It depends upon respect for alternative and 
effective alternative development. But it also, if I may 
briefly roll through these charts every so quickly, it shows 
that we are making significant results. And I believe we really 
are at a tipping point in what we are doing in the country.
    The first one is just the 2002 high point in coca. The 
second one--and you have these, I believe, Senators, in front 
of you. The second one is the Colombian coca estimates, which 
you will see directly reflect progress based on our eradication 
in the years that we have eradicated, with approximately a one-
year lag. It just took time for the Plan Colombia assets to 
kick in. You have seen a dramatic decrease in the coca hectare-
age and an increase in coca eradication.
    In the third instance, you see coca--you finally see 
potential cocaine production dropping, a direct result of Plan 
Colombia. In the fourth one, you see the poppy-growing areas, 
which were at a high point in 2002. I want to quickly, without 
overtaxing the folks that are helping me here--Colombia poppy 
estimates on the next one, you will see a direct correlation 
again between the money that you have invested in poppy 
eradication and the drop in hectare-age in 2001/2002, just as 
those resources have kicked in.
    Again, that is illustrated in the following chart, showing 
that the opium gum production is dramatically down between 2001 
and 2002.
    And finally, a chart that you have only in your handouts 
illustrates--you have one for coca eradication and you have one 
for poppy eradication. And what they illustrate, I think, is 
one of the most powerful facts supporting Plan Colombia. Based 
on coca eradication, there has been a drop in the wholesale 
street value of cocaine getting into this country that was 
roughly 25 percent between 2001 and 2002. In other words, there 
has been a drop of roughly $5 billion worth of cocaine on our 
streets.
    And while we still have a long way to go, and we will get 
there, that is a significant and, I think, measurable result of 
your efforts.
    And finally, you see the same thing in heroin. Between 2001 
and 2002, there has been a roughly $200-million drop in the 
heroin getting to our streets, the overall value of it.
    So, I just thank you for your support. I welcome your 
questions. And again, it is a pleasure to be able to be here in 
front of you.
    Senator Coleman. Thank you, Secretary Charles.
    [The prepared statement of Mr. Charles follows:]

 Prepared Statement of Hon. Robert B. Charles, Assistant Secretary of 
 State, Bureau for International Narcotics and Law Enforcement Affairs

    Mr. Chairman and Members of the Committee, I want to thank you for 
this--my first chance to speak about real progress being made in 
Colombia and the Andean region, toward a hemisphere not only fighting, 
but winning, against the twin scourges of heroin and cocaine. I would 
like to share with you my views on the efforts to date, the threats 
that are afoot, the Administration's sense of optimism, but also the 
tempering realities that we face in Colombia and the region.
    As time allows, I would also like to share with you a sense of the 
conceptual battle in which we find ourselves right now, one that calls 
forth and relies upon real leadership. One that is significant in 
historical context. The future is very likely to stand in sharp 
contrast to the recent past. As never before, hanging in the balance is 
our regional security, national security, community security and 
personal security. That, of course, is why I am here--to help describe 
how your investment of time, and money, personal conviction and long-
term commitment is paying off.
    It is appropriate that, in my first hearing as Assistant Secretary 
of INL, I should sit before some of the nation's strongest supporters 
of counternarcotics efforts in the Andes. The Administration's policies 
are bearing fruit, thanks to a bipartisan effort made real by your 
commitment to the future, to our kids, to our own national and 
community stability and to our hemispheric neighbors.
    Looking South, I can assure you that the top levels the Colombian 
Government are extremely grateful for the strong, sustained and equally 
determined support of you, Mr. Chairman and the Members of this 
Committee dedicated to Plan Colombia and the Andean Counter-drug 
Initiative or ACI.
    President Uribe has publicly and repeatedly emphasized his personal 
commitment to taking the war for Colombia's future--and against the 
ruthless Colombian drug traffickers and terrorists--into their own 
domain, onto their own turf. This is the essence of his plan, and it 
is--with U.S. help--showing results.
    President Uribe has broadened the aerial eradication program, 
enhanced the capabilities of all Colombian counternarcotics forces, 
increased the effectiveness and coverage of drug interdiction programs, 
and enhanced refugee and alternative development programs. In turn, 
thanks to U.S. Congressional support, we have exercised expanded 
legislative authority to selectively support high-value Colombian 
counterterrorism efforts--without sacrificing our core counternarcotics 
mission.
    For the record, we shall never give up on the primacy of the CN 
mission in Colombia, and the protection of human rights in that 
mission. We have so far successfully used aviation assets against both 
targets effectively, and we will continue to do so.
    Underlying these efforts has been a strong commitment by the 
Colombian government to bring increasing amounts of Colombian territory 
under its permanent control. Under Plan Colombia, we have assisted the 
Colombian National Police in reestablishing a police presence in 140 
municipalities out of a total 158 that had no rule of law ten months 
ago.
    This effort has a direct and important long-term impact on U.S. 
counternarcotics policy, by bringing the rule of law to remote areas 
where drug crops are cultivated, and where we have the greatest stake 
in keeping hitherto isolated populations from falling into the hands of 
drug and terrorist organizations for lack of alternatives.
    After three short years, I am pleased to report that the Government 
of Colombia's implementation of Plan Colombia is beginning to reverse 
30 years of large-scale coca and opium production in Colombia. Under 
President Uribe's ``zero tolerance'' policy toward coca cultivation, 
aerial eradication has become a reliable law enforcement tool and a 
successful deterrent to drug cultivation. Interviews with drug-
cultivating farmers in key areas show that there is an increasing 
understanding that the Colombian National Police will eliminate any 
drug crop investment, and return to eliminate it again and again if it 
is replanted or moved elsewhere. With such a strong deterrent, farmer 
receptivity to alternative development program increases significantly.
    Incredibly, this Bureau's Air Wing and the Colombians have 
virtually eliminated the coca crop in the Putumayo region, once home to 
the world's largest nucleus of illicit cultivation. The coca crop in 
Putumayo reached 47,400 hectares in 2002. In March 2003, that same area 
was estimated to have 1,500 hectares of coca--a 97% decline.
    More broadly, coca cultivation in Colombia declined by 15%, with an 
overall decline of 8% in the Andean region during 2002. So far in 2003, 
you and INL have supported the Colombian National Police in spraying 
118,000 hectares of coca, and we will probably achieve 140,000 hectares 
sprayed by the end of 2003. And we have done it while adhering to 
strict environmental guidelines and in accordance with Congressional 
certification requirements.
    One of Plan Colombia's goals was to reduce coca cultivation by 50% 
by 2005. President Uribe's aggressive support for spraying, and the 
professionalism and efficiency of State Department contractors may well 
have put us ahead of that mark. If that trend line holds, and if we 
apply the right combination of management accountability and measurable 
results on the ground, we may get to a point soon in which we have 
reduced cultivation of both coca and heroin poppy to levels not seen in 
two decades.
    On opium poppy, I am--and I know many of you are--deeply concerned. 
South American heroin has made its way in ever greater quantities in 
recent years to U.S. cities and suburbs, places like Minnesota and 
Connecticut, Indiana, Delaware, and even Maine. To combat this growing 
threat, we have initiated and maintained an aggressive spray program 
that has already covered 2,527 hectares in 2003, from an identifiable 
estimate of 4,900 hectares of poppy. These poppies are identified 
through a range of means and virtually all cultivation lies in remote, 
difficult-to-navigate mountainous areas, and this has hampered our 
efforts but we will continue to work to identify new areas.
    As we move into a new phase of spray aircraft deliveries, I am 
pressing for a three-tiered approach that will accelerate success. The 
three tiers are greater safety, more direct and measurable 
accountability, and higher and more measurable results on the ground as 
a result of methodical aerial eradication.
    While guarantees are not possible, we nevertheless expect a 
significant fall in total hectarage of poppy cultivated, as repeated 
spraying of small fields in outlying areas discourages poppy 
cultivation by poppy farmers. We are also attacking heroin poppy 
cultivation through rewards programs for information leading to well-
hidden fields, as well as to organizations trafficking in heroin. Our 
funding has also increased the number of X-ray machines and search dogs 
at the international airports to detect swallowers and smugglers of 
heroin.
    But I also wish to make a pivotal point for the committee. Our 
combined effort--Congress' and ours at INL--to make permanent strides 
in Colombia goes well beyond drug crop reduction.
    For three years, a sizable portion of INL's funding has gone to 
Colombian National Police interdiction efforts and the training and 
deployment of a Colombian Army Counternarcotics Mobile Brigade. This 
effort has been animated by a need to press forward with 
counternarcotics missions in terrorist-held regions of a beautiful but 
terrorist-ravaged country.
    Specifically, our funding--your funding implemented by INL--has 
trained over 10,000 municipal and rural (Carabinero) police, and 
provided hardened police stations in key municipalities to prevent 
terrorist forces from overrunning them. This has had countless 
redeeming effects.
    This determination has effectively allowed the Colombian forces to 
strike deep into trafficker and FARC/ELN/AUC-held areas. As many of you 
know, that has called for a substantial commitment in helicopter 
airlift resources. But Congress has been there. For Plan Colombia, the 
combination of congressional and INL leadership has created a Colombian 
Army helicopter airlift capability of 72 helicopters to support the 
Brigade, and has increased support for 66 helicopters of the Colombian 
National Police.
    Lest cynics try to bend your ear, so far in 2003, this 
Counternarcotics Brigade has destroyed 15 cocaine hydrochloride and 278 
base labs, seized over 4 tons of cocaine and dismantled five FARC base 
camps.
    In another sign of progress, the Colombian National Police have 
destroyed 71 cocaine hydrochloride and 239 base labs. Further, on the 
strength of your commitment, they have seized over 41 tons of drugs, 
mostly refined cocaine.
    I would like to note that we are not alone in supporting these Plan 
Colombia successes. In 2001 and 2002, the Colombian Government spent 
less than 3.5 percent of GDP on security. Today, in 2003, the Colombian 
Government is spending 3.8 percent of GDP on security, with plans to 
spend 5.8 percent by 2006.
    There is also measurable progress--and a quantum leap in the 
potential for success--in other areas. In April 2003, the U.S. and 
Colombian Governments concluded a new Airbridge Denial Program 
Agreement. On August 18, following a thorough certification of 
procedures and interagency agreement, the President signed the 
Determination to allow the United States Government to resume 
assistance to the program.
    Since then, the Colombian Air Force has worked with INL's 
contractors, DOD's Joint Interagency Task Force South (JIATF-South), 
and the Narcotics Affairs Section of the U.S. Embassy in Bogota to 
identify and intercept aircraft reasonably suspected of narcotics 
trafficking, using a tightly vetted checklist of safety procedures that 
are designed to ensure the safety of civilian aircraft and which are 
certified annually.
    Already, the program has resulted in the destruction or capture of 
five aircraft, the seizure of one go-fast boat, and the seizure of 
approximately 5.6 metric tons (mt) of cocaine. Interestingly, these 5.6 
mt of cocaine were seized in Guatemala as a result of the Colombian Air 
Force's handoff to JIATF-South of information on three suspect aircraft 
leaving Colombian airspace.
    But there is more to this comprehensive effort to establish a 
stable, rural environment than merely eradicating crops, reinforcing 
police, stopping rogue aircraft from transiting drugs and stirring 
regional self-interest to life. Under Plan Colombia, there is new 
emphasis on long-term institution building. There is a new way of 
thinking about reinforcing the will of the Colombian People. We have 
supported, through your assistance and in cooperation with the Criminal 
Division of the Department of Justice, numerous programs, many of which 
are implemented by the United States Department of Justice, to 
establish and maintain special human rights units, to reform the 
country's criminal code, to improve money laundering and asset 
forfeiture regimes and to provide for witness protection in key cases. 
Already there has been a 25 percent increase in money-laundering 
prosecutions and a 42 percent increase in asset forfeiture cases.
    In truth, I think the leadership of President Uribe has already 
begun a paradigm shift that follows from his own rethinking and re-
prioritizing of Colombia's needs. He plainly sees a need to reestablish 
permanent central government control outside the urban areas of 
Colombia. He is encouraging us to support alternative development 
efforts that will set the stage for long-term development, and a 
sustainable, legal economy in regions now victimized by drug 
trafficking and terrorist-domination.
    I defer to my colleague, Adolfo Franco, for the specific 
achievements and vision associated with our development efforts under 
Plan Colombia. But no one should argue that progress is not real and 
meaningful, and generating a sound return on the present investment. 
Without the leadership of the U.S. Congress, we would not be here now 
announcing real progress.
    In doing all of this, we also must not ignore the rest of the 
region. Plan Colombia will only succeed if we can hold on to U.S.-
supported counternarcotics successes in Bolivia, Peru and Ecuador.
    As recent political events in Bolivia attest, those gains cannot be 
taken for granted, and we must buttress the efforts of these 
governments as we anticipate the ``balloon effect''--whereby anti-
narcotics efforts in one country may increase narcotics production in a 
different country--which will result from our successes in dismantling 
the narcotics and terrorism infrastructure in Colombia.
    With U.S. assistance, both countries have been able to reduce coca 
production dramatically. Peru anticipates meeting its goal of 
eradicating 8,000 hectares of coca this year, and we must work with the 
new government in Bolivia to ensure that it understands the importance 
of sustaining its counternarcotics efforts in the face of trafficker 
pressures.
    Ecuador's northern border remains under the shadow of Colombian 
traffickers and terrorists that could cross the Colombian border to 
establish drug trafficking at any time. Our funding is a critical 
bulwark to supporting Ecuadorian police and military efforts to 
maintain order along that border.
    Ultimately, the intent of the Administration is to provide for a 
robust, self-sustaining regional counternarcotics effort, with 
Colombia's leadership a template for the future in the region.
    U.S. programs in Colombia represent a response to one of the most 
important challenges that we confront today. No more compelling 
argument for this exists than the 21,683 Americans who died this year 
at the hands of illegal and addictive drugs. The issues raised by 
Colombian narcotics trafficking and terrorism directly affect U.S. 
national security, the survival of Colombian democracy, and the 
stability of the entire Andean region.
    In short, I believe the commitment already shown by President Uribe 
and consistently supported by the U.S. Congress represents a unique 
opportunity for both of our countries to make serious, significant, and 
enduring progress in combating drugs, and in turn, the terrorism that 
drug profits support. Thank you.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Coleman. With that, General Hill.

   STATEMENT OF GENERAL JAMES T. HILL, U.S. ARMY, COMMANDER, 
                 UNITED STATES SOUTHERN COMMAND

    General Hill. Thank you, Mr. Chairman, Senator Biden, 
Senator Feingold. I am honored to have this opportunity to 
appear before you today, to provide my assessment of Plan 
Colombia.
    I greatly appreciate the support of the committee for the 
United States Southern Command and for our soldiers, sailors, 
airmen, marines, Coast Guardsmen, and civilian personnel whom I 
am so privileged to command.
    As I mentioned in my written statement, Colombia, as Mr. 
Charles just pointed out, is at a decisive point. Although 
there is much work to be done, our country's significant 
investment in Plan Colombia and the Andean region issue are 
beginning to show substantial results. The trends are generally 
positive. The Colombian economy is growing. Major categories of 
criminal activity are down. Narcotics production is down. 
Terrorist attacks have been cut almost in half. Desertions and 
demobilizations by the narco-terrorist organizations are 
increasing.
    The military has grown into a professional and competent 
force that respects human rights, the rule of law and has 
gained the strategic initiative. I am, therefore, guardedly 
optimistic that President Uribe can bring security and 
stability to Colombia.
    Over the past year, I have traveled to Colombia 17 times 
and will go again next week. I have worked closely with 
President Uribe, Minister of Defense Ramirez, and General Mora, 
the Chief of the Armed Forces. I have seen these strong and 
determined leaders in action. I have visited all parts of 
Colombia and witnessed the tremendous cooperation between our 
Armed Forces.
    I have seen the professionalism and increased capabilities 
of the Colombian military. I have also been inspired by the 
dedication of the Colombian soldiers and their daily fight to 
defend Colombian democracy against vicious narco-terrorists. I 
have observed Colombia's leaders inculcate the government and 
the Armed Forces with an aggressive spirit.
    The Colombian people believe they can win the war against 
narco-terrorists and end the violence. They have built and are 
executing a campaign plan to systematically break the will to 
fight of Colombia's narco- terrorists.
    Fully understanding that the problems of Colombia do not 
have a simple military solution, President Uribe and his 
administration are building the political, social, and economic 
systems that will eventually return Colombia to the ranks of 
peaceful and prosperous nations.
    However, President Uribe has only three more years in 
office, which coincidentally will mark the end of Plan 
Colombia. Consequently, it is important that we sustain the 
progress that has been made under Plan Colombia and that he 
gets our steady support to set his long-term initiatives firmly 
into place.
    As one of the oldest democracies in this hemisphere, a key 
trading partner and supplier of oil, a staunch ally only three 
hours from Miami, a stable Colombia is important to our 
national security interests.
    Thank you again for this opportunity to appear before you 
and I look forward to your questions.
    Senator Coleman. Thank you, general.
    [The prepared statement General Hill follows:]

  Prepared Statement of General James T. Hill, U.S. Army, Commander, 
                     United States Southern Command

    Mr. Chairman, Senator Biden, distinguished Members of the 
Committee, it is a pleasure to appear before you today to discuss the 
United States Southern Command's role in assisting Colombia with its 
battle against narcoterrorism. Every day your soldiers, sailors, 
airmen, Marines, Coast Guardsmen, and civilians at Southern Command are 
working hard and employing their skills to accomplish our missions in 
this vital endeavor. We are shoring up our own national security by 
addressing this challenge at this time and in this place. 
Simultaneously we are laying the groundwork to promote and maintain 
future security and stability.
    Colombia is at a decisive point in its fight. I have been to 
Colombia 17 times over the past year, and I am seeing significant 
progress. I am guardedly optimistic that President Uribe will bring 
security and stability to that country. Much of my optimism stems from 
what I've personally seen him do over the past year. President Uribe is 
a man of vision, principle, and substance. He is inculcating his 
government and his armed forces with an aggressive spirit and belief 
they can win the war against the narcoterrorists and end the violence. 
But the momentum he has built and the progress Colombia has shown is 
reversible. Consequently, we must maintain our steady, patient support 
in order to reinforce the successes we have seen and to guarantee a 
tangible return on the significant investment our country has made in 
our democratic neighbor.
    To outline United States Southern Command's efforts in this 
endeavor, I will discuss the status of Southern Command's support of 
Plan Colombia, the progress we are seeing in Colombia, and the way 
ahead. Assisting Colombia in its fight continues to be in our own best 
interest. A secure Colombia will prosper under democracy, will prevent 
narcoterrorist spillover, and will serve as a beacon in the region. 
Conversely, a failed Colombia, serving as a safe haven for 
narcoterrorists and international terrorists, would undermine stability 
and pose a greater threat to U.S. security. Thus the future health of 
the region hinges upon what happens in Colombia. While this is 
primarily Colombia's fight to win, we have the opportunity to tip the 
balance by augmenting their efforts decisively with our unwavering 
support.

            U.S. SOUTHERN COMMAND'S SUPPORT TO PLAN COLOMBIA

    Plan Colombia is a six-year plan designed to defeat the threat the 
Colombians face. This threat continues to come from the three largest 
illegal armed groups in Colombia, all named on the State Department's 
list of foreign terrorist organizations and two named on the 
President's list of drug kingpins: the Revolutionary Armed Forces of 
Colombia or FARC, the National Liberation Army or ELN, and the United 
Self-Defense Forces or AUC. While these groups may retain fragments of 
their founding philosophies, they appear to have jettisoned ideology in 
favor of terrorist methods and narcotrafficking.
    Narcoterrorism and its connection to the illicit drug industry in 
Colombia threaten that nation's stability and erode the very fabric of 
its democracy by spawning terrorism, corrupting public institutions, 
promoting criminal activity, undermining the legitimate economy, and 
disrupting social order. The violence and corruption not only threaten 
our neighbor, they pose a direct national security threat to our 
homeland. The latest statistics from the Centers for Disease Control 
and Prevention within the Department of Health and Human Services 
indicate that 21,683 Americans died in 2001 as a direct result of drug 
related causes. This staggering number does not take into account the 
second and third order effects on families, the lost productivity of 
those lives cut short, or the additional thousands of Americans we lose 
to indirect drug related causes. As a nation we simply cannot afford to 
give up on tens of thousands of our own citizens every year. Illicit 
drug abuse is certainly a multi-faceted problem, but our support to 
Plan Colombia is effectively addressing one of its most critical 
components.
    Our role at Southern Command is to support implementation of the 
military aspects of Plan Colombia. The plan addresses the entire depth 
of Colombia's complex problem, however; it is by no means envisioned as 
a simple military solution. As you know, various other U.S. Government 
agencies and departments received funding to support both military and 
non-military aspects of Plan Colombia.
    Colombia is just completing the third year of this six-year plan. 
The first phase of three focused on the Putumayo and Caqueta 
Departments of Southern Colombia where approximately half of Colombia's 
coca cultivation took place and lasted from December 2000 until 
December 2002. Southern Command was responsible primarily for training 
and equipping a counter narcotics brigade, fielding Blackhawk and Huey 
II helicopters and also training pilots and crews. Secondary efforts 
provided for infrastructure upgrades, riverine training, and 
counterdrug intelligence support. In Phase II, the Colombians are 
expanding the size of the armed forces, working with neighboring 
countries for combined operations, planting forests where coca once 
grew, expanding eradication nationwide, and creating units comprised of 
campesino soldiers to help guard towns where government presence was 
formerly lacking. These initiatives support continued drug eradication 
and interdiction. Phase III of Plan Colombia culminates the entire plan 
by expanding the government presence and control nationwide. While it 
is still too early to predict the exact end state of Plan Colombia, the 
progress we are seeing is a positive development that promises to 
complete that plan and institutionalize its successes.

                       COUNTER NARCOTICS BRIGADE

    The Counter Narcotics Brigade (CN Brigade) headquarters and its 
three battalions are the best-trained and equipped conventional units 
in the Colombian Army. U.S. military personnel conducted staff and 
light infantry training for almost 2,300 troops. In accordance with 
Plan Colombia, the CN Brigade was originally designed to operate in 
southern Colombia. The CN Brigade has had impressive results during 
drug interdiction operations in that part of the country by destroying 
coca processing labs, providing security to eradication operations, and 
seizing chemical precursors and coca leaf.
    The Colombian military synchronized the deployments of the Counter 
Narcotics Brigade (CN Brigade) in Phase I with Colombian National 
Police and Department of State eradication efforts. The Office of 
National Drug Control Policy found that Colombia's coca cultivation 
decreased by 15 percent in 2002 from 2001. Additionally, as 
narcotraffickers began pushing cocaine labs away from southern 
Colombian cultivation areas, the Colombian police and military have 
found it easier in many cases to track and disrupt their illicit 
actions. Because of its success in the Putumayo and Caqueta 
Departments, this brigade is now also being used in other parts of the 
country, most notably the Narino Department. We continue to provide 
sustainment training to the CN Brigade. This unit is currently 
transforming to become more flexible and rapidly deployable to plan and 
conduct offensive operations throughout the entire country.

                              HELICOPTERS

    Since December 2000, the United States has provided air mobility to 
the CN Brigade using 28 UH-1Ns, 14 UH-60L Blackhawks, and 25 Huey IIs 
with a combination of Colombian and Department of State contracted 
pilots. The UH-1N aircraft are based in Tolemaida with the Colombian 
Army Aviation Battalion and are forward deployed to Larandia for 
operations. The current operational focus remains providing air 
mobility support for counterdrug operations. Delivery of the 25 Plan 
Colombia Huey IIs was completed in September 2002. These helicopters 
are also based at Tolemaida and currently focused on supporting pilot 
training and infrastructure security. The UH-60L Blackhawk helicopters 
procured under Plan Colombia for the Colombian military began 
operations in January 2003 after a thorough program of pilot training. 
These helicopters also support the 1st CN Brigade, pilot training, and 
infrastructure security. While the Department of State is responsible 
for program oversight and funding for operations and contract 
maintenance for all of these helicopters, quality control is provided 
by a U.S. Army Technical Assistance Field Team. The Department of 
Defense retains responsibility for training Colombian Army pilots, crew 
chiefs and aviation unit maintenance personnel to fly and maintain 
Blackhawk and Huey II helicopters. The maintenance programs are 
supplemented by a safety initiative that integrates risk management 
planning into air operations. Overall, these helicopters have given the 
Colombian military unprecedented mobility although they are still 
lacking sufficient lift assets. This mobility allows an increasingly 
well-trained Colombian Army to maneuver across a rugged landscape, in 
parts of the country they have not operated in for years, resulting in 
greater operational effectiveness against the narcoterrorists.

                  ENGINEER AND INFRASTRUCTURE SUPPORT

    The Plan Colombia supplemental appropriation allowed us to complete 
large-scale infrastructure improvements that greatly accelerated the 
development of increased operational capabilities for Colombia's 
forces. We have continued to provide necessary facilities to support 
our training and equipping programs. Among our more significant 
engineer projects were the expansion of both fixed-wing and helicopter 
facilities at Tres Esquinas, the establishment of a comprehensive 
helicopter pilot training school at Melgar and Tolemaida, improved port 
facilities at Buenaventura, development of riverine support and 
maintenance facilities at Tres Esquinas and La Tagua, and the 
development of helicopter operational and support facilities at 
Larandia. We are moving now to develop the logistics infrastructure 
needed to support Colombian forces as they move outward to re-establish 
government control throughout Colombia. We are currently completing a 
hangar that will directly improve the operational rate of the Colombian 
C-130 fleet by improving their maintenance program, and we have just 
awarded contracts to establish logistics support centers, motor pools 
and maintenance facilities. As a direct result of the completion of 
these facilities, Colombian forces will be better able to conduct and 
sustain forward operations.

                    PROFESSIONALISM AND HUMAN RIGHTS

    Embedded within the training Southern Command and U.S. forces 
provide under Plan Colombia is the institutionalization of human rights 
and the respect for law by the Colombian military. In coordination with 
the Department of State, our military legal assistance projects in 
Colombia, which include developing a Judge Advocate General (JAG) 
school as well as legal and human rights reform, continue on track. The 
initial JAG school courses began in February 2002 in temporary 
facilities. The permanent JAG School opened on July 29, 2003, and 
provides courses on military justice, international law, and 
operational law. We have worked closely with the Colombian military to 
establish and build a Military Penal Justice Corps. 320 military, 
police, and civilian lawyers received continued professional legal 
education beyond that provided at the school. The Colombian military 
legal corps, similar to the method used by our armed forces, is also 
becoming embedded with the field units of the Army in order to provide 
legal advice to commanders during operations.
    United States Southern Command has supported Colombian efforts to 
extend human rights training throughout its ranks. Colombia is fighting 
its illegal armed groups justly, in accordance with democratic values 
and human rights. This is instrumental in what we are collectively 
striving to achieve. The Colombian government is not resorting to rural 
concentration camps, peasant roundups, massacres, disappearances or 
other tactics used by their enemies. According to the Department of 
State's 2002 Colombian Human Rights Report, the vast majority of 
allegations of human rights abuses, over 98 percent are attributed to 
Colombia's illegal armed groups, primarily the three-narcoterrorist 
groups, and not to government forces. This report clearly demonstrates 
the institutionalization of human rights by the Colombian government, 
whose forces as recently as the mid-1990s were accused of 50-60 percent 
of human rights abuses.
    The Human Rights report finds that, ``the government has an 
extensive human rights apparatus coordinated by the office of the 
President's Advisor for Human Rights. That office coordinates with 
local human rights groups. Most notably, it established a special 
`momentum' committee to advance judicial resolutions of 100 key human 
rights cases.'' Over 290,000 members of Colombia's security forces have 
received specialized human rights training since 1996, conducted by the 
International Committee of the Red Cross, the Colombian Red Cross, the 
Roman Catholic church, foreign governments, and other government 
offices and agencies. I am convinced the Colombian government is 
serious about human rights and will continue to promote them 
aggressively.

                  THE URIBE ADMINISTRATION'S PROGRESS

    Plan Colombia predates President Uribe by two years and will end 
coincidentally when he leaves office in 2006. While he has firmly 
embraced the plan, he has also brought to office new initiatives and a 
long-term vision that extends well beyond that six-year plan. President 
Uribe won a landslide victory by running on a platform of security and 
asserting government control over national territory. After years of 
failed attempts to negotiate with illegal armed groups, to include a 
bold experiment that gave the FARC a safe haven in the southern part of 
the country, the people of Colombia finally had enough of terrorist 
groups, especially after seeing how the FARC used their safe haven to 
plot terrorist acts and establish drug base camps instead of developing 
their notional politics into a concrete reality.
    President Uribe faces enormous challenges, but he is using his 
mandate to put deeds behind his words. He has only been in office for 
fourteen months, and turning the government from a conciliatory posture 
to an aggressively focused one is not an easy task. We need to be 
steadfast in our support of him now to set the conditions for his 
longer-term success. The signs of his progress, which have built upon 
our support to Plan Colombia, are already becoming evident. Colombia 
developed a comprehensive national security strategy that directs all 
the tools at the government's disposal toward a common end of defeating 
the terrorists. The Colombians now spend more than 3.5 percent of their 
GDP on defense. President Uribe has levied a war tax on the country's 
wealthiest citizens. He is increasing police end-strength to supplement 
those already planned for the military. The government has developed a 
plan to protect travelers along the major roadways. He is pushing the 
military and the police to gain control of areas and neighborhoods 
dominated by the narcoterrorists. In those areas where the government 
is gaining control, they are taking governance to the people by 
providing more robust social services and the rule of law to support 
those who previously suffered most from their absence.
    The military has had growing operational success against the 
narcoterrorist organizations across the country, particularly against 
the mid-level leadership, and all indications are that they will 
continue to take the fight to the illegal armed groups over the next 
year. The firm resolve of the Uribe administration, backed by 
aggressive military operations, has resulted in increased desertions by 
enemies of the state. These desertions are a real sign of progress, and 
the Colombian government seeks to increase desertions through a program 
under which those who leave the FARC voluntarily are put in protected 
housing and receive health care, education, and work training.
    The Colombia Initiatives sponsored under the FY03 appropriations 
have tied into support of the new administration and Phase II of Plan 
Colombia. Our Special Forces have trained the staff and soldiers of 
Colombia's best units, giving these units an added edge of operational 
effectiveness that is paying dividends. The Colombians have established 
their own Special Operations Command to coordinate and oversee 
difficult and complex operations against the most sensitive targets. 
The establishment and training of a Commando Battalion, modeled on our 
own Ranger battalions, has given the Colombians a unit that can strike 
high-value targets including enemy leadership. The Colombians plan on 
establishing another commando battalion in Fiscal Year 2004. We have 
also trained the Colombian urban counter-terrorist unit and continue to 
upgrade their capabilities and equipment. U.S. Special Forces also 
trained Colombian Armed Forces in Arauca to protect a portion of the 
772-kilometer oil pipeline that had been a frequent target of FARC and 
ELN attacks. Pipeline attacks are down significantly. This training was 
just one part of a nationwide Infrastructure Security Strategy that 
protects critical facilities and reestablishes control in 
narcoterrorist influenced areas of the country.
    We continue to train Colombia's helicopter pilots, providing their 
forces a growing ability to perform air assaults that are key in the 
battle against dispersed enemies. We deploy intelligence, surveillance, 
and reconnaissance assets in country that have provided timely, 
actionable intelligence to Colombian units. We are training their 
staffs with Planning Assistance Teams that increase their ability to 
plan and execute intelligence driven operations against illegal armed 
groups. We are working with Colombian Marines to establish two Mobile 
Training Teams that will work with the Riverine Brigade to raise 
proficiency for riverine interdiction. We contract logistics to help 
the Colombians maintain their own C-130 fleet. We are training the 
Colombian National Police Carabineros (Rural Police Units) with the 
goal of reestablishing governance throughout the country.
    We are providing medical training and assistance to help the 
Colombians improve their casualty evacuation methods as well as 
implementing other safety programs to help them preserve their combat 
power. In civil-military operations, we are helping the Colombians to 
build a civil-affairs capability that will be implemented in the Arauca 
Rehabilitation Zone to bring humanitarian aid and functioning 
institutions to previously terrorized areas. This program will 
eventually be expanded across the country. Finally, we worked with the 
State Department to re-establish the Air Bridge Denial Program that is 
run by the Colombians with U.S. ground and air safety monitors.
    Beyond our coordinated military efforts, President Uribe has 
sponsored political, economic, and judicial reforms. With the support 
of his Congress, the government is calling for political reforms. These 
reforms aim to reduce the government bureaucracy, cap pensions, and 
eliminate corruption. These measures will streamline the government and 
increase its ability to focus on the internal conflict. Economically, 
Uribe's stance and the promised reforms have buoyed the country's 
confidence. The government has raised over one billion dollars via 
bonds since the new administration took office, and its stock market 
has increased by 50 percent this year. Likewise, President Uribe has 
sought to stamp out corruption and bolster judicial reform. He issued 
Presidential Directive No. 10, which was his anti-corruption strategy, 
designed to halt the revenue lost from corruption and political 
cronyism. He established a mechanism to oversee state contracting that 
will save an estimated two billion dollars annually, and he has 
established merit-based hiring practices.
    This list is just a partial highlight of the coordinated effort the 
Colombian government is making to solve its own problems. President 
Uribe has infused his government with energy, organization, and a sense 
of purpose. He is getting results now, and will continue to direct all 
his resources toward making Colombia a safe, prosperous, democratic 
nation.
    He understands that this is primarily a Colombian problem, one 
which Colombia must solve, yet he still needs our help to make his 
efforts ever more effective. President Uribe stood by us as a member of 
the Coalition of the Willing in Operation Iraqi Freedom, a stance 
unpopular with the Colombian public. He is providing the strategic 
leadership that Colombia needs to move ahead. Recent polls show public 
confidence in him and the military increasing. Now, with initial 
progress early in his administration, is the time he most needs us to 
demonstrate to him, his government, and his people our continued 
resolve. There are already some indications that the FARC will exercise 
strategic patience and attempt to wait out President Uribe and Plan 
Colombia. Should we falter at this juncture, we could very well assist 
the FARC in their plan.
    Under President Uribe, our country's significant investment in Plan 
Colombia and the Andean Ridge Initiative are beginning to show 
substantial results. He is fully adhering to Plan Colombia and already 
looking well beyond it. Most notably a subsidiary campaign plan 
provides a long-term strategy and has been coordinated across the 
Colombian services, the interagency and our military. This campaign 
plan details the systematic defeat of Colombia's narcoterrorists. He is 
building the systems that will eventually return Colombia to the ranks 
of peaceful and prosperous nations. President Uribe has only three more 
years in office. Consequently, it is critical--especially this year and 
next--that he gets our unwavering support to set all his long-term 
initiatives firmly into place.

                               WAY AHEAD

    Recognizing that we are at a critical and decisive point in our 
support to Colombia, I have reorganized an element of my staff to focus 
exclusively on current operations and long term planning for Colombia. 
I have reorganized our personnel operating in Colombia to maximize the 
support we can provide and gain every possible efficiency while 
operating within the mandated cap on military and civilian personnel. 
We are actively involved in the interagency development of the 
Political Military Implementation Plan to support the near and long 
term progress being made in Colombia, to include reassessing the 
current military personnel limitation and dedicated resources.
    As the lead Department of Defense agent for implementing military 
aspects of U.S. policy in Colombia, U.S. Southern Command will continue 
to maintain a priority effort against narcoterrorism. Key in most of 
our recent endeavors has been approval by the U.S. Congress of Expanded 
Authority legislation. This legislation has allowed us to use funds 
available for counterdrug activities to provide assistance to the 
Government of Colombia for a coordinated campaign against the terrorist 
activities of its illegal armed groups. The granting of Expanded 
Authority was an important recognition that no meaningful distinction 
can be made between the terrorists and drug traffickers in our region. 
The country's two largest terrorist groups--the FARC and AUC--are deep 
into the illicit narcotics business while the smaller ELN participates 
to a lesser extent. Trying to decide whether a mission against a FARC 
unit was a counterdrug or counterterrorist one was an exercise in 
futility and hampered operational effectiveness on the ground. Expanded 
Authority eliminated the time consuming step of first evaluating the 
mission based on its probable funding source and allowed us to bring to 
bear all our assets more rapidly. As just one example, it allowed 
assets controlled by Joint Interagency Task Force South (JIATF-S) to 
continue being used to their full potential to provide real-time, 
actionable intelligence that is key in conducting effective operations 
against the narcoterrorists. While our efforts are, for good reason, 
Colombia-centric, we are not letting others fall behind to become the 
next targets for terrorist groups. The cooperative counter 
narcoterrorist groundwork we are laying today will further our national 
security for decades to come.
    The pendulum is swinging in Colombia, and we will continue all of 
our planned training and support as well as seeking new opportunities 
to increase that support at this critical moment. Colombia is the 
linchpin in the narcoterrorist battle, but we must be careful not to 
win the battle in Colombia and lose the war in the region. As the 
Colombians make progress, their success will push narcoterrorists to 
seek safer areas in which to operate. Already, the FARC, ELN, and AUC 
operate across the porous borders of Colombia's neighbors, and the 
remote nature of many of these areas makes them ever more attractive as 
safe havens. While we are seeing increased coordination and cooperation 
among most of Colombia's neighbors, some of those countries also lack 
the resources to maintain territorial sovereignty in these ungoverned 
spaces. Thus, across the Andean Ridge, we are working with the 
bordering nations to increase cooperation further, fortify borders and 
strengthen capabilities.
    In a recent multinational exercise, we trained with the Colombian 
Navy on littoral techniques in a combined operation with Panamanian, 
British, and Dutch participation. In Ecuador, we have supported their 
riverine capability and worked closely with them in completing the 
essential forward operating location at Manta. We are seeing a welcome 
acknowledgment of the Colombian border concern by their leadership, and 
we are studying the possibility of training their 19th Jungle Brigade 
along the same lines as the units we've trained in Colombia. In 
Bolivia, we have worked on their riverine capabilities as well and 
supported their eradication efforts. We will continue to monitor the 
Cocalero movement and recent turmoil, which poses a threat to regional 
stability. I am particularly encouraged by the bilateral talks 
President Lula of Brazil and President Uribe conducted in March during 
which they acknowledged the common interest their countries shared in 
controlling drug traffickers in the Amazon region. We have already seen 
the Brazilians take up active patrolling on their own border with 
Colombia. These regional activities are promising and will require our 
steady, continuous support.

                               CONCLUSION

    The future security and stability of Colombia and the United 
States, indeed all of Latin America and the Caribbean as well, are now, 
more than ever, tied inextricably together. Latin America and the 
Caribbean are important to the United States strategically, 
economically, and culturally, and our ties will only grow stronger over 
time. Many of the region's countries are consolidating democracies, 
however, that will take time to mature. Meanwhile, these countries face 
uncertainty, whether from weak institutions that have yet to undergo 
multiple cycles of free elections or from disappointment that liberal 
market reforms have not yet produced sustained improvement. It is upon 
these inherent vulnerabilities that criminal organizations prey. 
Illegal armed groups foster corruption, greed and instability and 
undermine the best efforts of dedicated public servants and honest 
citizens. Corruption and instability create safe havens for not only 
narcoterrorists and drug traffickers but also for other international 
terrorists.
    It will be up to those nations to demonstrate their ability to 
govern, enforce the rule of law, implement judicial reform, and develop 
a profound respect for human rights. These fundamentals provide the 
stable and secure environment necessary for economic growth--growth 
that will improve the quality of life for ordinary citizens. Southern 
Command plays a crucial role in assisting the development of security 
forces that help provide the ability to govern throughout the region, 
particularly in Colombia.
    We are at a critical time in Colombia's history. The elected 
government of President Uribe enjoys unparalleled approval ratings 
approaching 70 percent. Under his leadership, the military and police 
are helping to regain control of areas long held by narcoterrorists. 
Colombia's citizens are taking a more active role in their nation's 
defense and providing actionable intelligence to the Colombian Armed 
Forces. There is a renewed sense of momentum, commitment, and hope as 
the Colombian people struggle to save their country, but there is also 
a finite window of opportunity beyond which public opinion and support 
will wane without significant progress.
    I am optimistic about the progress we are seeing in Colombia, 
though there remains an enormous amount of work to be done. We are at a 
critical point where the progress in eliminating conflict, reducing 
tension, and establishing democracy throughout the region could be at 
risk if we are not steadfast in our efforts. While our attention is 
drawn to another region of the world, we must keep in mind that we live 
in this hemisphere, and its continued progress as a region of democracy 
and prosperity is paramount to our national security.
    I would like to thank the Chairman and the Members of the Committee 
for this opportunity and for the tremendous support you have provided 
this command. I can assure you that the men and women of the United 
States Southern Command are working to their utmost to accomplish their 
missions for our great country.

    Senator Coleman. Assistant Administrator Franco.

 STATEMENT OF HON. ADOLFO A. FRANCO, ASSISTANT ADMINISTRATOR, 
   BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, UNITED STATES 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Franco. Thank you, Mr. Chairman. And thank you, 
Senators Dodd and Feingold for this opportunity to testify 
before the Senate Foreign Relations Committee.
    Mr. Chairman, the United States Agency for International 
Development, USAID, is proud of its contributions and 
participation in U.S. Government efforts to promote democracy 
in Colombia, a country which President Bush has rightfully said 
urgently needs our help.
    As the distinguished members of the committee know only too 
well, Colombia continues to struggle for its territory and 
future against three terrorist organizations known respectively 
by their Spanish acronyms as the FARC, ELN, and AUC. These 
terrorist groups threaten not only Colombia, as you have noted, 
Mr. Chairman, but also the stability of the Andean region as a 
whole; and represent a direct threat to U.S. security and 
economic interests.
    Conducting development programs in conflicted countries 
such as Colombia is difficult and dangerous, however. Not 
surprisingly, USAID has encountered numerous obstacles during 
the implementation of its development programs. Nevertheless, I 
am pleased to report to you today that, with the strong support 
of our Administrator, Andrew Natsios, USAID has already met 
some targets originally planned for completion by 2005, while 
others remain on track.
    Mr. Chairman, please permit me to outline USAID's strategy 
under Plan Colombia. USAID provides the social and economic 
development backing for the Government of Colombia's counter-
narcotics efforts. With $123.5 million provided under Plan 
Colombia supplement funding in fiscal year 2000 and $230.7 
million through the Andean Counter-narcotics Initiative in 
fiscal years 2002 and 2003, USAID is working toward the 
achievement of three broad and mutually supporting objectives.
    First, USAID alternative development programs support the 
sustained reduction of drug crops and enhance economic 
prosperity by providing poor farmers in communities with 
profitable and licit productive activities.
    Second, USAID works to strengthen democracy and human 
rights through support for programs that promote judicial 
reform and the rule of law.
    And third, USAID addresses the needs of people displaced by 
violence by providing emergency relief and employment 
opportunities for these victims of Colombia's civil strife.
    Despite the bold efforts of President Bush's friend and 
counterpart, Colombian President Alvaro Uribe to combat narco-
trafficking, still 125,000 to 150,000 families are involved in 
illicit drug production. In response, USAID's alternative 
development programs seek to provide opportunities for licit 
income for small-scale producers of coca and opium poppy.
    Since 2001, alternative development programs have 
benefitted approximately 33,000 families in support of the 
cultivation of over 30,000 hectares of licit crops, such as 
rubber, casava, specialty coffee, and cacao. In addition to the 
introduction of new crops, alternative development programs 
include the construction of infrastructure, such as bridges, to 
provide short-term employment and improve long-term access to 
markets. As of June 2003, USAID has helped complete 410 such 
infrastructure projects. And this greatly exceeds our original 
target of 26 projects by the end of 2005.
    Mr. Chairman, carrying out alternative development in an 
insecure and remote region is difficult, dangerous, and takes 
time. Delays can result from many factors, which include 
changes in the security situation; the need to identify, test, 
and develop useful farmer assistance packages adapted to 
conditions in the region; and, lastly, the need to identify, 
design, contract, and build appropriate infrastructure 
projects. Simple changes in weather patterns also limit some 
agricultural and construction activities in months of the year 
when the rainfall is heavy, as an example.
    As you know, Mr. Chairman, the FARC recently conducted a 
``resign or die'' campaign against all the country's mayors and 
local officials. As a result, 1,500 city council members and 
300 mayors have stood down. This sort of intimidation obviously 
makes life very insecure for the general population in these 
areas and undermines democracy at the grass roots level.
    Therefore, in addition to alternative development, USAID 
programs also seek to improve the administration of justice and 
protect human rights workers at the local level. To combat the 
pervasive sense of impunity before the law, USAID, in 
collaboration with the Colombian Ministry of Justice, has 
established 34 justice houses to increase access to judicial 
and dispute resolution services for low income and marginalized 
Colombians.
    More than 1.8 million cases have been resolved since the 
first justice house opened in 1995. USAID is expanding this 
highly successful program and plans to establish an additional 
six justice houses by the end of fiscal year 2005. And one of 
these is included in the Putumayo region, where coca production 
has been extremely high.
    In addition, USAID is assisting Colombia's transition to a 
modern accusatorial court system based on oral trials, rather 
than written procedures, and has so far trained 6,160 judges, 
lawyers, and public defenders.
    Mr. Chairman, USAID's work also directly benefits the human 
rights community in Colombia. Working through the Ministry of 
Interior's protection program, USAID assistance in the past 
year helped approximately 3,000 human rights workers, labor 
activists, journalists, mayors, and others threatened with 
violence by providing them with help to relocate, protection 
for government and NGO offices, and, in some cases, with the 
protective equipment needed for armored vehicles.
    The USAID-supported early warning system provides the 
Colombian military and national police with early warnings of 
situations that can result in massacres or forced 
displacements. To date, a total of 220 warnings have been 
issued, which resulted in 170 responses or interventions by 
Colombia Government authorities. USAID believes that the early 
warning system has saved lives and, in the process, has 
strengthened the link between communities and the government.
    Senator Coleman. Mr. Franco, if you could summarize your 
testimony, and the full testimony will be entered in the 
record.
    Mr. Franco. Thank you, Mr. Chairman.
    Mr. Chairman, in answer to the salient question that you 
posed in organizing this hearing, we believe that Plan Colombia 
is working. But let me be frank. We still have very much more 
to do. Lessons from Bolivia, Peru, and Ecuador demonstrate that 
good governance is the key factor that determines whether or 
not the illicit coca and narco-trafficking industry will 
establish itself, grow, or decline.
    Let me conclude, Mr. Chairman, by restating our commitment 
at USAID, as part of the larger U.S. Government responses to 
continuing our work in Colombia. As General Hill has stated, 
the Uribe administration is the ideal partner with which to 
work. And I know we can continue to count on the support of 
this committee and the Congress in overcoming the scourge of 
narcotics and terrorism.
    I will be pleased to answer any questions that you might 
have, Mr. Chairman, or the members of the committee.
    Senator Coleman. Thank you very much, Administrator Franco.
    [The prepared statement of Mr. Franco follows:]

 Prepared Statement of Hon. Adolfo A. Franco, Assistant Administrator, 
      Bureau for Latin America and the Caribbean, U.S. Agency for 
                       International Development

    Thank you Mr. Chairman. I am pleased to appear before the Senate 
Committee on Foreign Relations. The U.S. Agency for International 
Development (USAID) is proud to contribute to broader U.S. Government 
(USG) objectives in Colombia--a country that urgently needs our help.
    Colombia continues battling over its territory and future with 
three terrorist organizations: the Revolutionary Armed Forces of 
Colombia, the National Liberation Army, and the Unified Self-defense 
Forces of Colombia, known respectively for their Spanish acronyms as 
the FARC, ELN, and AUC. The country's two largest terrorist groups--the 
FARC and AUC--are deep into the illicit narcotics business; the smaller 
ELN also participates to a lesser extent. Earlier this month, suspected 
leftist guerrillas gunned down two candidates in Colombia's recently 
held state and mayoral elections after a campaign meeting in a lawless 
southwestern province. At least 23 mayoral candidates were killed, 
eight others kidnapped, and over 125 dropped out in the run-up to the 
elections. These groups threaten not only Colombia, but also the 
stability of the Andean region. This is a direct threat to U.S. 
security and economic interests.
    Conducting development programs in conflicted areas like Colombia 
is difficult and dangerous. Not surprisingly, we have encountered 
numerous obstacles during the implementation of our programs; 
nevertheless, the experience and expertise of our staff have allowed us 
to make remarkable progress. I am pleased to report that USAID has 
already met some targets originally planned for 2005 while others are 
on track.

    USAID'S STRATEGY UNDER PLAN COLOMBIA AND THE ANDEAN COUNTERDRUG 
                               INITIATIVE

    In response to growing problems created by the illegal narcotics 
trade and the actions of the three terrorist organizations, the 
Government of Colombia (GOC) developed ``Plan Colombia,'' a plan for 
achieving peace and economic prosperity in Colombia by the end of 2005 
while strengthening the state. USAID's program strategy was designed to 
provide the social and economic development backing for GOC counter-
narcotics efforts, as well as critical support to the humanitarian 
crisis generated by the ongoing civil conflict.
    With $123.5 million provided to USAID for work in Colombia under 
the Plan Colombia supplemental in FY 2000 and $230.7 million of Andean 
Counterdrug Initiative (ACI) funds appropriated in FY 2002 and FY 2003, 
USAID is working toward the achievement of three broad and mutually 
supporting objectives in Colombia:

  <bullet> alternative development to support sustained reduction of 
        drug crops and enhance economic prosperity;

  <bullet> strengthening democracy and human rights; and

  <bullet> addressing the needs of people displaced by violence.

    While significant achievements have been made, the program 
continues to evolve in response to changing political, economic, and 
social conditions in Colombia. I would now like to describe USAID's 
program and the many accomplishments we have made in Colombia toward 
achieving USAID's objectives under Plan Colombia and the Andean 
Counterdrug Initiative.

                        ALTERNATIVE DEVELOPMENT

    The scourge of illegal narcotics threatens the social and economic 
fabric of Colombian society, and poses a threat to the U.S. Despite the 
bold efforts of President Alvaro Uribe to combat narco-trafficking, 
lack of state presence in large portions of the country has allowed 
both illegal narcotics production and armed, drug-dealing terrorist 
organizations to continue to flourish. An estimated 125,000 to 150,000 
families are involved in illicit crop production. While not directly 
responsible for the eradication of illicit crops, USAID's program 
focuses on making eradication of illicit crops sustainable in the eight 
departments with the highest concentration of coca and poppy.
    In order to provide small-scale farmers with a means to abandon 
illicit crop production permanently, USAID's alternative development 
program in Colombia seeks to increase licit income opportunities for 
small-scale producers of coca and opium poppy. This program has 
benefited approximately 33,000 families and supported cultivation of 
over 30,000 hectares of licit crops such as rubber, cassava, specialty 
coffee, and cocoa since 2001 in regions under the influence of illicit 
agriculture. Nearly 18,000 hectares of coca and poppy have been 
voluntarily eradicated. More importantly, the program has helped the 
GOC gain credibility in areas that have traditionally lacked or have 
received very limited state support.
    To increase private sector investment and productive employment 
generation in or near areas where illicit crops are produced, USAID has 
initiated new programs in agribusiness, commercial forestry, and small 
and medium enterprise development. Infrastructure initiatives are an 
important component of the program. Construction of roads and bridges 
provides short-term employment as families make the transition to licit 
crops, and provides communities with physical access to markets 
necessary to sustain a licit economy or develop the skills and acquire 
funds to pursue economic alternatives. As of June 2003, USAID has 
helped the GOC complete 410 social infrastructure projects including 
roads, bridges, schools, and water treatment facilities, greatly 
exceeding our original target of 26 projects by the end of 2005.
    Carrying out alternative development in a remote region with little 
or no government presence is difficult, dangerous, and takes time. 
Delays can result from many factors including changes in the security 
situation; the need to identify, test, and develop useful farmer 
assistance packages adapted to conditions in the region; and the need 
to identify, design, contract, and build appropriate infrastructure 
projects. Simple changes in weather patterns also limit some 
agricultural and construction activities in months of the year when 
rainfall is heavy.
    USAID continues to adjust its program based on security conditions 
and our evolving relationship with local communities. Greater emphasis 
has been placed on working more closely with individual communities to 
tailor the program to help these communities with the needs they 
identify. Larger infrastructure projects are undertaken to improve the 
economic potential of isolated regions and to provide temporary 
employment and income to rural residents making the transition from 
coca to legal crops and employment. USAID also expanded the geographic 
focus of the alternative development program to areas beyond southern 
Colombia, where conditions may be more favorable for alternative income 
generation.

                       DEMOCRACY AND HUMAN RIGHTS

    In August 2003, the FARC and the smaller ELN issued a rare joint 
statement ruling out negotiations with President Uribe, whom they 
described as an enemy of peace. The stalled peace process translates to 
more violence and human rights violations. About 20 people die every 
day as a result of Colombia's armed conflict.
    The FARC conducted a ``resign or die'' campaign against all the 
country's mayors and local officials. As a result, 1,500 city council 
members and 300 mayors have stood down, leaving 40% of the country's 
municipalities at the mercy of rebels and with little or no state 
presence. This obviously makes life very insecure for the general 
population of these areas.
    Impunity from arrest and prosecution is believed to be the basic 
problem that allows those responsible for human rights violations in 
Colombia to continue committing these crimes. It is also a strong tool 
to scare people to silence, as denouncing a violation might put the 
victim in an even worse situation, with threats, torture, forced 
disappearance, killing, and displacement as possible results.

Administration of Justice
    Colombia suffers from an extraordinarily high homicide rate of 63 
murders per 100,000 inhabitants each year. Surprisingly, most of these 
deaths are not related to the armed conflict with guerrillas. Rather, 
they are a result of drug-related violence, weak governmental 
institutions, and a pervasive sense of impunity before the law. The 
high homicide rate contributes significantly to general insecurity, 
lack of confidence in governmental institutions, and increasing numbers 
of people who resort to extra-official protection. Lack of access to 
legal adjudication of disputes is also one of the major contributing 
factors.
    To address this problem, USAID, in collaboration with the Ministry 
of Justice, has established the ``Justice Houses'' program to increase 
access to judicial and dispute resolution services for low-income and 
marginalized Colombians. These centers provide a ``one-stop-shop'' 
where citizens can seek help and redress on a wide range of issues.
    Thirty four of these Justice Houses have been established to date. 
Nearly 1.8 million cases have been resolved since the first Justice 
House was established in 1995, easing the burden on the over-taxed, 
inefficient judicial system. By providing an alternative to the use of 
violence, the Justice Houses are contributing directly to improving the 
sense of security as well as a sense of connection to the State for 
many Colombians. USAID is expanding this highly popular program and 
will establish an additional six Justice Houses by the end of FY 2005.
    Meanwhile, the traditional court system is hampered by backlogs of 
unresolved cases and overcrowded detention centers with individuals 
waiting to be charged. By providing technical assistance and training, 
USAID is helping to improve efficiency and transparency of the formal 
court system by assisting Colombia's transition from the traditional 
``inquisitorial'' system of justice to a modern accusatorial system 
based on oral trials rather than written procedures. In addition to 
being more transparent, and therefore less prone to corruption, oral 
trials are more cost effective and timely. Since 1998 when the GOC 
agreed to launch oral procedures, USAID has helped create 19 oral trial 
courtrooms and funded training for 6,160 judges, lawyers, and public 
defenders in oral trial techniques. In addition to this training, USAID 
provides broad support to law schools to adapt curricula to the new 
system. We also conduct activities designed to strengthen the Office of 
Public Defense to ensure a fair and timely defense for citizens. 
Continued, efforts to modernize the judicial system and improve oral 
procedures will result in Colombians having greater faith and 
confidence in their judicial system.

Human Rights
    Working through the Ministry of Interior's Protection Program, 
USAID assistance has helped about 3,000 Colombians whose lives were 
threatened in the past year alone. This includes human rights workers, 
labor activists, journalists, mayors, and others. The Protection 
Program has given financial assistance to people to help them avoid 
danger, helped to relocate nationally or internationally those who are 
threatened, provided protection to government and NGO offices, and 
provided the use of armored vehicles, or other protective equipment to 
people being threatened by terrorist groups.
    On a different track, USAID and the National Human Rights 
Ombudsman's Office have organized an Early Warning System (EWS) that 
provides the Colombian military, national police, and other state 
institutions with early warnings of situations that could result in 
massacres or forced displacements. The signs of impending mass violence 
include the arrival of unknown and armed men, graffiti, intimidation of 
individuals, and increased crime. The EWS is essentially an emergency 
telephone number where NGOs, municipal authorities, or individuals can 
call the National Human Rights Ombudsman's Office to report signs of 
potential violence. The validity and seriousness of the threat is 
evaluated and, when warranted, a formal warning is issued to the 
police, the military or other authority. Each warning from the National 
Human Rights Ombudsman's Office includes recommended actions, and the 
police and military are required to reply in writing to the threat and 
state what actions they have taken in response to the warning.
    To date, a total of 220 warnings were issued which resulted in 170 
responses or interventions by State authorities. A recent review 
indicated that the EWS was very effective in focusing attention on 
dangerous situations. USAID believes that the EWS has saved lives, and 
in the process, strengthened the link between communities and central 
state institutions.

Improved Local Governance
    Transparent and effective local government is an essential aspect 
of building confidence in democracy and providing community 
cohesiveness to help counter the influence of illegal armed groups and 
narcotics traffickers. Working in close coordination with the 
alternative development program, USAID is strengthening the capacity of 
44 municipal governments in areas where coca and opium poppy 
eradication activities are underway. Assistance is focused on 
increasing citizen participation in governmental decisions, 
strengthening municipal management, and reducing opportunities for 
corruption. As part of this component, 140 citizen oversight groups 
were created to improve management and delivery of municipal public 
services and track the use of public funds. Thirteen municipalities 
have reported increased revenue through improved application of fiscal 
systems, tax collections procedures, and cadastres. Funding is also 
provided for municipal infrastructure projects that benefit local 
communities while strengthening their ties to formal governmental 
structures. As of last July, 42 water and sewer systems, 56 schools, 
and 6 health centers were completed, providing jobs and improving 
infrastructure for nearly 60,000 citizens. The number of completed 
social infrastructure projects almost meets USAID's target of 115 by 
the end of 2005. These successes are helping to build citizen 
confidence in the ability of local government to provide services to 
the Colombia people.

Increased Transparency and Accountability
    USAID is promoting the use of more transparent and accountable 
central government management procedures through programs with the 
Controller General, the National Auditor, and the Accountant General as 
well as internal control units in targeted GOC entities. Over the past 
two years, audit and monitoring regulations were standardized in 26 GOC 
bodies, meeting the target set for the end of 2005. Four hundred 
officials were trained in new audit procedures. Training in finances 
and ethics was also provided to 30 public accountants, 50 mayors, and 
70 council members in four departments. USAID has trained almost 100 
citizen groups who will share their training with others and use it to 
combat corruption utilizing constitutional mechanisms such as citizen 
oversight committees and public hearings. Additionally, USAID is 
working with the Colombian Attorney General's Office to establish a 
national database containing disciplinary and criminal records of 
elected officials and public servants and companies doing business with 
the GOC. This information will help keep people with questionable legal 
and disciplinary records from being elected to public office or named 
as public servants in Colombian government agencies. Finally, USAID has 
assisted in the creation and implementation of a merit-based, 
transparent recruitment program to hire 120 regional directors of the 
Ministry of Social Welfare and 100 chiefs of internal control offices. 
These efforts are leading to a government that is more transparent and 
accountable to its citizens.

Support for Peace Initiatives
    USAID works with 18 Colombian private and public sector 
organizations to carry out activities that encourage or promote peace 
and conflict reduction. Approximately 150,000 people benefited through 
43 grants to Non-Governmental Organizations (NGOs) implementing peace-
related activities. USAID-funded activities included grants to support 
the participation of women in the peace process, NGO institutional 
assistance training, and the establishment of an information resource 
center within the Office of the High Commissioner for Peace. Each 
month, tens of thousands of children receive social skills training in 
remote areas of the country. USAID is currently working on 
strengthening peace negotiation mechanisms in the Office of the High 
Commission for Peace and helping the Government of Colombia to plan for 
a possible Unified Self-defense Forces of Colombia demobilization.
    Support for the Peace Initiatives is broad-based, national in 
scope, and focused on building the effectiveness and credibility of 
governmental institutions. These programs directly contribute to 
USAID's alternative development goals. Colombia's democratic 
institutions in recent years have been almost overwhelmed by the 
corrupting influence of the enormous drug industry and the prolonged 
civil conflict. USAID assistance directly counters these negative 
influences and helps build a broader constituency for a democratic 
solution to Colombia's social and political challenges.

                  INTERNALLY DISPLACED PERSONS (IDPS)

    Colombia has one of the largest populations of internally displaced 
people (IDP) in the world, estimated at between 2 million and 2.5 
million people, and the only IDP population in the Western Hemisphere. 
USAID has provided relief to about 1,092,000 IDPs and demobilized child 
soldiers, targeting aid specifically at female heads of household. At 
the beginning of the IDP program, USAID planned to assist about 400,000 
IDPs by this time. Thus far, approximately 42,900 IDPs are employed in 
new jobs and 14,000 have been given vocational and skills development 
training. Over 520,000 IDPs have received health care and almost 92,600 
IDP children have been provided with improved and more specialized 
access to education.

                       LOOKING AHEAD IN COLOMBIA

    Plan Colombia is working. Significant progress is being made on all 
fronts, but let me be frank--we still have much to do. Lessons from 
Bolivia, Peru, and Ecuador demonstrate that governance rather than 
income or poverty levels is the key underlying factor that determines 
whether or not the coca industry will establish itself, grow, or 
decline. Governance in this context includes a national government law 
enforcement presence, responsive local governments delivering public 
services and creating incentives against coca production, cohesive 
local communities, and a system of individual values or beliefs that 
reject drug production as a way of life. If local communities work 
together in a participatory manner and are supported by a visible 
national government presence with a strong commitment to the 
eradication of drug crops and a capable military presence, the illicit 
coca economy can be reduced significantly.
    The objectives of President Uribe's Democratic Security and Defense 
Policy, issued earlier this year, converges with the sentiments of 
President Bush in his National Security Strategy of the U.S. which 
states: ``We are working to help Colombia defend its democratic 
institutions and defeat illegal armed groups of both the left and right 
by extending effective sovereignty over the entire national territory 
and to provide basic security to the Colombian people.'' Our USAID 
program is directly supportive of the six objectives of President 
Uribe's Democratic Security Policy: (1) guarantee the security, 
freedom, and human rights of the population; (2) consolidate state 
control over national territory; (3) eradicate drug trafficking; (4) 
defend democratic order and the rule of law; (5) promote economic 
prosperity and social equity; and (6) reconstruct the social fabric.
    As I just described, USAID's program seeks to strengthen weak state 
structures as a means of ensuring improved security for Colombian 
citizens, while simultaneously increasing their participation in 
political and economic decision-making. USAID continues to work in 
reforming the justice system and improving respect for human rights, 
while initiating new programs to strengthen local governance, combat 
corruption, broaden citizen participation in political decision-making 
and back initiatives in support of the peace process. Equally 
important, USAID continues to introduce economic alternatives for rural 
Colombians transitioning to the licit economy and helps to provide 
badly needed assistance to displaced persons.
    Assuming that the objectives of Plan Colombia will have been met by 
2005, a key issue confronting USAID, as well as the GOC, will be how to 
protect and consolidate those gains within the context of broader 
political and economic conditions and trends in Colombia. In 
particular, USAID will need to determine the critical intervention 
``pressure points'' in both policy reform and institutional development 
terms that will facilitate the maintenance and consolidation of the 
progress now being made under Plan Colombia. To the greatest extent 
possible, USAID's efforts should be directed toward geographic regions 
of the country where public security has been regained and should 
concentrate on helping to establish legitimate state presence and 
providing people with access to health, education, justice, and 
economic opportunities. An effective strategy must entail the 
development and implementation of a regional economic development 
approach that promotes financially stable investment in critical 
infrastructure in targeted areas and the establishment of a stable and 
policy-friendly economic governance environment in these areas. Most 
importantly, it requires the development of core civil and fiscal 
governance institutions that (1) promote an improved allocation of 
scarce local government resources to critical social and physical 
infrastructure and social service needs and (2) strengthen the social 
bonds between the citizen and the state.
    Recently, the Government of Colombia requested USAID support with 
the design of a demobilization and reinsertion program for ex-
combatants which could be the first step toward a negotiated settlement 
of Colombia's prolonged civil conflict. If the Government is able to 
sign and implement demobilization agreements with irregular armed 
groups that have been fighting with Government forces and each other 
for more than 40 years, then a demobilization and reinsertion program 
could eventually provide assistance to approximately 35,000 ex-
combatants. The USG is currently analyzing its role in any future 
reintegration process. There are many legal and policy issues to be 
resolved before USG resources could support a reintegration program. 
Types of assistance being contemplated for adult ex-combatants include 
providing documentation, training and relocation support, education and 
counseling. All such assistance to excombatants would only occur after 
they have been demobilized and vetted for human rights abuses, narco-
trafficking, or other criminal charges. USAID currently has a highly 
successful demobilization program for child soldiers which could be 
expanded to accommodate more child soldiers should a massive 
demobilization occur.
    At this point in the process, there is no way to know with 
certainty exactly how many illegally armed combatants will demobilize 
in the near term or beyond. Demobilization and reintegration will 
provide critical support to President Uribe's new Democratic Security 
and Defense Policy and his significant commitment to enhanced security 
and expansion of state presence in conflictive areas. Without enhanced 
security it is unlikely that the U.S. and Colombia's shared goals of 
reducing drug production, improving the economy, strengthening 
democracy and increasing the presence of legitimate state institutions 
will ever be achieved.

                               CONCLUSION

    Let me conclude by stating that while we have made significant 
progress in achieving our objectives under Plan Colombia, we must 
continue our efforts. Colombia's multiple interrelated problems are not 
amenable to a quick fix. For continued effectiveness, USAID's 
alternative development strategy must be dynamic and respond quickly to 
change to promote collaboration of local entities with coca reduction 
goals. Long-term income creation means that alternative development 
programs must be diversified beyond the coca field and employment 
stimulated where it is cost effective and sustainable. We need to 
capitalize on the Andean Trade Promotion and Drug Eradication Act in 
the next two-three years in order that Colombia can effectively 
participate in the opportunities presented under the Free Trade Act of 
the Americas. We must continue to support efforts in citizen rights, 
participation, and rule of law. The Uribe administration is the ideal 
partner with which to work, combining will, strategic and operational 
creativity, and resources to the difficult task ahead. I hope we can 
continue to count on the support of this Committee and the Congress in 
facing down the scourge of narcotics and narcoterrorists.
    Thank you.

    Senator Coleman. We're pleased to be joined by the 
distinguished ranking member of the Foreign Relations 
Committee. And at this time, Senator Biden, before I begin my 
questions, I would certainly, if you have any statement----
    Senator Biden. No; you go right ahead. Thank you very much, 
though.
    Senator Coleman. Thank you.
    General Hill, let me follow up on the comments made by 
Senator Dodd concerning the three Americans. As I indicated, 
one of them, Randy Howes's cousin, is a Minnesotan, has been in 
contact with my office, and obviously deeply concerned about 
his fate, his status. Can you give me an update on where things 
are with these hostages and what are the prospects of their 
release?
    General Hill. Yes, sir. Like you, Senator, and all the 
other Senators, I am also very concerned and worry about these 
three Americans held hostage by the FARC. We believe that we 
kept them in a pretty small box for a long period of time, 
anywhere from 45 to 75 days. We had some good intel on that. 
But eventually, they made their way out of that area where we 
thought we had them contained.
    And since that time, the intelligence picture has, 
candidly, just dried up. We get very little intelligence for 
them, on them. We do not know exactly where they are. We have a 
belief of a generalized area. They remain a focus of our 
intelligence effort. And we will continue to search for them 
until we can obtain their safe return to the United States.
    Senator Coleman. Thank you, general. I think it is a shared 
belief by perhaps all of us, everyone on this panel, that in 
order to deal with the issues facing Colombia cannot be done in 
the abstract or in isolation but rather with a regional 
perspective. And I am trying to understand. Recently, we had, 
in Bolivia, a situation where it appeared that the coca 
growers, well-organized and well-represented, were effective in 
ousting an elected President.
    I am wondering if--and this is just to all the panel 
members. Talk to me about how we work in a regional manner when 
we look at the problems we have with U.S.-Venezuelan relations. 
We have the turmoil in Bolivia. From each of you, can you talk 
a little bit about the opportunities and the challenges to 
approach these issues and from a regional perspective?
    Secretary Charles.
    Mr. Charles. Yes, sir. Yes. Thank you. Well, I share, to 
begin with, both the concern and the forward-leaning statements 
in the openings, including the outreach to countries that we 
have not reached out to yet, in depth. I am an optimist. I know 
the balloon argument. I know all the other arguments that are 
often thrown out as defeatist. I am of the view that regional 
self-interests, and perhaps hemispheric self-interests, are 
coming into their own; and, in fact, are probably one of the 
three or four top factors that will decide the future of that 
region and ultimately our ability to win in the drug war 
internationally.
    Bolivia presents a special case. I have watched very 
carefully every day leading up to and after the reports that 
are coming out, closed and opened. And I remain of the view 
that while we have to be watching very closely, I have not seen 
any explicit backsliding yet, although I think we have to make 
it very clear that we have expectations. Those expectations are 
high. They are mutually self-supporting.
    And I think that, you know, we have seen recently success 
up to that point. I think it is important not to over-draw 
conclusions from the Cocaleros involvement. My understanding is 
that, that was really a much more broad-based event. Not that 
the Cocaleros were not deeply involved but that there was, in 
fact, a combination of a pipeline, which was quite 
controversial. There are issues that actually brought out 
miners, teachers, just about everybody. And I think that we 
need to be attentive to reinforcing the answer, our 
expectations, which are that the Bolivians will stay the course 
and, if anything, continue to recognize self-interest in the 
area.
    I will not elaborate too much more now. But I believe very 
strongly in the regional approach. And I think that there are 
other factors that will push us in our direction and that our 
success will ultimately be measured by whether or not we can 
get regional actors all to participate.
    Senator Coleman. General Hill.
    General Hill. Yes, Senator. I share your concerns. And as 
Senator Dodd and I discussed earlier this afternoon, the 
problem that is in Colombia is not Colombia's problem alone; it 
is, in fact, the region's problem and the region must address 
it.
    As I began my travels throughout the region last year, 
after assuming command, and in my discussions both with 
military and political leaders, I constantly asked that 
question: What are you doing about control of your border with 
Colombia?
    I have seen, over the course of a year, a growing 
understanding, as Mr. Charles just said, of a regional self-
interest. There is an understanding that they must, in fact, 
begin working more closely with the Colombians in a military 
and political sense; it takes on varying degrees. But in point 
of fact, I think that they are moving ahead in this area.
    Senator Coleman. Thank you very, very much, general.
    Mr. Franco.
    Mr. Franco. Well, I certainly share the statements of both 
Secretary Charles and General Hill. At the time of my first 
trip, Mr. Chairman, to Colombia I had, I think, been on the job 
24 hours. I traveled with Secretary Grossman. And he said 
exactly what General Hill said in Colombia. Colombia's problems 
are the region's problems.
    At USAID since before my tenure, so I cannot lay claim to 
it, we have been approaching this as a regional development 
problem, and we continue to do so. What that translates into is 
taking the lessons that we have learned and we have actually 
made a great deal of progress. I share Secretary Charles's 
testimony about Bolivia. The factors were multiple that caused 
the difficulties this year in February and that led to 
President Sanchez de Lozada's departure.
    But we have actually greatly moved to reduce coca 
production in both Bolivia and Peru. We have had a lot of 
successes.
    Senator Coleman. Can I ask, Mr. Franco, do you all doubt 
that there is a strong, powerful movement in Bolivia that seeks 
to reverse coca eradication, a movement that clearly has had 
political impact?
    Mr. Franco. Well, I do not doubt that, that is one of many 
factors. I also think the economic downturn, the budget 
deficits in the country, certainly the gas production issue and 
whether it should be exported through Chile into the United 
States, caused all of this to come together. As you know, Mr. 
Chairman, in February there was a problem with police salaries.
    So there are underlying, very serious development problems 
in Bolivia. It is the poorest country in South America. The 
Cocalero movement and so forth is one component of it, I do not 
doubt that. But I also know, and we can share with you, the 
great successes we have had in alternative development there 
and in Peru. We can identify lessons learned from those 
programs and we have applied some of these in Colombia.
    So as to approach, the narco-traffickers certainly approach 
the region regionally. And I think we need to. And the host 
governments need to as well, certainly the Ecuador-Colombia 
border in another example, where we are enhancing that 
cooperation.
    Senator Coleman. I just hope--and my time is up. But I hope 
that we take a look at what we are doing with alternative crop 
programs, that we do those things to make sure we are satisfied 
with what we are doing, that those who we are serving have a 
sense of satisfaction or the consequences could be very 
devastating.
    Mr. Franco. Could I just add one point to that? We often 
focus in on crop production, because we are talking usually 
about small-scale, poor farmers. We think the right way is 
integrated development that addresses communities, 
infrastructure, and state presence, in addition to income 
alternatives. And we do approach it that way in a comprehensive 
manner to have that ownership.
    Senator Coleman. Thank you, Mr. Franco.
    Senator Dodd.
    Senator Dodd. Thank you again, Mr. Chairman. Let me thank 
our witnesses for their statements. And General Hill, let me 
thank you as well for spending a few minutes prior to the 
hearing. We had a chance to catch up on some of these 
questions.
    One question I did not get a chance to ask you in our 
conversation, but it has been a source of concern to me over 
the years, and that is the issue of conscription and who is 
serving in the Colombian military. And an indication, because 
there have been some stories written as well about the so-
called elite in a society, where a lot of their resources leave 
the country. There are vacations, family, education, so forth.
    On the one hand, it is hard not to blame them, given the 
violence that occurs in the country, the targets of kidnapings 
and the like. But it is also a reflection to some degree of 
whether or not the commitment is to hang in there. And I 
mentioned earlier my admiration for the Colombian people. And I 
do not modify that statement in any way. But obviously, when 
you read about a lot of flight, capital flight, and people 
moving out, you leave only those who cannot afford to leave to 
stay and make the battle, if you will.
    And the issue of who serves in the Colombian military has 
been a source of some discussion here in the past. Is it still 
the law of the land in Colombia that if you have a high school 
diploma or more, you do not serve in the military?
    General Hill. Sir, you are talking about the Bachelero 
Program. That law exists. But in point of fact, it is all but 
gone away inside the Colombian military, as they have attrited 
those numbers down. And there is, in fact, a law in front of 
the Congress, the Colombian Congress, to do away with that 
provision in its entirety. That law----
    Senator Dodd. It has been there for some time, though, 
hasn't it? There has been a proposal for many years to do that.
    General Hill. For many years. You are exactly right.
    Senator Dodd. And it has been----
    General Hill. I was about to say that. It has been there 
for many years. It has not passed. I believe that there is, in 
fact, a determination upon the Uribe government to get it 
passed this year. I hope that it does get passed. It is a sore 
point.
    Senator Dodd. Yes. And it does raise the questions, 
obviously, when we are committing resources and obviously doing 
what we can here. And if you have people who can exclude from 
having to face the challenges of sustaining your country, it 
raises a lot of serious points.
    General Hill. It does, indeed. Could I add two points to 
that, Senator?
    Senator Dodd. Certainly you may. Certainly.
    General Hill. Two points, I think, that should be made. One 
is that right after the--I flew into Colombia the day after the 
El Nogal bombing, the bombing that took down the very expensive 
social club in downtown Bogota. The cynical approach, and I 
heard it said by several people, is, well, now we will see if 
the elites will hang around. What will happen with the 
Colombian people?
    When I drove into the airport, the main road in from the 
airport into downtown Bogota they close off on Sunday. And it 
happened to be a Sunday. And there were signs over all the 
overpasses that--and it would have been a United States sign--
we are going to see this through. This is not going to deter 
us. Victory. And there were thousands of people demonstrating 
their right and their lack of fear to walk on that street.
    I think if you also had Ambassador Wood sitting here, he 
would tell you that we are still trying to put some numbers to 
this. But anecdotally, we are beginning to see income coming 
back into Colombia and people and visas from the United States, 
coming back from the United States into Colombia. And those 
numbers are up. And I think that phenomenon is changing.
    Senator Dodd. Glad to hear that. I would be interested in 
following those numbers, if that is the case.
    General Hill. Yes.
    Senator Dodd. Mr. Charles, I am sure you are probably aware 
that a group of my colleagues and I sent a letter to Secretary 
Powell, concerning the Colombian draft amnesty law that I 
mentioned in my opening comments. And I want to raise with you 
a portion of the response received from the Department. 
Specifically in that letter, Mr. Fox states, ``No U.S. 
Government official assisted in drafting this legislation, and 
indeed no U.S. Government official was consulted on it.''
    I wonder if I should conclude from that statement that the 
U.S. Embassy knew nothing about the draft law, no one had any 
opportunity to review it or to raise concerns about it. Is that 
the case?
    Mr. Charles. The truth is, I do not know, sir. I will find 
out for you.
    Senator Dodd. Thank you.
    Mr. Charles. And I can tell you that I certainly had no 
connection with it. And I have strong opinions about that, that 
are probably concurrent with your own. But I will find out.
    [The following response was subsequently received:]

    No one in the U.S. Embassy in Bogota or Department of State was 
consulted by the GOC on the contents of the Conditional Parole Bill 
prior to the bill's introduction to the Colombian Congress. We were 
aware of reports that such a bill would be introduced. When the 
Government of Colombia shared the contents of this bill with the 
Embassy, we quickly provided input (outlined in the response to Senator 
Biden's question on page 44).

    Senator Dodd. I appreciate that. That is very, very good. 
We talked about the hostages being held. And I should have 
pointed out that the mother of Mark Gonzales is a resident of 
mine in Connecticut. And I would be concerned anyway but, 
obviously, the chairman and I having family members of these 
people heightens the concerns. And we hear from them quite 
frequently. I appreciate your comments. And I mentioned Ingrid 
Betancourt, as well.
    One of the things I am interested in, general, and maybe 
you can comment on this, is the Cessna 208, this aircraft, I 
gather it is being used rather widely in the area by these 
contractors. Can you give me some assessment of the wisdom of 
that? People have raised the issue with me, that this is not 
necessarily the wisest type of aircraft to be using in that 
area. And I certainly do not claim any expertise at all in 
answering that question. But I wonder if you might address it.
    General Hill. The Cessna aircraft that you are referring to 
is a widely used airframe in the United States and throughout 
the world. And it is a very dependable aircraft. When it was 
selected under contract several years ago by the Navy, in 
support of the operations in Colombia, in support of the United 
States Southern Command, it was selected because of its ability 
to do short takeoffs and landings and because of its 
dependability. It is, in fact, a single-engine airplane; and 
that usually raises the issue: why a single engine airplane?
    But it was and is a very dependable aircraft. We had 
experienced almost no problems with it up until the crash and 
we have no reason to doubt its reliability.
    Senator Dodd. So, we will stick with it as----
    General Hill. No, sir. We have--in fact, those two 
aircraft, there were two of them, they have both now been 
destroyed. And we have replaced them with dual-engine aircraft.
    But I would also point out to you, the F-16 is a single-
engine aircraft. There are lots of single-engine aircraft 
running around the world.
    Senator Dodd. No, I was not, as I said, I was not claiming 
any expertise. It was just the issue was raised. And why are we 
not replacing it with a single-engine aircraft, then?
    General Hill. We replaced it with a better aircraft. The 
other issue is that we have determined, as the program went 
along, that we did not need the ability--in the original 
scheme, as I understand it, was that the aircraft was going to 
be stationed at smaller airfields throughout Colombia. As the 
program evolved, it was not that way. We kept it in Bogota, and 
we flew it out of Bogota into other areas, not into the smaller 
airfields. So, it is not required at this point.
    Senator Dodd. OK. One last question with the yellow light 
on here.
    We talked earlier, and you expressed, as you did in your 
opening comments, your confidence in how things are moving in 
the right direction, without using ``light at the end of the 
tunnel'' comments and so forth, that invariably come back to 
haunt people; but clearly the trend lines, as you see them, are 
positive and constructive midway through the Plan Colombia, as 
we are proceeding with it.
    And I wonder if you might give us briefly here, obviously, 
how you characterize, in your view today, a candid assessment 
of the capabilities of the Colombian Armed Forces. And 
specifically, the question as to whether or not it is your 
assessment that the Colombian military, as it is constructed 
today with its training, background, and so forth, whether or 
not they are capable of defeating the FARC and the ELN 
militarily?
    General Hill. Yes, sir. The Colombian military in the 14 
months that I have watched it, has grown exponentially in 
professionalism and their capabilities. They have grown also, 
success breeds success, and they have grown a great deal in 
confidence. Much of that has to do with the aggressive spirit 
of President Uribe; who has, in fact, urged on the Colombian 
military leadership and that has taken on almost a life of its 
own, down in that organization.
    The second thing is we have spent a lot of time and effort 
in training up units and in working with them in order to 
ensure that they can sustain themselves in combat operations. 
When the SRS aircraft crashed and the three American citizens 
were taken hostage, the Colombia military put about 7,000 
people into an area of Colombia they had not been in 10 years; 
and they did it very rapidly.
    With our planning assistance and operational assistance, 
they found that they could sustain operationally and 
logistically a large-scale operation in heavy enemy territory. 
In my mind, that gave them a great deal of confidence.
    We have also trained up a special operations command, 
worked with them to train and form a special operations 
command. This gives them the capability that they have never 
had before in terms of realistically undertaking a military 
operation against the high value targets, i.e., the FARC, ELN, 
and AUC leadership.
    Senator Dodd. And have FARC and ELN, just lastly, have 
their tactics changed as the capabilities of the Colombian 
military increased?
    General Hill. Oh, it has, indeed; it has, indeed. What they 
have done is broken down into smaller elements. And they no 
longer are prepared to confront the Colombian military in large 
numbers. That is both an advantage and a disadvantage. When the 
Colombian military find them, it is easier to fight them. It is 
also harder to find them. But it has to make them more 
aggressive. And it is that aggressive spirit of the Colombian 
military that, in fact, has prompted me to come in here and say 
I believe that they in fact have turned the corner.
    Senator Dodd. Thank you.
    General Hill. Not very far but they have turned it.
    Senator Dodd. Thank you.
    Thank you, Mr. Chairman.
    Senator Coleman. Thank you, Senator Dodd.
    Senator Biden.
    Senator Biden. Mr. Chairman, I ask unanimous consent that 
my opening statement be placed in the record.
    Senator Coleman. Without objection, it will be entered.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, thank you for calling this hearing today to examine 
U.S. policy in Colombia.
    Three years ago, we renewed our commitment to the Andean region 
providing funding for Plan Colombia, as well as for counter-narcotics 
programs elsewhere in the Andean region.
    Since then, we have provided over two billion dollars in assistance 
to Colombia to combat the drug trade and restore the rule of law.
    We are beginning to see some results.
    Last year, there was a 15 percent decrease in coca cultivation in 
Colombia and a 25 percent decrease in opium poppy cultivation. This 
reduced supply has led to a modest decrease in purity of both cocaine 
and heroin on the streets of the United States.
    There is still a long way to go but this progress is encouraging. 
Unfortunately, we had setbacks elsewhere in the region. In 2002, coca 
cultivation increased by 8 percent in Peru and 23 percent in Bolivia.
    The recent resignation of the President of Bolivia was the result 
of widespread public protests, some of which were spurred by coca 
farmers opposed to U.S. policy.
    We face continuing challenges in both countries; we must do more to 
help them.
    Two other elements of our policy in Colombia bear emphasis. First, 
human rights. According to the most recent State Department report, in 
2002:

          The [Colombian] Government's human rights record remained 
        poor . . . A small percentage of total human rights abuses 
        reported were attributed to [Colombian] security forces; 
        however, some members of the government security forces 
        continued to commit serious abuses, including unlawful and 
        extrajudicial killings. Some members of the security forces 
        collaborated with paramilitary groups that committed serious 
        abuses. Impunity remained at the core of the country's human 
        rights problems.

    I know that President Uribe is committed to improving human rights. 
But the message is still not getting through to all levels of the 
military. We need to see more improvements.
    Unfortunately, President Uribe recently muddled the message by 
stating publicly that some human rights groups in Colombia were, in 
essence, spokesmen for the terrorists.
    Human rights work is already dangerous enough in a country like 
Colombia and I fear that the President's remarks may have put people at 
greater risk.
    Second, last year Congress changed the law to allow Colombia to use 
equipment we have provided for other than counter-narcotics purposes. 
This recognizes the reality that Colombia's illegal groups are all 
involved in the drug trade. But we must be sure that this change in 
authority does result in a major change in focus: Our priority must 
continue to be fighting the drug trade.
    I look forward to hearing from our distinguished witnesses and 
having a frank discussion with them about the progress we are making 
and the road ahead.

    Senator Biden. General, you indicated that the exodus of 
educated Colombians and Colombian money may have begun to 
reverse. To what do you attribute this apparent trend?
    General Hill. The reason is, Senator, in my opinion, that 
there is growing confidence in the security and stability of 
Colombia; and in the fact that the market is reemerging. Let me 
give you one anecdote on that issue. I was with President Uribe 
about three weeks ago in Cartagena at his Camp David.
    Senator Biden. Nice place.
    General Hill. He had asked me to come down and meet with 
him and the high command. We had had about a four-hour 
discussion. And he says to me, ``I have to go give a speech. 
Would you come with me?'' And I said, ``Certainly.'' And we 
went into the city of Cartagena to a convention of construction 
builders. Last year, this same convention drew about 20 firms, 
20 people. This year, it drew about 500.
    That said a lot to me in terms of their confidence in their 
own economy, in the security of being able to hold that 
convention, and in their desire to move ahead. That is what I 
am saying.
    Senator Biden. Are any of you prepared to try to shed some 
light on the comments by President Uribe relating to human 
rights workers?
    Mr. Charles. You are referring, Senator, to the speech that 
he gave?
    Senator Biden. Yes.
    Mr. Charles. I think we might all find ourselves on about 
the same page. I think that those comments, as Senator Dodd 
said, were probably poorly chosen at best. But I also think 
that his record does belie them at the front end. There has 
been a 16-percent reduction in murders, a dramatic decrease in 
kidnapings, labor-related incidents. There appears to be a 
strong emphasis, in fact, on human rights.
    I am personally, deeply committed to making sure that--that 
is constantly raised and that we see genuine results ahead.
    Senator Biden. What was he talking about?
    Mr. Charles. To be honest----
    Senator Biden. Was he talking about all human rights 
workers? Or was he focusing on particular individuals or 
incidences on which he did not elaborate?
    Mr. Charles. I have to confess to you that having been here 
three weeks and two days on this job, I have not met with him 
directly on this. And I do not know. I do know that objectively 
I was concerned. I looked at it. And I believe that there is a 
strong commitment by the Colombian Government, and by him, to 
human rights. And I think he now knows, if he did not before, 
how strongly held the views are by many on that topic.
    Senator Biden. Well, he has heard from a lot of us on it. 
General, what do you think President Uribe was talking about?
    General Hill. Sir, he was not talking about all groups. And 
in point of fact, as I recall the discussion and his statement, 
he narrowed it down to three points. And the last point he said 
was there are some who are, in fact, collaborating and doing 
the work of the illegal armed groups.
    I believe, having discussed it with him, that he regrets 
having said those words. As Mr. Charles said, I believe that 
they have a very good record to put forward in terms of 
improving human rights inside Colombia. And I urged him to 
simply lay that record out there for all to see and then to 
move on.
    Senator Biden. Mr. Charles, has the United States made any 
formal recommendations as to what a conditional amnesty program 
for illegal armed actors in Colombia should look like?
    Mr. Charles. As far as I know, we have not made any.
    Senator Biden. Do we have an intention of making clear our 
view on how an amnesty program should relate to extraction 
requests? Has the administration considered how this program 
might affect extradition? We have indicted several military 
leaders, as you know, including AUC leaders for drug 
trafficking.
    Do we know how the legislation addresses extradition 
requests such as these?
    Mr. Charles. There are a couple things. First, we have 
demarched them immediately on the topic. And I think we have 
made it very clear what our position is, which is that we want 
no extradition changes. We want to be able to extradite and 
have extradited. There has been some good news prior to this 
point. And we hope that that would continue.
    I think that we have also made it clear that we hope that 
the end result will be something that does not allow people 
either to benefit from ill-gotten gains or to escape 
extradition. My understanding, and, again, I am limited in my 
understanding as yet, but my understanding is that there are 
different drafts of what might be done under consideration. And 
I think our hope is that they will reach one that will allow us 
to reach to the people that we know, in fact, have indicted.
    As you indicate, AUC and FARC ought not put us in a 
position where we cannot have a successful extradition 
agreement.
    Senator Biden. Have we----
    Senator Dodd. Joe, just on that point----
    Senator Biden. Sure.
    Senator Dodd. I asked the question whether or not we were 
on consultation with that law. And I think your answer was that 
you were going to get back to me on that, to find out whether 
or not the discussions between the U.S. Embassy and the Uribe 
government about his proposal. Your answer was you did not 
know?
    Mr. Charles. Correct.
    Senator Dodd. Maybe we can find out. That seems to be a 
pivotal question.
    Senator Biden. It seems that there are two issues here. 
One, prior to the introduction of the legislation, was there 
any consultation? Or subsequent to the introduction of the 
legislation, has there been any conversation? Were we explicit 
about what our concerns are; or will we demarche the government 
about our concerns on this legislation? And have we received 
any assurance that there would be an attempt to accommodate our 
concerns, or at least have we received a clear explanation as 
to why our concerns would not be accommodated?
    [The following response was subsequently received:]

    The Department of State and our Embassy continue to discuss issues 
related to the peace process with the Government of Colombia. In our 
discussions with the Uribe Administration, we have reiterated that 
combatants who have committed gross violations of human rights or 
significant narcotics trafficking should be held accountable for their 
actions. We have also made it clear that we will actively pursue 
extradition of Colombians indicted in the U.S., now or in the future. 
The GOC understands our concerns and has assured us that the 
legislation will not undermine our current extradition relationship. As 
we monitor the legislative process, we will continue to insist that 
nothing in the bill or in negotiations with the AUC impede extraditions 
to the U.S.

    Senator Biden. My time is up. I yield to my friend from New 
Jersey.
    Senator Coleman. Thank you.
    Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman. I appreciate the 
witnesses. And this is an area where I am trying to grow my 
background. So, if some of my questions are somewhat 
amateurish, I will plead guilty for being a newcomer.
    Let me start, though, with a macro question, which may have 
actually already come up. But the recent mayoral election in 
Bogota and the change of the Bolivian Presidency, the 
instability in Venezuela does not seem in some ways to overlay 
with what I heard as some of--may be the optimistic 
interpretations of how things are evolving. Some of those 
political democratic moves, small ``d,'' seem maybe working at 
counter-purposes to some of the policies and efforts. I would 
love to hear your comments on how you interpret these 
democratic rumblings.
    And then the second area that I would love to hear some 
comment on, I am clearly less familiar with all aspects of the 
human rights issue. But just reading on the surface, as my 
colleagues have mentioned, the comment of the President is 
disturbing and particularly in the context of some of the human 
trafficking that has come to light in recent months, is a 
concern of a number of folks who have family ties back and 
forth.
    And then an issue that may be old, since everyone is going 
home. Not exactly what the general said but that there is a re-
flow. Certainly the Colombian-American community challenges me 
regularly about temporary protective status. And I would love 
to hear how you all respond to that in the context of human 
rights abuses that are recorded and certainly this human 
trafficking.
    But one macro political question, one more related to the 
specifics of these human rights issues.
    Mr. Charles. If I could take a quick stab at them and also 
give a quick footnote to Senator Biden's question. Let me say 
with respect to Bolivia, my comment a minute ago, I think, is 
how I would respond to that again, which is that we are going 
to watch very closely. I think it was not a cocalero 
exclusive--exclusively a cocalero issue. I think that there has 
been progress made. And what we really have to do is make the 
point directly that we expect, and we will hope for, and we 
will work toward sustained progress there in all of the 
programming areas that have been discussed.
    With respect to the mayoral election and the elections 
generally, including the referendum, I would just make a couple 
of quick points. One is that, you know, the beautiful thing 
about a working democracy is that it produces leaders from 
left, right, and center. And if anything, maybe this is a 
silver lining, but my view is that having an elected mayor who 
is not from the same party and has a different frame of 
reference is actually an indication that people could rejoin 
the political process in Colombia in a constructive way, 
holding very different opinions.
    The second thing I would say is that the referendum, as I 
understand it, had two components that did not--you know, it 
has been discussed as a setback or that the referendum did not 
come up to--was a defeat. And I think that--that is a little 
bit of an overdrawing or an overstatement of what happened. My 
view is that it came. You had a--you needed a 25-percent 
turnout in order to make these valid on two issues, in 
particular the fact that there were two components. One was a 
reduction in the size or shrinking of their Congress and the 
second was a freeze on federal salaries.
    And I would suggest that maybe if those two came to a vote 
in this country, you might have a massive turnout. And I do not 
know what that would indicate. But I think the point is those 
were not specifically undercutting his conviction, that 
stability in all the things that the three people here have 
been working toward with him will be a success.
    And the other thing I would note is that his personal 
popularity is extremely high relative to his mission that he 
has articulated.
    On the human rights issue, I would say without particularly 
expanding beyond what has already been said, that sometimes 
there is a blessing in disguise. When an issue comes to the 
fore through a speech, for example, that elevates the use of 
words and what people really--asks the question, what do they 
really mean, it allows you to articulate back what your 
expectations are. And I think that is, in many ways, what we 
have done. And I think it actually is a good thing at the end 
of the day.
    At the end of the day, he now has a clear understanding of 
how deeply important that is to many of us up here in both 
parties and across the board.
    And then I just wanted to suggest to Senator Biden, whom I 
know is no longer here, that from what I'm just understanding, 
asking back to folks who sort of predated me in this and also 
were here on this topic, that we were explicit in our demarche. 
We were very explicit and that this is a work in progress and 
that we are going to continue to let be known our position, not 
least because he has sought our inputs. And we are going to try 
to give him our inputs as explicitly as we can.
    Senator Corzine. Can you respond particularly to the human 
trafficking issue, which has gotten some recognition as a 
problem? Is it a growing one? Is it something that is different 
than the kidnaping issues that have been more in the limelight?
    Mr. Charles. I know it is an issue and it is one that we at 
this Bureau have people who know more about it than I do. And 
what I will do is I will look into it and see if there has been 
a change recently and see if I can get back with specifics to 
you on that.
    Senator Corzine. And TPS?
    Mr. Charles. The same.
    [The following response was subsequently received:]

    Colombia is a Tier 1 country in the 2003 Department of State 
Trafficking in Persons Report because the Government of Colombia (GOC) 
is making significant efforts to combat trafficking. The GOC is making 
significant efforts in prevention, assistance to victims, and 
especially law enforcement. A new law in June 2002 criminalized 
trafficking and imposed tough penalties. Colombian police have 
conducted joint operations with Japan, Spain, and Netherlands to free 
and repatriate hundreds of Colombian victims and make over 100 arrests. 
There have also been numerous convictions of traffickers in Colombia.
    The GOC does a good job collaborating with national NGOs to alert 
vulnerable populations and provide assistance to victims, although 
funding for one of the premier service providers to child victims of 
sexual exploitation, Casa Renacer, has recently dropped off. In the 
past two fiscal years, the Department of State's Trafficking in Persons 
Office (G/TIP) has spent $463,285 on supporting repatriation, public 
awareness, victim assistance, police training, and enhancing regional 
coordination and source-destination country coordination. Programs have 
been run through the International Organization for Migration (IOM).
    Nonetheless, Colombia is one of the biggest source countries in 
Latin America (along with Brazil and Dominican Republic) for women and 
girls trafficked abroad for sexual exploitation. Key destination 
countries are Spain, Netherlands, and Japan, and the key source area is 
the coffee-growing region.
    Child sexual exploitation, which is considered trafficking when a 
third person is involved such as a pimp or brothel owner, is also a 
problem in the country. The civil conflict and drug trade, which leave 
many children homeless, orphaned, and displaced, contribute to the high 
numbers of children vulnerable to exploitation.

    Senator Coleman. Thank you, Senator Corzine.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Charles, tell me about who in your office is having 
direct contact with the families of the three hostages.
    Mr. Charles. Let me ask.
    At present, I am told that no one has had direct contact 
because these were DOD contractors; they were not State 
Department. However, I will tell you that personally I have 
already put inquiries out because, to my view, we are in a 
position, right now, where these are Americans; they are being 
held hostage. And, frankly, anywhere in the world, it should 
not matter geographically where they are. We should be 100 
percent committed to getting them back here safely.
    And I will tell you, this is--you did not ask this but I 
will tell you this personally. I worry about this job. I do not 
go to sleep well at nights because I worry about pieces of it. 
And this is one piece that troubles me greatly.
    [The following response was subsequently received:]

    The Department of State's Bureau of Consular Affairs has been the 
main point of contact for the hostages' families. Since February 25, 
Consular Affairs has been in weekly communication with the family 
members of all three hostages, including wives, parents, and siblings, 
and has kept them up to date on, the progress of our search and rescue 
efforts. The most recent contact with the three families was on October 
28.
    As I noted during the hearing, I share your deep concern for the 
situation facing the families of these hostages. I am personally 
committed to making sure we prioritize this outreach. Following our 
discussions at the hearing, I have established a point person in INL to 
make sure we are doing everything appropriate to address your concerns.

    Senator Nelson. You are exactly right. Nobody has been in 
contact with them. Two of them are from Florida. One of them is 
from Georgia. But the one, Stansell, from Georgia grew up in 
Florida, went to high school in Florida. And his parents are in 
Florida. And I just spoke with his parents today. We have 
talked to all the families.
    I can tell you that having been joined at the hip with 
Senator Roberts of Kansas on the question of Captain Scott 
Speicher, the first American flyer shot down in the gulf war, 
that were it not for the Navy----
    In the case of Captain Scott Speicher, were it not for 
Senator Roberts and I raising cain, and fortunately the Navy 
has responded. And they have given great comfort to that 
family. And, of course, you can imagine what that family is 
going through in this case. Twelve years ago, Speicher is shot 
down. He is declared dead. His widow remarries. And then the 
Pentagon changes the status to missing in action instead of 
killed in action. And just this past fall, a year ago, the Navy 
declared him missing-captured. And I want to commend the Navy, 
because they have really reached out. They have tried to under-
gird that family.
    And that is what we ought to do here. These are three 
Americans who were under contract to the Department of the 
Army. And they are being held because they are Americans. And 
fortunately, they are being held; and fortunately, they look to 
be fairly healthy.
    And so I want to make a direct appeal to you on behalf of 
these three families, that you direct a high-level person to 
keep these families in the loop. And if necessary, have them 
cleared, as the Speicher family is, for certain levels of 
classified information, so that they do not have to worry 24 
hours a day, which they are going to do anyway. But at least it 
will ease a little bit of their worry.
    Mr. Charles. Senator, you are speaking directly to my 
heart; and I will do that. And I will tell you that you are 
closer than you know. I am a Navy officer. And a good friend 
that I grew up with years ago was very close to Scott Speicher. 
And so I take this, independent of that, I will take this back. 
We will be in contact. And I believe Consular Affairs has been 
but maybe--no maybes about it, we need to do more and I will do 
more.
    Senator Nelson. Now, I have spoken with General Hill about 
this case. And of course, General Hill is one of the best 
officers we have representing our country. And this is a very, 
very difficult situation. As Stansell made the plea on the 
videotape, if you come get them, they are going to kill them. 
And so it is a very, very difficult situation. But it is one 
that we have to keep after. Because if people had not been 
keeping after the Navy, they would have forgotten about Scott 
Speicher. And so, we are going to keep the attention on this 
issue.
    And I make a personal plea to you on behalf of the three 
families to keep pressing this issue; I know General Hill is.
    Thank you, Mr. Chairman.
    Senator Coleman. Thank you, Senator Nelson.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Mr. Franco, I remain concerned about the enormous gap 
between the areas subject to aerial fumigation and much smaller 
areas in which alternative development programs are taking 
place. The Colombian Government claims that they eradicated 
303,000 acres of coca and 7,516 acres of poppy in 2002. For 
that same time period, USAID states that they supported the 
cultivation of approximately 25,000 acres of legal crops.
    What measures are our government and the Colombian 
Government taking to make sure aid is available to small 
farmers willing to eradicate? How many families in total have 
been affected by aerial fumigation? How many families have been 
helped by alternative development programs? And what happens to 
the families who are sprayed and given no alternative 
development assistance?
    Mr. Franco. Well, first, Senator Feingold, I know of your 
continued interest in this area. And we share the same view, 
which is to provide alternatives and assistance and build 
democracy in those areas where we are conducting fumigation and 
other counter-narcotics activities. Specifically, what we have 
done at USAID is really two things in this area. We have tried 
to focus, Senator, in those areas where there has been the most 
aggressive fumigation taking place. And that is because that is 
where the greatest need has been.
    And we have, to date, benefited approximately 33,000 
families directly with alternatives that range from finding 
alternative markets and products that can be cultivated. In my 
testimony, I give examples of rubber, casava, and things in the 
area that our technical experts have identified as profitable 
and for which there are local and national markets.
    Second, we have also engaged in, I believe, a very 
successful voluntary eradication effort at the community level, 
particularly in the Putumayo area. And that has been an effort 
on our part to persuade communities, working in a community 
level, not an individual farmer level which has been in the 
past not as successful in the previous Colombian Government. We 
are working to provide communities, that have buy-in as a 
whole, with a package of community and individual services. And 
we have successfully, as a consequence of that, had over 18,000 
hectares of coca and poppy voluntarily eradicated and a host of 
packages of assistance provided to those affected families.
    So, our focus is on those areas where we have active 
fumigation. We try to persuade communities to voluntarily 
eradicate and then work with our colleagues at INL and NAS in 
Colombia to ensure that those areas are not fumigated or 
sprayed and that alternatives are then available to those 
communities.
    Senator Feingold. Did you say how many families in total 
have been affected by aerial fumigation?
    Mr. Franco. We have provided assistance to 33,000 families.
    Senator Feingold. But how many have been affected by the 
fumigation?
    Mr. Franco. I do not know how many. I really do not know. 
We can try to get that information on the affected families.
    Senator Feingold. Get that to me. See if you can get that 
to me.
    [The following response was subsequently received.]

                 Families Affected by Aerial Fumigation

    Colombia's illicit crop eradication program treated over 127,000 
hectares of coca and 2,820 hectares of opium poppy with glyphosate in 
2003. Because coca and poppy growing are illegal activities in 
Colombia, it is impossible to gather precise and conclusive data on how 
many people are affected by the loss of these crops. Alternative 
Development Office personnel in Bogota estimate that more than 130,000 
families have been directly affected by the aerial eradication program, 
but this is only a rough estimate based upon available information.

    Senator Feingold. General, thank you for being here. I have 
a couple questions concerning the private military contractors. 
And before I ask that, I would like to also express my great 
concern for the three American civilian contractors who were 
kidnaped and are currently being held by the FARC.
    General, U.S. laws specify the maximum number of military 
personnel and private military contractors working in Colombia. 
Recent media reports indicate that U.S. contractors are 
circumventing these limits and congressional intent by hiring 
non-national subcontractors. Is this the case?
    General Hill. I am going to defer the contractor issue that 
you are talking about to Mr. Charles. The law says that we can 
have 400 military people and 400 contractors. As we count those 
contractors, we are under that 400 in both cases.
    Senator Feingold. Mr. Charles, are these limits being 
circumvented by hiring non-national subcontractors?
    Mr. Charles. There certainly is no--that I know of, no 
circumvention of the law. And I understand the military cap 
issue. And I have to get into it more deeply. But again, I will 
take this under consideration. I do not see--I do not know of 
that occurring. But I will get back to you on it.
    [The following response was subsequently received:]

    The Department of State does not believe that the hiring of non-
U.S. national contractors constitutes a circumvention of the spirit or 
the letter of the Congressional personnel cap. We believe that 
Congressional intent in establishing the personnel caps was to limit 
the U.S. citizen footprint in a dangerous operational theatre and to 
reduce any potential for the United States to be drawn into a 
protracted internal Colombian conflict.
    Under the relevant legislation, as amended, Congress placed a 
ceiling of 400 on the number of U.S. citizen civilian contractors (and 
a similar ceiling of 400 on the number of U.S. military personnel) who 
could be in Colombia ``in support of `Plan Colombia.' '' While the 
numbers of permanent and temporary U.S. citizen civilian contractors 
vary as programs are begun, expanded, and concluded, the number of U.S. 
citizen civilian contractors has never exceeded the 400 person ceiling 
established by Congress.
    The Department of State regularly submits to Congress reports on 
personnel caps in response to the requirements of section 3204(f) of 
Title III, Chapter 2 of the Emergency Supplemental Act, 2000, as 
enacted in the Military Construction Appropriations Act, 2001, P.L. 
106-246 (``the Act''), as amended. During the last reporting period 
(July, August and September), the number of U.S. citizen civilian 
contractors fluctuated between 268 and 355.
    The United States Government employs civilian contractors--some of 
whom are Colombian or third country nationals--because of the 
flexibility in planning they allow and because the skills they provide 
are often not otherwise available to the government. They provide 
training, equipment, infrastructure development, funding, and expertise 
to the Government of Colombia and Colombian civil society in the areas 
of counter-narcotics and counter-terrorism, alternative development, 
interdiction, eradication, law enforcement, institutional 
strengthening, judicial reform, human rights, humanitarian assistance 
for displaced persons, local governance, anticorruption, conflict 
management and peace promotion, the rehabilitation of child soldiers, 
and preservation of the environment.

    General Hill. Can I come back to this, Senator Feingold?
    Senator Feingold. Yes, general. Go ahead. I have another 
question for you, as well.
    General Hill. And the reason I do that is because we have 
been discussing this at great length over the last 6 or 7 
months. The law is very clear in terms of what it says. It says 
that military folks, military people, and contractors in 
support of Plan Colombia. We have, both within the military 
group in Bogota and out of the Embassy, been very scrupulous in 
how we have counted those folks. In fact, we count more to meet 
the intent than are really there. We could, in fact, not count 
some of them. But we try to go above, to ensure that we meet 
the intent of Congress on this. And we have not played fast and 
loose with this.
    Senator Feingold. Do you know how many are there, how much 
they cost, and what they are doing?
    General Hill. I do, sir.
    Senator Feingold. Are they cost effective?
    General Hill. I believe that they are cost effective; yes, 
sir.
    Senator Feingold. Who is responsible for their safety and 
who is responsible for their actions?
    General Hill. I am going to turn back again to the INL, 
because they work for INL.
    Senator Feingold. Mr. Charles.
    Mr. Charles. We say that the safety issues are, again, a 
big--I have been here three weeks. This has taken up a chunk of 
my time already here, because I am concerned about it. I am 
concerned, and have had to get full briefings, and expect to be 
down there shortly to understand better exactly what we do.
    Just so you know, I have ordered a top-to-bottom program 
review, probably in 90 to 120 days of every single program 
within INL, so that I understand where every dollar goes. And 
in that same vein, there has been, obviously, a lot of 
reporting on this. There has also been a lot of reporting up to 
Congress on this. But I want to tell you that we are looking to 
maximize safety for every one of the contractors. I do think 
they are cost effective. They do--they are very brave people 
out there, flying in a combat--more or less combat environment 
or certainly hostile fire environment.
    Last year--this year already, there have been something 
like 339 shots against contractors who are doing the spraying. 
There were, last year 194; and the year before, 191. I think 
part of that is a reflection of how well we are doing in the 
sense that the FARC and others that we are spraying against 
know that their revenue is going away. And it is going away, as 
the charts earlier showed, in larger and larger numbers the 
revenue that they are going to derive from this.
    And so, they are reacting to that. The safety issue is a 
big one. And one of the things I did, actually as I went 
through and I asked, I want to know exactly what we are doing 
with every plane. And this is basically what I have learned so 
far. And I think I take it on that we bear some significant 
responsibility for their safety.
    We fly OV-10s. There are three types of aircraft that are 
flown by the contractors in this domain, the OV-10s, the T-65s, 
and the 802s. The OV-10s are twin engine planes by choice. They 
are flown by choice because twin engine, as Senator Dodd 
pointed out earlier, in areas where you have triple-canopy 
jungle, or you have a very difficult environment, or you may 
encounter hostile fire, this is the place you want to have the 
greatest safety.
    In addition, there is Kevlar around the whole--they are 
heavily Kevlared, in addition to which in some airframes down 
there you have a half-inch thick steel. On top of that, they 
all have bullet-proof vests. They are each given bullet-proof 
blankets to work with, if--they can use them underneath them. 
There are a range of safety provisions that go into training. 
They have equipment, including a weapon. They have strobe 
lights. They have signaling things in case they go down. They 
have air survival kits.
    The bottom line on this is that we--and I am very 
dedicated, because of some of my past lives, to this 
proposition that they have to be absolutely safe in this 
environment, to the greatest extent possible. You are talking 
about flying in an environment where there are shots being 
taken at them. And they are--there is risk involved, as there 
is risk involved in a lot of things.
    One thing I think there is a misnomer out there that 
somehow you can create a gap-free airframe. A-10 Warthogs are 
not gap-free flying in their zones. There are places where you 
are going to get hit.
    The other thing is, we have a--I have made sure that we 
have a significant package going in a SAR package and a 
protection package with them at every flight that goes in. So, 
you have one SAR helicopter. You have two helicopter gunships 
going in with them and you have two transports. Each of the 
transports has between 10 and 15 fast-reaction forces, 
including EMTs.
    So, I will tell you that I take the safety issue very 
seriously. I have already ordered, in addition, a review just 
because of the air wing publicity that has occurred. I want to 
know exactly what we are doing down there. And I think you will 
continue to hear from a significant concern on that.
    I am also very respectful of the caps. And again, I will be 
coordinating with General Hill. But I have no reason to believe 
that we are not working closely within them.
    Senator Feingold. Thank you for your answer. I thank the 
witnesses. Thank you, Mr. Chairman.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I would like to thank Senators Lugar and Biden for convening this 
important hearing on ``Challenges for U.S. Policy Toward Colombia: Is 
Plan Colombia Working?'' I have long had concerns regarding Plan 
Colombia, and I am pleased that we are taking a hard look at the 
effectiveness of U.S. assistance and its impact on the Colombian 
people.
    Since 2000, we have invested billions of dollars in foreign aid and 
defense assistance to Colombia, and yet it appears that violence 
continues to rage. The figures are startling. Amnesty International 
reports that the number of deaths due to political violence has 
increased from 14 per day in 2000 to 20 per day in 2003. The Center for 
International Policy estimates that 4,000-7,000 people, including 
combatants and civilians, died in the past year. Human Rights Watch 
reports that over 11,000 children are fighting in irregular armed 
forces, and in 2002 alone, approximately 400,000 people were displaced 
in 2002 and 130,000 in the first half of this year alone.
    What I find most alarming is that while violence escalates in 
Colombia, and the United States continues to pour money into promoting 
the establishment of a secure democracy, my constituents and other 
organizations tell me that institutional safeguards to protect human 
rights are weakening. Over the last year, the Uribe government 
presented a series of legislative and constitutional reforms that grant 
police powers to the military to detain people, carry out searches and 
establish wiretaps without warrants or judicial oversight. President 
Uribe has also put a proposal before the Colombian congress granting 
near total amnesty to paramilitaries--those forces who have been most 
responsible for murder of civilians in Colombia.
    In addition, Human Rights Watch claims that Colombia's Attorney 
General has blocked the most sensitive investigations of military 
officials accused of human rights violations and forced many 
prosecutors and investigators involved in these cases to resign. Many 
argue that President Uribe's comments in September of this year linking 
human rights groups and non-governmental organizations to terrorists 
only increased Colombia's environment of fear and the vulnerability of 
human rights organizations to violence throughout Colombia.
    I believe that the United States and the international community 
must assist President Uribe in strengthening Colombia's institutions 
and the organizations dedicated to protecting human rights and 
supporting civil society. The State Department must start to weigh in 
strongly with the Colombian Government against measures that limit 
democratic rights. The U.S. Ambassador and other embassy personnel 
should regularly meet with Colombian human rights groups, visit their 
offices and host public events that include human rights groups, thus 
conveying their importance and their legitimacy. The United States 
should more strongly support the Ombudsman's Office in monitoring human 
rights violations in Colombia and continue support to other human 
rights organizations, including the Office of the United Nations' High 
Commissioner for Human Rights in Colombia.
    I would also like to raise a second issue, one which I have 
consistently discussed--the flawed U.S. policy of eradication and 
alternative development. It is my understanding that in 2002 the 
Colombian Government eradicated 303,000 acres of coca and 7,516 acres 
of poppy; for that same time period, USAID states that they supported 
the cultivation of approximately 25,000 acres of licit crops. This 
discrepancy appears to be a violation of congressional requirements, 
which state that U.S. funds may not be used to purchase herbicides for 
fumigation unless alternative development programs are being 
implemented that encourage small farmers to abandon illicit crops in 
exchange for government assistance for alternative crops. I know that 
the administration defends itself by stating that if there is a single 
alternative development project in a given department or geographic 
province of Colombia than the provision is met, but I don't buy this 
argument. The administration appears to be deliberately misinterpreting 
the law and not adhering to its spirit.
    The administration must prioritize alternative development to a 
greater extent in its counternarcotics campaign. Without alternative 
development, displaced communities may join the anned forces or the 
lucrative but illegal cultivation of coca. In Sunday's Washington Post, 
Jeffrey Sachs, from Columbia University wrote an interesting article 
about the toppling of Bolivian President Gonzalo Sanchez de Lozada. He 
argued that the United States holds some responsibility for 
destabilization in Bolivia and throughout the Andes, particularly with 
its policy toward the coca crops. He wrote that the most destabilizing 
factor played by the United States was the ``U.S. demand in recent 
years that Bolivia eradicate tens of thousands of hectares of coca, 
thereby robbing 50,000 or so peasant farmers (and perhaps five times as 
many dependents) of their livelihoods without offering any realistic 
alternatives.''
    I fear that we are engaged in a similar practice in Colombia. I 
believe that the United States Government and particularly USAID must 
be much more involved in assisting the Colombian Government in 
establishing a rural development strategy and in supporting alternative 
development, or we risk exacerbating an already tense and highly 
volatile situation.
    A functioning democracy demands more than just security. The United 
States must not forget human rights and the rule of law while 
supporting the Colombian Government's efforts to establish control of 
the country and to reduce the flow of drugs.

    Senator Dodd. Thank you.
    Senator Nelson, we have a vote on. And the situation would 
be--the chairman is taking an important call--to try and wrap 
up here in the next few minutes. And so why do I not to turn to 
you, see if you have any additional questions you would like to 
ask of this panel. If not, then we will excuse them, adjourn, 
and come back to the second panel.
    Senator Nelson. Well, of course, I always like to give 
General Hill an opportunity to--and I am sure you have already 
covered this in your comments. And if so, do not repeat it. But 
to express from your standpoint your satisfaction with the 
progress, particularly under the new President of Colombia and 
where you think all of this is going in getting a handle on all 
of this drug running that is going on down there.
    General Hill. Well, thank you, Senator. I did say that, and 
I discussed it in private with Senator Dodd, also. And I had 
similar conversations with Senator Coleman. If you would allow 
me one moment, though, I would like to go back on one of your 
statements, because I feel personally embarrassed by it, 
because you and I have discussed it. And that has to do with 
who is talking with the families.
    Last week, the leader of the FARC element that grabbed the 
three hostages was killed by Colombian forces; they knew where 
he was, they undertook an operation, they went out to arrest 
him, they got into a firefight, and they killed him.
    I thought that was particularly significant and would be 
useful for the families to know. And I ask that the families be 
personally notified of that. If they were not notified of that, 
which you indicated that they were not, I am personally 
embarrassed by that. I will go back and find out what happened 
to that instruction. And I will make that known to the 
families. Because I felt like it was something that they would 
like to know, that the Colombian military has not forgotten, 
the U.S. military has not forgotten, those American citizens. 
And the two of us, the two organizations, are still trying to 
find them and will take whatever appropriate actions when we do 
that.
    Senator Nelson. And perhaps you and Mr. Charles could 
designate a single point of contact for both of your 
organizations.
    General Hill. Yes, sir. And we have already written 
ourselves a note to that effect, sitting here at the table. We 
will take that on; you have my word on that.
    Mr. Charles. And mine.
    [The following response was subsequently received.]

    The State Department point of contact is Ian Brownlee in the 
Consular Affairs Bureau.

    Senator Dodd. Very good. I thank you for your answers to 
those questions, by the way. And I told my colleague we had 
raised the issues as well. I have the mother of one of the 
people being held hostage. She lives in Connecticut. And I 
think a relative of the third one, Mr. Howes, is a relative of 
the chairman's as well. So, we all have a strong interest. And 
I think your questions about how we can keep these families 
informed will be tremendously helpful.
    There are probably other questions to be asked of you. This 
is a complicated subject matter. But let me say to you, Mr. 
Charles, I appreciate your candor and your willingness to get 
back. And you are new on the post. But some of the questions 
that have been raised by Senator Biden and myself regarding 
this amnesty law, it is going to seem a little odd to us if 
there was not some contact prior to this amnesty law being 
written.
    And going right to the heart of Senator Biden's question, 
that is, of course, the issue of extradition and so forth of 
people, if we are going to be providing amnesty, actually, 
there are some people within the AUC that we had actually 
indicted. If we are finding out they are getting amnesty, if 
they show up, it is going to create some real problems.
    And I suspect there was some contact. And we are going to 
need to know about that. So, getting back to us would be 
tremendously helpful.
    [The following response was subsequently received:]

    Our initial responses to President Uribe's remarks were private. 
Ambassador Wood immediately expressed our concerns directly to him. 
WHA/AND Office Director Phillip Chicola spoke to the Colombian TV and 
print media in mid-September. He said on the record that the U.S. 
government takes the work of human rights groups seriously and that 
NGOs are a vital component in maintaining a healthy democracy. In 
speeches to various regional Colombian Chambers of Commerce in 
September and October, Ambassador Wood stressed the need for the 
military to protect civilian populations and human rights as it 
continues its successful operations against insurgent groups.
    The Department of State raised its concerns about President Uribe's 
speech at the highest levels. On September 12, Ambassador Wood met with 
President Uribe and Foreign Minister Carolina Barco to deliver a 
demarche on President Uribe's remarks. The same day, WHA/AND Director 
Chicola discussed the issue with Colombian Ambassador Moreno in 
Washington. In these meetings, our demarche to the Government of 
Colombia was that President Uribe's remarks were counterproductive and 
that it was essential for the Government of Colombia to maintain 
regular and open dialogue with human rights groups. We also urged the 
Government of Colombia to make statements supportive of the work of 
human rights groups. Secretary Powell reiterated this message in his 
September 30 meeting with President Uribe in Washington. Under 
Secretary Dobriansky and Assistant Secretary Craner also made the same 
points in their meetings September 29 and 30 with Vice President 
Santos.
    President Uribe vowed his continued commitment to human rights in 
his September 30 address to the UN General Assembly. Both at the UN and 
in his meeting with the Secretary of State, Uribe expressed his respect 
for human rights NGOs, his interest in remaining engaged with them and 
his willingness to accept constructive criticism and suggestions.
    In our conversations with the Colombian government, we will 
continue to express our concerns and to emphasize the important role of 
the NGOs.
    Officials in Washington and at Embassy Bogota met numerous times 
with human rights groups to discuss Uribe's remarks and reiterate that 
protection of human rights is central to U.S. policy in Colombia. 
Ambassador Wood met with Human Rights Watch on September 12 and 
discussed the issue extensively, emphasizing our commitment to ensure 
the safety and well being of all human rights workers. Assistant 
Secretary Noriega met with Human Rights Watch October 6 and Amnesty 
International October 10 on the same topic. Ambassador Wood will attend 
an Embassy reception for the Colombian human rights community planned 
for December 1. He will also deliver a speech at a December USAID 
awards ceremony for NGOs. His speech will emphasize that the U.S. 
values the work being done by NGOs in Colombia. There also have been 
many working-level contacts with human rights groups in Bogota and 
Washington. We believe that these frequent meetings, along with our 
Embassy's regular, engagement with senior Colombian officials, are 
producing real improvements in Colombia's protection of human rights.

    Senator Dodd. General Hill, we appreciate your leadership 
and your willingness to keep us well informed as to how this is 
progressing.
    General Hill. Thank you very much, Senator.
    Senator Dodd. So, I thank you. And on behalf of the 
chairman, the committee will stand in recess until we come back 
from the vote. And the second panel can prepare to testify.
    Thank you very much.
    [Recess.]
    Senator Coleman. This hearing is called back to order.
    We will now proceed with the second panel: The Honorable 
Mark L. Schneider, senior vice president, International Crisis 
Group, Washington, DC; Dr. Julia Sweig, senior fellow and 
deputy director, Latin American Program, Council on Foreign 
Relations, Washington, DC; and Mr. Phillip McLean, senior 
fellow and deputy director, Americas Program, Center for 
Strategic and International Studies in Washington, DC.
    As I indicated to the earlier panel, your full statements 
will be entered into the record. And we will begin with Mr. 
Schneider.

  STATEMENT OF HON. MARK L. SCHNEIDER, SENIOR VICE PRESIDENT, 
                   INTERNATIONAL CRISIS GROUP

    Mr. Schneider. Thank you very much, Mr. Chairman.
    First let me express my appreciation to you for holding 
this hearing and for inviting me to testify again on Colombia. 
The hearing comes, as has been alluded to, following an 
impressive electoral exercise by the Colombian people in the 
face of FARC and AUC violence and intimidation. That truly 
shows their determination to maintain their democracy.
    The International Crisis Group has been working in Colombia 
for just two years. Here, as we do in some 40 countries around 
the world, ICG's field analysts seek to identify the drivers of 
conflict and, based on that analysis, to identify policy 
responses that can help to prevent or mitigate deadly violence.
    I have been asked to speak about the humanitarian situation 
and the negotiations with the paramilitary in relation to Plan 
Colombia. I think it is important to recognize that Plan 
Colombia has come to mean virtually all policies in Colombia 
and all policies by the United States that aid Colombia in 
coping with drugs and with the conflict.
    ICG's concerns are that the government and the 
international community assign too little priority to the 
humanitarian crisis facing millions of Colombians. We are also 
concerned that government policies risk undermining the 
legitimacy of its security strategy; and diminish, therefore, 
its ability to create the political context that can assist in 
defeating the insurgents military pursuit of power.
    As a result, the conflict is likely to continue far longer 
than current projections by either Colombia or the United 
States. There is no question that Colombia is faced with a 
serious security threat. And you have described the three 
illegal and dangerous groups, the FARC, the ELN, and the AUC.
    With respect to the AUC, their tactics often outstrip the 
guerrillas in brutality. And the United States Government 
rightfully added them to the terrorist list. However, too 
often, elements of the Colombian Armed Forces and police were 
not only willing to witness but were complicit in assisting the 
expansion of the paramilitary.
    With respect to the humanitarian crisis, perhaps the most 
persistent tragedy is nearly three million civilians displaced 
from their homes in recent years. If one thinks about it, it is 
equal to five times the population of Washington, DC. Last year 
alone, some 320,000 more were forced to flee from their homes 
as a result of the violence. And approximately half, according 
to the United Nations, receive no assistance at all, neither 
from the Colombian Government, private sources, or the 
international community.
    Some 75 percent of the IDPs are women and children. And a 
significant percentage, far out of proportion to their 
representation in the population, are Afro-Colombians and 
indigenous persons.
    The humanitarian crisis also includes 3,000 men and women 
and children who have been kidnaped on average every year over 
the past several years, mostly by the FARC and the ELN, and 
held as hostages in abysmal conditions, in direct violation of 
international humanitarian law. It should be noted that the 
AUC, while it depends on kidnaping far less for its financing, 
still was accused of kidnaping 180 people last year.
    And while you have heard from some of the witnesses 
previously that there appears to have been a decline in the 
numbers of massacres and individual killings, the human rights 
groups in Colombia and international organizations point to an 
increase in forced disappearances and extrajudicial killings 
during that same time frame last year. The main victims of the 
paramilitary are human rights advocates, trade union leaders, 
members of indigenous and Afro-Colombian groups and peasants.
    There are also 11,000 children who essentially are forced 
into military bondage by the competing military forces. And 
throughout Colombia's rural area, there are more than 100,000 
anti-personnel mines strewn throughout the country.
    A recent report on the humanitarian crisis, which we have 
provided to the committee, calls for greater priority to be 
given to the plight of these victims. And there are two 
specific recommendations that I would like to raise with you, 
Mr. Chairman. The first is that the Colombian Government needs 
to multiply its aid significantly beyond the $30 million going 
to the solidarity network. It is called the Social Solidarity 
Network. And the international community should follow suit, as 
a first step, by meeting in full the United Nations $63 million 
humanitarian action plan. Only about 10 percent has been 
donated.
    Second, and this perhaps deals with the broader issue of 
the political context as well, not just in Colombia but 
regionally. The Government of Colombia, ideally with the 
support of the United States and the international community, 
needs to design a national rural development policy that has 
equal urgency to the military security policy. The conflict in 
Colombia is concentrated in more than a dozen rural 
departments. The bulk of the displaced are from those areas. 
The lion's share of coca cultivation is from those departments. 
The poverty rate in those departments is more than 80 percent. 
And that is where the guerrillas have survived for 40 years.
    It is also where 1 percent of the population owns 53 
percent of the arable land. It is time to recognize we have to 
go beyond simply alternative development in dealing with the 
problem of coca cultivation and look at what needs to be done 
for rural communities throughout Colombia with respect to 
access to land, rule of law, basic infrastructure, public 
services, police protection, and economic opportunity.
    And this reform, more than any other, would change the 
political dynamic in Colombia. And that should be the priority 
task of Colombia and the international donors, as they prepare 
for a donors' conference early next year.
    And as you have been talking about the region, Bolivia, 
Peru, Ecuador, that same concept seems to be applicable. And it 
is the kind of concept that would address the political 
instability that has occurred in those countries, as well.
    Now, our second major concern and the second issue you 
wanted me to address relates to the Uribe administration's 
actions and inaction with respect to the paramilitary and its 
downplaying of civil liberties. We believe those two aspects 
continue to undermine the legitimacy of the security policy 
internationally and, in effect, its ability to drive the 
conflict to a negotiated solution.
    We have a report on negotiating with the paramilitaries, 
which you have. And we do not challenge the government's goal 
of finding a way to remove the AUC from the field of combat, 
possibly through negotiations. But we have argued strongly that 
the Uribe government must remove the suspicion that the motives 
for the negotiation have as much to do with the cleansing the 
paramilitaries and their supporters and legitimizing their 
power as removing them from the conflict.
    Demobilization, if it comes, has to be done in a way that 
does not undermine the rule of law, that does not further 
impunity. And it has to be done in a way in which people are 
thinking about the impact on the ultimate goal, which is a 
negotiated demobilization of all the illegal groups in 
Colombia. And this is not just our concern. The United Nations 
High Commissioner for Human Rights in Colombia said that its 
concerns ``refer specifically to state agents tolerance of, 
support for, and complicity with the paramilitary.''
    Senator Coleman. Could I ask you to summarize your 
testimony, Secretary Schneider? Thank you.
    Mr. Schneider. Let me just--if you want, I will comment on 
the alternative sentence or veiled amnesty proposal, which 
relates to this issue. Our concern at the moment is that--the 
proposal follows a series of other legislative proposals, which 
would restrict habeas corpus, which would grant to the military 
the ability to detain without judicial order, engage in house 
searches without judicial order, hold detainees for 36 hours.
    In that context, the proposal to permit, at the end of a 
judicial process, full pardon for all paramilitary regardless 
whether they are the followers or the leaders, regardless of 
whether they are coerced or not, and possibly permit 
individuals who ordered crimes against humanity to go 
absolutely free, we believe that--that is neither in the 
interest of ending the conflict nor in the interest of 
sustaining the institutions of the rule of law in Colombia.
    Thank you.
    Senator Coleman. Thank you very, very much.
    [The prepared statement of Mr. Schneider follows:]

    Prepared Statement of Mark L. Schneider, Senior Vice President, 
                       International Crisis Group

    Mr. Chairman: First let me express my appreciation to you for the 
invitation to testify before the Senate Foreign Relations committee on 
Colombia once again. This hearing comes immediately following the 
defeat of a substantial portion of the Uribe reform referendum and a 
municipal and state election where 26 candidates were killed and 
violence and intimidation stalked the campaign trail. At this point in 
the Administration of President Alvaro Uribe, it is time for 
stocktaking.
    The International Crisis Group has been working in Colombia for 
just two years. Here, as we do in some 40 countries around the world, 
ICG's field analysts seek to identify the drivers of conflict, and 
based on that analysis, to define policy responses to prevent or 
mitigate deadly violence.
    Not quite 15 months into his Administration, President Uribe has 
strengthened the government security apparatus and focused his 
Administration almost entirely on denying insurgents the national space 
they have occupied for decades. His style and force have brought him 
personal approval which remains astonishingly high (75 per cent). 
However, this support clearly did not carry over to his party's 
candidates or his complicated financial and administrative reforms in 
weekend voting.
    That electoral exercise shows the determination of the Colombian 
people to maintain their democracy despite killings and intimidation 
from the Revolutionary Armed Forces of Colombia (Fuerzas Armadas 
Revolucionarias de Colombia--(FARC) and the paramilitary.
    Mr. Chairman, I have been asked to speak about the humanitarian 
situation and the negotiations with the paramilitary in relation to 
Plan Colombia.
    Plan Colombia has come to mean virtually all policies in Colombia 
and all policies by the United States that aid Colombia in coping with 
drugs and with the conflict. ICG's concerns are that some of the 
government's own policies assign too little priority to the 
humanitarian crisis facing millions of Colombians. Others risk 
undermining the legitimacy of its security policies, and diminish its 
ability to create the political context that can assist in defeating 
the insurgents' military pursuit of power. As a result, the conflict is 
likely to continue far longer than current projections by either 
Colombia or the United States.
    There is no question that Colombia is faced with a serious security 
threat from three illegal and dangerous groups. Two of them, the FARC 
and the National Liberation Army (Ejercito de Liberacion Nacional-ELN), 
are guerrilla groups. They began as traditional leftist revolutionary 
groups in a country with huge gaps of equity and elite-dominated 
political and economic power structures. Despite their platform of 
political change, the insurgents' use of brutally violent terror 
tactics, of bombings and kidnappings, against a democratically elected 
government largely has discredited them politically. They have become 
dependent for significant portions of their financing on drug 
trafficking. The third illegal armed actor is the paramilitary, most of 
whom are grouped under the United Self-Defense Forces of Colombia 
(Autodefensas Unidas de Colombia-AUC). The paramilitary have a long 
history in Colombia, preceding the counter-insurgent phase of the 
1960's, but the current range of paramilitary groups have clear 
origins. Some came into being as enforcers for drug cartels, and soon 
became enmeshed in every phase of the narcotics industry. Others came 
into being in the Middle Magdalena where they received financial 
support, sometimes voluntarily and sometimes coerced, from wealthy 
rural elites, to challenge the FARC. Over time, they also received 
political support from some communities desperate for protection where 
the state police and military were unable or unwilling to act. Their 
tactics often outstripped the guerillas in brutality and the United 
States government rightly added them to the terrorist list.
    Too often, elements of the Colombian armed forces and police were 
not only willing but complicit in assisting the expansion of the 
paramilitary. In part it was a military force of limited capacity 
asserting the philosophy that ``the enemy of my enemy is my friend.'' 
For some, there was also an ideological affmity. Unfortunately, the AUC 
was not only combating the FARC and the ELN, they also were shooting 
and killing civilians who they determined might have been supportive of 
the leftist insurgents. According to the Colombian Commission of 
Jurists, as judge, jury and executioner, the paramilitary murdered more 
than 11,700 civilians since mid-1996; the FARC 3,318. The State 
Department Human Rights report this year describes the paramilitary as 
committing ``numerous unlawful and political killings, particularly of 
labor leaders, often kidnapping and torturing suspected guerrilla 
sympathizers prior to executing them.'' All too frequently they used 
force to evict civilians from lands they wanted for their own purposes.
    The statistics from human rights groups, from the State Department 
Human Rights Report each of the last several years and most recently 
from the UN High Commissioner for Human Rights paint a truly gruesome 
picture of forces undeterred by any concern for human rights, 
humanitarian law, or life itself. Colombia faces a humanitarian crisis 
of monumental proportions.
    Each year some 3000 men, women and children are kidnapped, mostly 
by the FARC and the ELN, and held as hostages in abysmal conditions--in 
direct violation of international humanitarian law. Among them are 
former presidential candidate Ingrid Betancourt and her running mate, 
as well as members of Congress. But most are individuals without 
political pedigrees who simply are being held for ransom. While the AUC 
depends less on kidnapping for financing than the FARC, it was accused 
of kidnapping more than 180 hostages last year. This year, the 
government believes that there is an overall 20 percent drop in 
kidnappings, which may be true, but still places Colombia as the 
world's leader.
    And while massacres, traditionally the work of the paramilitary, 
appear to have declined, extra-judicial killings and forced 
disappearances have gone up, according to human rights groups. The main 
victims were human rights defenders, trade union leaders, members of 
indigenous and Afro-Colombian communities and peasants.
    Perhaps the most persistent humanitarian tragedy are nearly 3 
million civilians displaced from their homes in recent years, equal to 
five times the population of Washington, DC. Last year alone, some 
320,000 were forced to flee and approximately half, according to UN 
agencies, received no assistance at all--from the Colombian government, 
private sources or the international community. Some 75% are women and 
children, and Afro-Colombians and indigenous persons are victimized 
disproportionate to their representation in the population.
    Approximately, 11,000 children have been forced into military 
bondage by the competing military forces; and more than 100,000 anti-
personnel mines strewn throughout rural Colombia constitute a constant 
threat that demands more not less international attention.
    In ICG's recent report, ``Colombia's Humanitarian Crisis'', which 
we have provided to the Committee, we called for a greater priority to 
be given to the plight of rural Colombia's conflict victims.
    Let me recall two recommendations from that report; each with 
application to the U.S., to the international community, and to the 
Government of Colombia.
    First, there needs to be a far higher priority accorded to 
providing relief to the victims, whether families of killed or abucted 
or the internally displaced. The Colombian government needs to multiply 
its aid far beyond the $30 million going to the solidarity network. The 
international community should follow suit--as a first step meeting in 
full the UN's $63 million humanitarian action plan requirements.
    Secondly, the government of Colombia, with the support of the U.S. 
and the international community, needs to design a national rural 
development policy that has equal urgency to its military security 
policy. The conflict is concentrated in more than a dozen rural 
departments. The bulk of the displaced are from those areas. The lion's 
share of coca is cultivated in those departments. The poverty rate is 
more than 80% in those departments and that is where the gueriulas have 
survived for 40 years. It also is where, according to UNHCHR, 1% of the 
population own 53% of the arable land. It is time to recognize that 
reality and do something about it that includes access to land, to rule 
of law, to basic infrastructure, to public services, to police 
protection and to economic opportunity.
    This reform, more than any other, would change the political 
dynamic in Colombia. No one is suggesting that it can be implemented 
nationally in one fell swoop. But it needs to be defined as a national 
strategy with a specific program and funds assigned to it by both 
Colombia and the donor community and then implemented incrementally but 
rapidly as security permits. That should be the priority task as 
Colombia and the international community prepare for a donors' 
conference early next year.
    ICG's second major concern is that Uribe Administration actions or 
inaction toward the paramilitary and its downplaying of civil liberties 
combine to undermine the legitimacy of the government's security policy 
and its ability to drive the conflict to a negotiated conclusion. The 
government's stated policy, reiterated at most international events, is 
that the paramilitary are illegal and criminal and as much the target 
of law enforcement and of the armed forces as the FARC. Unfortunately, 
too many actions contradict those assertions.
    The ICG, in its recent report, ``Colombia: Negotiating with the 
Paramilitaries,'' did not challenge the desire to remove the AUC from 
the field of combat. But we argued that the Uribe administration must 
remove the suspicion that the ``motives for the negotiation have as 
much to do with `cleansing' the paramilitaries and their supporters and 
legitimizing their power as with removing them from the conflict.''
    The ICG is not alone in these concerns. The UN High Commissioner 
for Human Rights stated this year that its concerns ``refer 
specifically to state agents' tolerance of, support for, and complicity 
with the paramilitaries.''
    The ICG report underscored two essential conclusions. First, 
removing the paramilitary from the battlefield, despite the daunting 
logistic, strategic and military obstacles, would eliminate an enormous 
threat to human life--particularly to non-combatants.
    Second, their demobilization has to be done in a way that does not 
undermine the rule of law. It is essential to Colombia's institutional 
legitimacy and its international standing; but it also will affect what 
must be the ultimate goal--the negotiated demobilization of all illegal 
armed groups, paramilitary and insurgents alike.
    The challenges begin with the fractured nature of the 13,000 or 
more paramilitary forces including the AUC. First, not all of the 
paramilitary have accepted the ceasefire, nor have they agreed to enter 
the negotiations set for December which are proposed to conclude with 
demobilization by the end of 2005. How to protect those who ultimately 
do demobilize and disarm also remains an open question. On one hand, 
the immediate order of business must be the consolidation of the 
ceasefire and its intensive verification and monitoring by 
international monitors if at all possible. On the other, a concerted, 
high priority law enforcement and military campaign must be directed at 
the paramilitary who refuse to cease their violence.
    The United States, other nations and the United Nations should 
assist Colombia in managing the ceasefire with the paramilitary so that 
it opens rather than closes possibilities for similar talks with the 
rebels. However, we believe that providing financial support for 
demobilization of the paramilitary should be contingent on the 
government aggressively pursuing the paramilitary forces who have 
refused a ceasefire. Senior paramilitary leadership also should be 
prosecuted and those found responsible for crimes against humanity 
should be jailed.
    Several specific recommendations would help the government 
implement its stated policy more effectively and more credibly. We 
believe the U.S. government should support these policies as well.

  <bullet> A single negotiation table with all paramilitary groups 
        should be established. If this is not feasible, a parallel 
        table for non-AUC groups should be established and highest 
        military priority should be given to the capture or defeat of 
        paramilitary groups that refuse to participate by a specific 
        date or have broken a ceasefire.

  <bullet> A presidential ad hoc commission of distinguished Colombian 
        and international figures should be established to monitor and 
        document the actions taken by the government and its armed 
        forces to sever ties with the paramilitary and identify what 
        more remains to be done. The Uribe Administration states that 
        it has done more than any previous government in pursuing the 
        paramilitary forces. But even high military officers recognize 
        the international community does not have confidence in 
        government assurances. The clearest evidence of the breadth of 
        international concern on this issue was demonstrated in the 
        London Declaration statement by 24 governmental delegations 
        that ``urged the Colombian Government . . . to take effective 
        action against impunity and collusion especially with 
        paramilitary groups.'' An independent commission could lend 
        that credibility.

  <bullet> Special police units and prosecutors should be established, 
        with whatever backup is required, to bring to justice non-
        cooperative paramilitary members and their leaders and armed 
        forces members who continue to support them.

  <bullet> A truth and reconciliation commission should be immediately 
        appointed to both document abuses suffered by the victims of 
        the paramilitary and the insurgents and manage a reparation 
        fund for the victims.

    Finally, the Government must demand full disclosure and cooperation 
by the paramilitary of their links to drug cultivation, drug processing 
and drug trafficking. This should include identifying their sources of 
financing and of weapons and the assets they acquired illegally.
    Does the government want to end paramilitarism in Colombia or 
simply permit some portion of the current paramilitary to fmd their way 
in from the cold?
    This question dominates the debate over the so-called ``alternative 
sentencing'' or ``veiled amnesty'' legislation proposed by the 
government as an incentive to the armed groups to give up their arms. 
The juxtaposition of the legislative proposal with the paramilitary 
talks initially led to the unfortunate conclusion that the two were 
linked, as opposed to being offered to provide incentives for all of 
the armed groups to demobilize.
    The government of President Uribe has been grappling with the 
balance between justice and peace and between security and personal 
liberties. But we are concerned that too little weight is placed on the 
importance of ending impunity and of protecting civil liberties. We 
have seen the setting up of special zones where the military could 
detain suspects and hold them without judicial order, a measure 
declared unconstitutional by the courts. Then there was the proposal to 
eliminate the ``municipal ombudsmen''. Now there is anti-terrorist 
legislation which would grant security forces, including the military, 
permanent legal powers to intercept communications, conduct house 
searches and arrest individuals without a judicial warrant. It also 
would permit them to hold suspects for up to 36 hours without access, a 
practice which in Latin America almost inevitably leads to physical 
abuse and disappearances. Another proposed law would eliminate judicial 
oversight by the Constitutional Court over many actions of the 
executive in relation to security. It also would limit an individual's 
access to the right of habeus corpus (tutela) in certain situations.
    Now we have the ``alternative sentencing'' law.
    Clearly, distinctions can be made between those who were coerced 
into the paramilitary and those who were not; between those who 
cooperate in the process and provide intelligence on other illegal 
armed actors and on drug trafficking and those who do not; distinctions 
between those who committed no killings and those who did; distinctions 
between those who ordered crimes against humanity and those who did 
not. But the bottom line is that those at the top who ordered those 
crimes against humanity cannot escape jail.
    One way to obtain independent assessment on those distinctions 
would be for the Government of Colombia to request an advisory opinion 
from the Inter-American Court of Human Rights on whether the current or 
other future legislation meets the test of Colombia's international 
human rights treaty obligations.
    Vice President Francisco Santos recently was in Washington and he 
said that the government is open to counsel on how to find the right 
formula. He emphasized that the government has not called for automatic 
amnesty, pardon, or clemency for any group or even for any individual. 
The problem is that by giving full discretion for the President at the 
end of the judicial process, it could well mean clemency for everyone. 
And I want to commend the U.S. Government for the public message that 
has been heard that while it supports the Uribe government, it opposes 
actions that produte impunity.
    The United States, other friends of Colombia and the United Nations 
should support Colombia in the combined challenge of achieving peace 
and justice. As Benjamin Franklin wisely noted, ``Those that can give 
up essential liberty to obtain a little temporary security, deserve 
neither liberty or security.''

    Senator Coleman. Dr. Sweig.

   STATEMENT OF DR. JULIA E. SWEIG, SENIOR FELLOW AND DEPUTY 
 DIRECTOR, LATIN AMERICA STUDIES, COUNCIL ON FOREIGN RELATIONS

    Dr. Sweig. Thank you very much, Mr. Chairman and Senator 
Dodd. I apologize I was not able to be with you last week when 
the council came up to see you.
    I am happy to be here to address the regional dimensions of 
Plan Colombia and say right at the offset that I do so with a 
great deal of humility and respect for the complexity of 
Colombia and the region. I am also concerned that the 
bipartisan policy of Plan Colombia and the Andean Regional 
Initiative may not be structured to bring peace and prosperity 
to the region, as much as we succeed on the drug front. That 
said, I commend the chairman and the committee, as well as the 
Bush administration, for the seriousness of their efforts.
    Let me summarize, at the outset, my statement in case I do 
not get to finish it. There are three critical ideas I would 
like to convey. First, the disproportionate emphasis on our 
policy on drug eradication and interdiction at the supply end 
of the narcotics industry needs correction and balancing.
    Second, we cannot do the guns without the butter, meaning, 
in Colombia especially, the United States needs to emphasize 
planning for post-war reconstruction. Security assistance is 
necessary, by all means, but should be offered simultaneously 
with, not instead of, major initiatives to address the 
structural inequalities that make Colombia and the Andean 
region so vulnerable.
    And third, the critical role of local elites. With local 
elite commitment to nation building and a social contract, the 
United States and the international community will indeed have 
a major opportunity to help bring peace and prosperity to the 
region. But without buy-in from local elites, we can only help 
at the margin.
    I believe our policy really has come to a crossroads. And I 
want to just point out a point in history and then get to those 
structural questions by way of context. First, the history.
    In 1958, 45 years ago, President Eisenhower and CIA 
Director Allen Dulles sent a team to assess conditions in 
Colombia after the decade-long conflict, La Violencia, had 
killed 200,000 people. Forty-five years ago, the Eisenhower 
administration concluded that because of Colombia's 
predilection for violence, the absence of state authority in 
rural areas, vastly inequitable land distribution, and 
widespread lawlessness and poverty, the country risk, and I 
quote, ``genocide or chaos.''
    Although the team doubted the local elite would agree to 
major reforms, the United States recommended a comprehensive 
nation-building package to Secretary of State Christian Herter 
and the new Colombian President. Washington offered to provide 
Bogota with help to strengthen its judiciary, implement a 
significant land reform, and eliminate the rural guerrilla 
insurgency, which that, as the time, was between 1,200 and 
2,000 people.
    Only the security recommendations were accepted. And today 
we face structural problems but of a far greater magnitude, 
making Colombia and also the neighborhood intensely vulnerable 
to drugs and thugs and all manner of social and humanitarian 
crises; and really, frankly, placing, I think, the American 
commitment to democracy, security, and the rule of law at risk.
    We have heard already in earlier testimony and comments 
from the Senators on sort of the state of play of U.S. policy, 
how much money we have spent, the successes within Colombia of 
eradicating coca. What we did not talk about was, of course, 
that as the coca eradication has gone down in Colombia, it has 
begun to come back in Bolivia and Peru.
    We have addressed, also, the disproportionate funding 
matter. I had it at 75 percent/25 percent. Senator Dodd 
indicated it is a 4 to 1 ratio of military drug assistance 
versus social-economic. So however you run the numbers, 
clearly, I think, we are off balance. And because of not only 
the balloon effect but the shared problems that the region 
faces, if we want to try to reduce coca and opium in the 
region, I suggest looking for answers not within but outside of 
the counter-narcotics box.
    The regional dimension of the security crisis is striking, 
as porous borders and weak neighboring governments, whether by 
sins of omission or commission, permit Colombia's illegal armed 
groups to rest, refuel, and reap profits in what is an 
environment close to the Wild West. Of course, President Uribe 
and the U.S. Southern Command have begun to initiate a regional 
security dialog. But Venezuela's absence from that process 
represents a major blind spot.
    Likewise, though Brazil has offered intelligence assistance 
through its satellite network, also greater leadership on the 
ground from the Lula administration would be most welcome by 
local regional actors.
    The regional dimension we can come back to, of the sort of 
the diplomatic side in the Q&A. I just want to reinforce that 
the striking inequality and poverty that really are the cause 
of the region's vulnerability to drugs need a different kind of 
attention. If I can just give you a couple examples of what I 
am talking about.
    For example, one matter which is related to the question of 
local elites commitment to the region and to nation building 
and a sense of a social contract, tax revenue and collection, 
as a percentage of gross domestic product in Colombia and 
throughout the region, is woefully lacking. President Uribe has 
tried to address this. And the elite is coming around. I will 
just give a couple of examples and then wrap it up.
    As a percentage of GDP, tax collection is 13 percent in 
Colombia, up from 10 percent in 2000, but still very, very low. 
Of 20 million economically active members of the Colombia 
population of 43 million, only 740,000 Colombians pay income 
taxes. Evasion is widespread because land taxes are 
administered by municipal authorities under the Colombia 
constitution. And those laws are practically ignored by 
landowners, as local government is often too weak to exert 
coercive power over local elite interests or are subject to 
subordination by illegal armed groups.
    In Peru and Ecuador, the tax collection numbers are 
similarly bad. And just by way of reference, the OECD reports 
that, by contrast, in the United States it is about 29 percent 
of GDP.
    Poverty and income equality indicators are equally 
shocking; 50 to 60 percent in urban areas, 60 to 80 percent in 
rural areas. And this has a direct affect on whether growth can 
actually help these countries. The World Bank has released 
recently some numbers which lead to the conclusion that 
inequality has actually gotten worse over the last 30 years, 
making growth benefits even more difficult.
    Anyway, I can go on. And I will be happy to also address 
the matter of Bolivia, and the elections the other day in 
Colombia, and what those suggest for U.S. policy.
    Senator Coleman. Thank you very much, Dr. Sweig.
    [The prepared statement of Dr. Sweig follows:]

  Prepared Statement of Dr. Julia E. Sweig, Senior Fellow and Deputy 
     Director, Latin America Studies, Council on Foreign Relations

    Mr. Chairman, distinguished Senators: I thank you for the 
opportunity to address this esteemed committee on the regional 
dimensions of Plan Colombia.
    As a U.S citizen I offer my remarks with a great deal of humility 
with respect to the complexity of Colombia and the region, but also 
with concern that the bipartisan policy of Plan Colombia and the Andean 
Regional Initiative may not be structured to bring peace and prosperity 
to the region, as much as we may succeed on the drug front. That said, 
I commend the chairman and the Committee as well as the Bush 
administration for the seriousness with which these issues are 
approached. 1Let me summarize at the outset of this very brief 
statement the three critical ideas I wish to convey today: First, the 
disproportionate emphasis in our policy on drug eradication and 
interdiction at the supply end of the narcotics industry needs 
correction, re-balancing. Second, we can not do the guns without the 
butter: meaning, in Colombia especially, the United States needs to 
emphasize planning for post-war reconstruction. Security assistance is 
necessary, by all means, but should be offered simultaneously with--not 
instead of--major initiatives to address the structural inequalities 
that make Colombia and the Andean region so vulnerable. And third: the 
critical role of local elites. With elite commitment to nation building 
and a social contract, the United States and the international 
community will indeed have a major opportunity to help bring peace and 
prosperity to the region. Without buy-in from elites, we can only help 
at the margins.
    Mr. Chairman and distinguished Senators, I believe our policy 
toward Colombia and the region is at a tipping point. I would like to 
focus my comments on some of the structural and historic issues that 
are central to understanding and addressing the challenges and 
priorities for a country and region in peril.
    First, history: In 1958, President Eisenhower and CIA Director 
Allen Dulles sent a team to assess conditions in Colombia after a 
decade-long conflict known as La Violencia had brought more than 
200,000 deaths. Forty-five years ago the Eisenhower administration's 
study concluded that due to its predilection for violence, the absence 
of state authority in rule areas, vastly inequitable land distribution, 
and widespread lawlessness and poverty, the country risked, and I 
quote, ``genocide or chaos.'' Although it doubted that the local elite 
would agree to major reforms, the US team recommended a comprehensive 
nation-building package to Secretary of State Christian Herter and the 
new Colombian president at the time, Alberto Lleras: Washington would 
help Bogota strengthen its judiciary, implement significant land 
reform, and eliminate the rural guerrilla insurgency, which at the time 
numbered between 1,200 and 2,000 members.
    Only the security-related recommendations were adopted. Today, we 
face similar structural problems but of a far greater magnitude, making 
Colombia and other countries in the region vulnerable to drugs, thugs, 
and all manner of social and humanitarian crises--thus placing the 
American commitment to democracy, security and the rule of law at risk.

                             CURRENT POLICY

    Today, U.S. policy toward Colombia clusters around two priorities: 
the war on drugs and assisting President Uribe's counter-insurgency 
efforts. Since 1985 the U.S. has spent billions of dollars on the drug 
war in the Andes, without substantially reducing consumption in this 
country. According to U.S. State Department statistics, while Colombia 
recorded a decrease in the amount of coca under cultivation for 2002, 
the aggregate land under coca cultivation in the Andes is equal to year 
2000 levels, at approximately 200,000 hectares, and coca cultivation is 
returning to Bolivia and Peru.
    When first envisioned, Plan Colombia was to provide counter-
narcotics assistance to the military and police, plus assistance for 
non-military ends such as economic and alternative development, 
judicial reform, and social programs for the internally displaced, as 
part of a comprehensive nation-building effort. Instead, with Plan 
Colombia and Andean Regional Initiative funds since 2000, the United 
States has spent close to $3 billion in Colombia, with approximately 75 
percent for military and police assistance and 25 percent social and 
economic support, (or 70-30, depending up on how the number is 
counted), a disproportionate ratio in my view.
    Our current policy is indeed effective in strengthening the 
Colombian armed forces and achieving its bilateral counter drug goals, 
(and in Colombia this may deprive the illegal armed groups of revenue), 
but the success or failure of such an initiative in Colombia, for 
example, is inevitably going to affect conditions in Ecuador and 
Venezuela, just as Bolivia and Peru's eradication successes in the 
1990s moved cultivation to Colombia.
    Further complicating the prospects for successful bilateral 
initiatives is the fact that drug and other illegal industries thrive 
in territories characterized by state weakness, poverty, and 
disenfranchisement--all problems common to the Andean nations. Indeed, 
our policy is successful at eradicating coca country by country, but 
not on a regional basis. To reduce the net production of coca and opium 
in the region, I suggest looking for answers not within, but outside of 
the counter narcotics tool box.

                THE REGIONAL AND INTERNATIONAL DIMENSION

    The regional nature of the security crisis is particularly 
striking, as porous borders and weak neighboring governments, whether 
by sins of omission or commission, permit Colombia's illegal armed 
groups to rest, refuel, and reap profit in environments akin to the 
``wild west.'' While the Uribe government is addressing security on a 
regional basis, and the U.S. Southern Command is also facilitating a 
regional security dialogue, Venezuela's apparent absence from such a 
process, voluntary or not, represents a major blind spot. Likewise, 
though Brazil has offered to provide intelligence from its SIVAM 
satellite system, greater leadership on regional security initiatives 
from the Lula government would be most welcome on the ground.
    Indeed, while passivity on security cooperation is a problem within 
the Andean region, U.S. policy has not adjusted to address the regional 
nature of Colombia's security crisis. And although the funds in Plan 
Colombia may have aided the Colombian state at a moment of acute 
vulnerability, and our assistance has appropriately expanded to include 
counter-terror training, the policy needs broadening to encompass 
demand reduction in the U.S., Europe and Latin America, comprehensive 
rural development in the Andes and expanded democratic market access 
initiatives for the region's poor.
    Likewise, as the demand for Andean-produced drugs grows on the 
other side of the Atlantic and south to Brazil, at the same time that a 
humanitarian crisis of immense proportion derives from and feeds the 
conflict, it is clear that we need a new diplomatic strategy that 
involves Europe, Brazil, and multilateral institutions such as the U.N. 
and the OAS to address the increasingly global drug problem and the 
escalating humanitarian crisis. U.S. leadership can be critical to 
these ends.
    Our commitment to Colombia of nearly $3 billion indicates a 
significant interest in peace, democracy and the rule of law in 
Colombia. However, without a holistic approach that addresses demand 
for drugs in consuming countries and catalyzes local leadership in 
Colombia and the Andes to tackle the structural causes of crises in the 
Andes--especially striking inequality and rural poverty--we might 
easily chase coca and opium around the region indefinitely.

                   STRUCTURAL OBSTACLES IN THE ANDES

    Addressing structural impediments and not just their symptoms in 
the Andes would have an appreciable impact on improving the economic 
and security environment as well as the quality of democracy in the 
region. Furthermore, because the success of our current trade and drug 
policies in the region is inhibited by underdeveloped democratic 
institutions, limited state presence in rural areas, and economic 
disenfranchisement, it is in our national interest to hone in on these 
underlying issues as part of our overall strategy.
    Some examples. First, tax revenue and collection as a percentage of 
Gross Domestic Product (GDP) in Colombia and throughout the Andean 
region is woefully low, and in my view indicates a lack of civic 
commitment by the region's elites. For example, in Colombia, while 
President Uribe is seeking reforms to address the issue, and the 
private sector is slowly coming around, tax revenue as a percentage of 
GDP has increased from 10 percent in the year 2000 to 13 percent, 
according to the World Bank. A more stark number: Only 740,000 
Colombians pay income taxes out of an economically active population of 
20 million (with a total population of 43 million). Evasion is 
widespread and because land taxes are administered by municipal 
authorities under the Colombian constitution, they are practically 
ignored by landowners--as local governments are often either too weak 
to exert coercive power over local elite interests, or are subject to 
subornation by illegal armed groups. In Peru and Ecuador the story is 
not much better, with tax collection at 12 percent and 14 percent of 
GDP, respectively. The Organization for Economic Cooperation and 
Development, by contrast, reports that in the United States the rate is 
29.6 percent of GDP.
    Growth, poverty and income inequality indicators for the region are 
equally daunting. In the last twenty years, per capita economic growth 
has been close to zero, meaning that the average Andean adult has seen 
no improvement over his or her lifetime. On average, poverty rates are 
between 50-60 percent, with levels in the rural sector most extreme, 
averaging between 60-80 percent.
    Income inequality is also profoundly skewed and worsening. A recent 
World Bank study found that over the past thirty years, income 
inequalities have widened in all of Latin America, with the Andean 
nations no exception on an individual or group basis. On the whole, the 
rich in the Andes have consolidated and expanded their wealth, while 
the poor have seen no improvement.\1\
---------------------------------------------------------------------------
    \1\ The World Bank, Income Inequality in Latin America and the 
Caribbean: Breaking with History? October 7, 2003.
---------------------------------------------------------------------------
    In Colombia, the wealthiest ten percent of the population earns 
46.5 percent of national income, while the poorest ten percent earns 
0.8 percent. In Bolivia, the top ten percent earns 42.3 while the 
poorest ten percent earns 0.3 percent. In Ecuador, the wealthiest ten 
percent earns 44.2 percent of national income, while the poorest ten 
percent earns 0.7 percent of national income. The numbers for Peru 
break down as 36.9 percent vs. 0.8 percent, and for Venezuela, with its 
oil wealth, still 35.6 percent vs. 1.3 percent for the poorest ten 
percent. By contrast, the averages for industrialized countries are 
29.1 percent and 2.5 percent, respectively.
    These sobering statistics point to the critical importance of local 
leadership. Without broad-based local leadership, greater civic 
responsibility, and increased domestic economic investment by local 
elites in the Andes, macroeconomic reforms, free trade and U.S. support 
will not help pull the region back from crisis, as Bolivia's collapse 
this month suggests. Although this commitment to the common good does 
not fall to only one group, it is extremely important that we use our 
leverage to encourage private sector ``buy-in'' on the need for 
increased local investment in state services, particularly in the 
realms of security and social programs.
    We have asked the region's leader to do the hard work of embracing 
our drug interdiction priorities and many have done so with varying 
degrees of success and domestic political impact. I would suggest 
perhaps that were the U.S. to make clear its commitments to the 
strategic priorities I lay out above, we would strengthen both 
governments and democratic forces of civil society who reject the 
scourge of drugs but are frustrated by what they perceive to be the 
myopia of current U.S. policy.

                   POST-SCRIPT: BOLIVIA AND COLOMBIA

    Mr. Chairman, in the past two weeks we witnessed two major events 
in the Andean region: in Bolivia, the Gonzalo Sanchez de Lozada 
government collapsed amidst civil strife and in Colombia, President 
Uribe suffered a political defeat when his referendum failed to pass 
and a left-leaning trade unionist of the Polo Democratico party, Luis 
``Lucho'' Garzon, won the mayoral seat in Bogota, the second most 
important elected office in the country. These developments reinforce a 
theme I would like to underscore in my testimony: by viewing the Andean 
region primarily through the lens of drugs and terror, we are missing 
local domestic politics that may bear directly on our ability to 
implement policies in the region. Those policies are in need of some 
correction today, whether by reallocating resources, or much more 
importantly, exercising leadership by broadening the priorities we 
identify publicly and in private contacts with the region's leadership, 
in or out of government.
    Let me be clear: I believe the United States should continue drug 
eradication efforts and should continue assisting counter-terror 
efforts. But if these critical activities continue to occupy the 
centerpiece of U.S. policy, Bolivia's crisis may be the harbinger of a 
broader regional disintegration, as the Eisenhower administration's 
prognosis for Colombia forty-five years ago suggested.

    Senator Coleman. Mr. McLean.

STATEMENT OF PHILLIP McLEAN, SENIOR FELLOW AND DEPUTY DIRECTOR, 
 THE AMERICAS PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Mr. McLean. Thank you. Thank you, Mr. Chairman, for 
inviting me here and for this opportunity to discuss the 
Colombia economy. Colombia's economic performance is clearly 
crucial. Colombians need security but they also need a growing 
economy. A major question is: Can they afford both?
    At the outset, let me make three assertions, points not 
always acknowledged, and perhaps contrasting with my 
colleagues. While the country's institutions are failing to 
meeting the needs of the citizens in many important respects, 
Colombia is not, by any normal definition, a failed state. It 
is capable, once again, of being one of the better performing 
countries in the region.
    While poverty, now affecting 60 percent of the population, 
requires urgent attention, it is not the primary cause of 
violence and disorder. In Colombia's case, it is the conflict 
and corruption fueled most importantly by the narcotics 
trafficking that best explain why a country previously headed 
for success now suffers such misery.
    Colombia's leaders must find the resources to overcome the 
violence while offering the hope of a better life to millions 
now stuck in poverty. Without law and order, the economy will 
not return to significant levels of growth. Without economic 
growth, the country's leaders will not have the public support 
for the tasks required.
    For many decades, Colombia was known as a well-managed 
economy. In the 1960s, its performance was ranked with Chile as 
a country taking the right path to modernity. In the 1970s, it 
was able to begin diversification away from the dependence on 
the coffee culture and showed signs of a vigorous manufacturing 
base.
    As late as in the mid-1980s, the income gap between rich 
and poor in Colombia was narrowing rather than widening, as it 
was then and continues to be in most developing countries. 
Throughout the 1980s, normally referred to as the lost decade 
in the rest of Latin America, Colombia was able to maintain 
modest levels of per capita growth and avoid restructuring of 
its debt.
    For all that success in the 1970s and 1980s, in retrospect 
it is clear, Colombian leaders neglected several fundamental 
national challenges. First, too little was done, as my 
colleagues have pointed out, in the good years to overcoming 
the daunting geography with highways and railroads to knit the 
country together.
    Second, not enough was done to improve the life in the 
countryside. Tragically, generations have been forced to move 
from rural subsistence to urban poverty.
    Third, as that last example suggests, even before the rise 
of the power narcotics barons, Colombian's judicial system was 
notably weak.
    Only a fraction of the immense revenues of drug trafficking 
returns to Colombia. Most drug money remains in the United 
States. Still, the impact of those ill-gotten gains flowing 
back to Colombia totaling something like a $1.5 billion to $3 
billion, not more than 1 percent of the GDP of Colombia, has 
been disastrous. The rise of narcotics trafficking is closely 
correlated to the rise in criminality and violence. And that, 
of course, has been deeply damaging to the Colombia economy.
    The most specific damage was, of course, to Colombia's 
ability to enforce law. The already weak justice system was 
nearly crushed by the Medellin cartel. The drug profits fed the 
growth of the violent groups, while it also ended the 
credibility of their political pretensions.
    Colombia is in a maze with no easy way out. The low-cost 
answers to its predicament have been found wanting. It has 
tried and failed to negotiate peace, first with the drug Mafias 
and then with the guerrillas. Peace with some of the 
paramilitary groups may still be possible. But if that were to 
happen, and I have my doubts, the government now recognizes it 
will not come cheap or cheaply.
    The Colombian public has been tempted to believe, as many 
foreign observers are, that the country could overcome the 
violence by adopting more generous social policies and a more 
decentralized style of government. After experiencing 
disappointment with all these answers. Colombians last year 
seemed to accept that peace would be costly and elected a law 
and order President.
    Social polices introduced in the early 1990s did help 
reduce poverty for a time. But eventually, fiscal policies spun 
out of control, debt rose, and the country suffered its first 
recession in seven decades. In 1999, the economy contracted by 
4 percent, which totally wiped out the gains of the previous 
decade. Unemployment reached 20 percent. And adding to the 
country's woes, coffee prices plunged to historic lows, half of 
what they had been 10 years before.
    When President Uribe came to office 14 months ago, he 
inherited a weak economy and a government struggling with a 
heavy debt load. He adopted an orthodox approach to government 
and finance, even to the extent of broadening the application 
of the unpopular value-added tax and seeking to rein in 
expenditures. While the Colombia President was trying to 
constrain spending, he was also determined to give more support 
to the armed forces and police. It is often remarked that, as a 
nation supposedly at war, Colombia was spending hardly any more 
than other countries in the region on security.
    Uribe decided to finance increased spending on security 
services with a one-time tax on wealth. Raising taxes and 
cutting expenditures is not the usual formula for stimulating 
the economy. But Uribe had little choice. The assumption of his 
policy was and is, and it is not often expressed, is that by 
improving the security climate, he would improve the public 
confidence in the constantly increased consumption and 
investment.
    To a degree, Uribe's approach is working. People are more 
secure by most measures. International markets did react 
favorably. There are signs that investors abroad, clearly many 
of them Colombians, are increasing both direct and portfolio 
investment; exports are rising and employment is falling. But 
all of this is relative to a very serious situation.
    In conclusion, I would say that exports, in fact, may play 
a large part in Colombia's export from the current economic 
squeeze. Manufacturing exports are still less important than 
agriculture and extractive industries. But Colombia's 
manufacturing sector has long shown a potential for takeoff. 
Colombia is the most active trader in the Andean Pact and has 
taken more advantage of the Andean trade preferences first 
granted by the United States in 1992. Exports are growing and, 
particularly, those exports granted under the trade preferences 
have increased twenty-fold in the last 6 months.
    Colombia, of course, will best reach its export potential 
when the global trade liberalizes. Those agreements promise to 
lower barriers across the globe for new markets for them. But 
Colombia's most important market is the United States, the 
destination of 40 percent of its exports. Colombia and 
Colombian officials are skeptical that the World Trade 
Organization, and FTAA negotiations will end by 2004 and may 
even linger over beyond the expiration of the Andean 
preferences; and are, therefore, looking towards getting in 
line for a free-trade agreement.
    Colombia and the United States, in my view, are locked in a 
partnership. As time goes on, the United States' security role 
certainly is going to decline. But it seems to me that a next 
transition, a better transition, a positive transition to a new 
relationship with that country so close to us would be to join 
together in a mutually beneficial free-trade agreement.
    Senator Coleman. Thank you very, very much, Mr. McLean.
    [The prepared statement of Mr. McLean follows:]

    Prepared Statement of Phillip McLean, Senior Fellow and Deputy 
Director, the Americas Program, Center for Strategic and International 
                                Studies

    Thank you, Mr. Chairman, for this opportunity to discuss the 
economy of Colombia.
    Colombia's economic performance is clearly crucial to that 
country's ability to deal with the crisis of the last decade. 
Colombians need security, but they also need to reverse the 
deteriorating conditions of life that afflict such a large part of 
their country's population. A major question is: how are they going to 
pay for what needs doing?
    I have been following Colombian affairs closely for nearly 20 
years. In the mid-1980s I was director of the Office of Andean Affairs 
in the Department of State and later when the struggle with the major 
drug cartels grew intense was Deputy Chief of Mission, and frequently 
Charge d'Affaires, in the U.S. Embassy in Bogota. I was subsequently 
Deputy Assistant Secretary of State for South America when the reign of 
terror of Pablo Escobar was finally brought to an end. For the last 
several years I have been studying Colombia's plight and the U.S. 
response at CSIS.
    At the out start let me make three assertions--points not always 
made by foreign observers when they talk about Colombia:

  <bullet> While the country's institutions are failing to meet the 
        needs of its citizens in many important respects, Colombia is 
        not by any normal definition a failed state. It is capable once 
        again of being one of the better performing countries in Latin 
        America.

  <bullet> While poverty, now affecting 60 percent of the population, 
        requires urgent attention, it is not the primary cause of 
        violence and disorder. In Colombia, it is conflict and 
        corruption, fueled most importantly by narcotics trafficking, 
        that best explain why a country previously headed for success 
        now suffers such misery and why its economy is unable to meet 
        the basic needs of such a large share of its citizenry.

  <bullet> Colombia's leaders must find the resources to overcome 
        violence and corruption and simultaneously to support policies 
        that restore hope in the future for millions of their fellow 
        citizens. Without law and order the economy will not return to 
        significant levels of economic growth; without economic growth 
        the country's leadership will not have public support for the 
        tasks required.

                   HISTORICALLY WELL MANAGED ECONOMY

    For many decades Colombia was known as a well-managed economy. At 
the end of the 1960s when the U.S.-backed Alliance for Progress came to 
an end, Colombia was seen as a country taking the right path to 
modernity. At that point by most performance indicators it was not far 
behind Chile. It had, for instance, much admired housing and family 
health programs and insisted on following macro-economic policies even 
more cautious than U.S. experts advised. In the 1970s it was able to 
begin diversification away from its dependence on coffee exports and 
was beginning to show signs of having a vigorous manufacturing export 
base. As late as the mid-1980s the income gap between the rich and poor 
was narrowing rather than widening as it was in most developing 
countries. Throughout the 198Os--normally referred to as the ``lost 
decade'' in the rest of Latin America, which experienced severe drops 
in income--Colombia was able to maintain modest levels of per capita 
economic growth and able, almost uniquely among large Latin countries, 
to avoid default on its debt. Colombia was known as a country that 
respected contracts, and it ``played by the rules,'' rolling over 
increasing amounts of debt, rather than damaging the country's credit 
standing with a default.
    For all that success in the 1960s and 1970s, in retrospect it is 
clear Colombian leaders neglected several fundamental national 
challenges. First, too little was done in the good years to overcome 
the daunting geography with highways and railroads to knit the country 
together. Second, not enough was done to improve life in the 
countryside. The signs are small and large. Today a country of vast 
grasslands imports cattle hides for leather manufacturing. More 
tragically, the instability of land tenure has led generation after 
generation to move, often forced, from rural subsistence to urban 
penury. Third, as that last example suggests, even before the rise of 
the powerful narcotics business, Colombia's judicial system was notably 
weak.

                        THE PRICE OF LAWLESSNESS

    Only a fraction of the immense revenue of drug trafficking returns 
to Colombia. Most drug money remains in the United States. Still, the 
impact of those ill-gotten gains has been enormous. Analysts at various 
times using different methodologies have estimated the total flow of 
earnings back to the country as low as $1.5 billion and as high as $3 
billion, i.e., not much more than one percent of GDP, but all conclude 
that the net effect on the Colombian economy has been negative and 
disastrous. The rise in narcotics trafficking is closely related to the 
rise of criminality in Colombia and that of course was closely related 
to the rise in violence. One study points out that criminality leads to 
a misallocation of resources and a drop in national productivity 
amounting to roughly one percent of the GDP. Other studies correlate 
the rise of violence with the drop of investment from 1980 onward and 
blame that for taking two percent points off GDP growth of the period.
    Colombians themselves were slow to see the damage. But then the 
anecdotal evidence began to come in. As the narcotics traffickers 
sought to circulate their money into legitimate businesses, legitimate 
businessmen became alarmed when they saw murder and extortion become 
common business practice. The coffee zone, where small efficient farms 
were the rule, began to see land bought up for showplace fincas ill 
suited for making honest profits or quality coffee.
    The most severe damage was, of course, on the government's own 
ability to enforce the law. The already weak justice system was for a 
time nearly crushed under the threats from the Medellin cartel. It was 
not long before it was recognized that not just common criminals but 
even the supposedly political guerrillas were using information 
obtained from the banking sources and the court system to target 
kidnapping and leveraging other moneymaking schemes.

                          FINDING THE WAY OUT

    Colombia is in a maze--with no easy way out. The low cost answers 
to its predicament have so far been found wanting. It has tried and 
failed to negotiate peace first with drug mafias and then with the 
guerrillas. Peace with some of the paramilitaries groups may still be 
possible, but, if that were to happen, the government now recognizes it 
will not be cheap. The Colombian public has been tempted to believe--as 
many foreign observers are--that the country could overcome the 
violence by adopting more generous social policies and a more 
decentralized style of government. After experiencing disappointment 
with all the easy answers, Colombia seemed to accept peace would be 
costly and elected a president dedicated to law and order.
    Liberal social policies introduced in the early 1990s did help 
reduce poverty for a time, but eventually fiscal policy spun out of 
control, sovereign debt rose precariously and the country suffered its 
first recession in nearly 70 years. In 1999 the economy contracted by 
more than 4 percent, wiping out the gains earlier in the decade. 
Unemployment climbed to a record 20 percent. Adding to the country's 
woes, coffee prices plunged to historic lows, at 64 cents a pound less 
than half the price of just 10 years before. Coffee is no longer among 
the top Colombian exports when measured by value (at 7 percent of total 
exports it is now less than oil, coal, flowers and apparel), but it 
generates more employment (with some 560,000 directly employed and 
another 2 million in related activities) than extractive industries and 
is more than geographically concentrated than manufacturers.
    When President Alvaro Uribe came to office fourteen months ago, he 
inherited a weak economy and a government struggling to deal with 
burgeoning expenditures and a heavy load of debt (equivalent to 53 
percent of GDP). He adopted an orthodox approach to government 
finance--even to the extent of broadening the application of the 
unpopular value added tax--and sought to reign in expenditures. For 
example, because of the decentralization, much of the government's 
income was flowing out to inefficient and poorly supervised regional 
and local governments. Much was also spent on a generous pension 
program. Uribe is known internationally for his law and order agenda, 
but in Colombia he is recognized for being on the road continually 
seeking to make government work with fewer resources.
    While the Colombian president was trying to constrain spending he 
was also determined to give more support to the armed forces and 
police. It is often remarked that a nation supposedly at war such as 
Colombia was spending hardly any more than other countries in Latin 
America on security. (For the decade of the nineties with a rising 
level of violence military spending in Colombia was just 2.6 percent of 
GDP as compared to 3.1 percent in Chile and 1.9 percent in Bolivia and 
Ecuador.) Uribe decided to finance increased spending on the security 
services with a one-time tax on the wealth of the upper tax brackets 
that brought in the equivalent of 0.7 percent of the GDP. His 
government projects that defense spending will rise to 4.5 percent of 
GDP by the end of Uribe's term in office in 2006.
    Raising taxes and cutting expenditures is not the usual formula for 
stimulating an economy, but Uribe had little choice if he was going to 
give the police and military the support he promised while at the same 
time keeping the country from falling once again into a damaging 
recession. He is attempting to make government give better service 
within tight budgets. The assumption of his policy, not often openly 
expressed but clear, is that an improved security climate will lead to 
improvement of public confidence and a consequence increase in domestic 
consumption and investment. Similarly, there is an expectation that 
better security will attract foreign investment.
    To a degree, Uribe's approach is working. People are more secure by 
most measures--though throughout much of Colombia the ominous threat of 
violence remains. International markets reacted well to the new 
president's determined economic management, and spreads on Colombian 
debt fell by more than half (though they have moved up marginally in 
recent days following the defeat of the economic items in the 
referendum last weekend). There are signs investors from aboard--
clearly many of them Colombian--are increasing both direct and 
portfolio investment. Energy companies--both oil and coal--
significantly increased investments early this year. Unemployment 
continues to fall. And exports are rising.

                            A ROLE FOR TRADE

    Exports may, in fact, play a large part in Colombia's exit from its 
current economic conundrum. Manufacturing exports are still less 
important than that of the agriculture and extractive industries. But 
Colombia's manufacturing sector has long shown the potential for take-
off. Colombia is the most active trader in the Andean Pact and it has 
been taken more advantage of the Andean trade preferences first granted 
by the United States in 1992. The Colombian government has estimated 
that the first ATPA created some 120,000 permanent jobs and the new 
ATPDEA will stimulate another 200,000. (It is useful to note that these 
are many more than the 80,000 people estimated to be involved and 
facing displacement drug cultivation.) Early this year reports 
indicated that Colombian exports were showing a healthy 3.8 percent 
hike overall, with products eligible for Andean preferences recording a 
twenty fold increase.
    Colombia will, of course, best reach its export potential to the 
degree the world as a whole liberalizes its trade regime. Colombia is 
an active and positive force in both the Doha Round and Free Trade in 
the Americas negotiations. Those agreements promise low barriers to new 
markets around the globe. But Colombia's most important market is the 
United States, the destiny of 40 percent of its exports. Colombian 
officials have a skeptical eye on 2006 when the Doha and FTAA 
negotiations are due to conclude. They fear those talks will not 
produce results before the Andean preferences come to an end that same 
year. Wanting to lock in the full benefits of trade by giving investors 
the prospect of long-term gain, they think the United States should 
place Colombia at the head of the line for a free trade agreement.
    Colombia and the United States are close partners in the struggle 
against drugs and violence. My own sense is that the struggle can be 
won, but only with persistence by both governments, both peoples. 
Eventually, the U.S. security role will wind down. The key to success 
then will be, even more than it is now, on the strength of the 
Colombian economy. A mutually beneficial free trade agreement would be 
an important step toward a new, more optimistic stage in our relations.

    Senator Coleman. First, I want to say, Dr. Sweig, I am glad 
that you mentioned the issue of focusing on not just supply but 
on demand. And we have had a hearing today, talking about drugs 
in Colombia. And I do not think I have mentioned the fact that 
there is a great deal of consumption in this country. And if we 
do not somehow get that under control, I am not sure how you 
fight a winning battle.
    So, it is not the focus of this hearing but, clearly, that 
issue in the same breadth, I think, has to be raised and has to 
be recognized. And we have to do the things that we have to do 
in this country to better address that issue.
    When I visited Colombia, there were a couple things that 
impressed me. I mentioned, Mr. Schneider, the human rights 
issue just about in every conversation. I had concern at the 
time that I was there, there was concern regarding one of the 
generals, Air Force General Velasco. And it had to do more--I 
am sure you are familiar with the incident--more with whether 
an incident was adequately investigated, not whether he did 
anything, but whether, in fact, looking at what happened in 
Santo Domingo, that was there, was a light shown on that and 
did we uncover what happened?
    Not too long after that, there was wide agreement that 
General Velasco, I believe from my perspective, needed to be 
removed. And that has happened. Do you see that as a--the 
reason I say that is, I walked away with a very clear 
impression that Colombia is facing the struggle that we have 
all touched upon. Dr. McLean said it very clearly, you cannot 
have economic security without national security. But we have 
to have the confidence of our people. We know that.
    Do you see the Velasco case as a model? Does that bolster 
your sense, a little sense or greater sense, of optimism in 
Colombia's ability to deal with its human rights issues?
    Mr. Schneider. Unfortunately, no. I think that right now 
the situation is one where I think much more needs to be done 
by Colombia with respect to investigating instances of 
violation of human rights by state agents, the relationship 
between military and paramilitary. And then those 
investigations, there needs to be a transparent, in some way, 
discussion of what has been done. So that, then, the message is 
sent within the different state agencies that this is no longer 
acceptable.
    We have suggested three things that would give you greater 
confidence that the negotiations of the paramilitary is, in 
fact, possible to achieve the end result of their removal from 
combat while supporting the rule of law and many with the 
Colobian Government would agree.
    First, the highest priority target for law enforcement and 
military should be those paramilitary groups and leaders that 
are not engaging in the cease-fire. That has not happened.
    Second, because the government says it has done more than 
any other administration to combat the paramilitary, and it may 
have, but no one has any credibility in their assertions. They 
should create a Presidential ad hoc commission to document what 
has been done as other countries have done. Have international, 
credible international, jurists form that commission, perhaps 
with some Colombians. And then let them document what has been 
done and what needs to be done. That is the second thing we 
have urged.
    And the third is, right now there are no specific units of 
prosecutors in whom people have very great confidence. 
Unfortunately, the attorney general has dropped a great many 
cases that were on the tracks in the past. There needs to be 
some evidence that the government is willing to take the steps 
to help create a core of prosecutors to go after the 
paramilitary.
    So, there are things that can be done that would give us 
greater confidence in government action against the 
paramilitary.
    Just in response to one of the other questions that came up 
about why did President Uribe go after some of the human rights 
organizations in that speech. Just prior to the speech, a group 
of 80 human rights organizations, many of them very legitimate, 
including Plataforma Colombiana de Derechos Humanos, Democracia 
y Desarrollo, 80 with--I do not know all of them but I know a 
lot of them. They came out with a very, very critical report on 
the government's treatment of human rights. And I think that he 
reacted very instinctively to that.
    Dr. Sweig. Can I add a small----
    Senator Coleman. Dr. Sweig.
    Dr. Sweig. And also addressing the earlier question? The 
speech was made at a ceremony in which the air force commander 
that you mentioned stepped down, and the new air force 
commander took up his charge. I read that to be not only an 
indication of the President's discomfort with the group of 80, 
but also it suggested to me that perhaps the comfort level with 
the President within the Armed Forces may be; there may be some 
degree of unease and that he has some issues that he is working 
out within his own Armed Forces. And that was a bit of red meat 
that he was throwing to deal with that very touchy issue, 
internally, within the military, that the stepping down of the 
air force general indicated.
    Senator Coleman. Thank you. I have other questions, but I 
am going to defer to my colleague, Senator Dodd. And then we 
will have a second round of questions.
    Senator Dodd. Well, thank you, Mr. Chairman. And I will not 
take much time.
    I am very grateful to all of you for your patience in being 
here. And I thank the chairman for including you in today's 
hearing. You addressed some of my questions just in your 
opening comments and your remarks. And I thank you for that.
    I wonder if you might, beyond, Mark, your comments about 
the cases that could be pursued, stepping back for a minute--
and I think your characterization, having talked to President 
Uribe at least at one meeting, and apparently he has done it 
with others, admits that his language was inappropriate. And he 
strikes me as the kind of person, frankly, in the meeting that 
if he did not think it was, he would tell me that, too. It was 
not one of those things where he is necessarily trying to 
satisfy a United States Senator. I think he honestly feels 
that.
    Now, whether or not other actions reflect that and so forth 
is another matter. But certainly being in public life, there 
are plenty of speeches I have given where I kind of wished I 
had chosen other words, maybe, in retrospect. The words do not 
bother me so much as what the actions are and what are the 
implications of those actions.
    And putting aside the legitimate legal questions and so 
forth associated with an amnesty program, I would like to ask 
you the question of what happens. In effect, let us assume one 
goes forward and you ``reintegrate'' these elements into 
Colombian society. What are the effects of that, in a sense? 
And that may be a more significant question, when we start 
looking at the longer term picture of how Colombia gets back on 
its feet again. And I wonder if you might address that issue.
    Mr. Schneider. I think you have to think about that whole 
process of demobilization and reintegration as one that is 
probably going to have to take place in two really very finite 
stages. The first is the cease fire really has to be complied 
with. They have to stop engaging in the kinds of actions that 
we all know. And there has to be monitoring to give people 
confidence that there is a change in attitude of these people 
who have engaged in gross abuses in the past, and that the next 
stage is one which they are going to integrate into society.
    The second is that there has to be, it seems to me, a clear 
plan on how to protect them. You have to figure out some way 
that they do not get killed. Because the next stage is, if you 
do get to the point where you are going to demobilize the FARC 
and the ELN, this same problem exists.
    Senator Dodd. And a problem that persisted in the past is 
one of those examples of where you had a demilitarization and 
thousands were killed.
    Mr. Schneider. And that is one of the reasons why it seems 
to me there needs to be a greater deal of thought given to 
regional demobilization as a mechanism where you are able to 
manage it, because that is also one of the ways perhaps to 
bring in, let us say, first the ELN into a process in a 
regional way.
    But going back to the question of reintegration and the 
amnesty law, I think that you have to establish certain bottom 
lines. One of them is that you cannot have been the author of 
crimes against humanity and go scot free. You know, Castano, if 
prosecuted for all of the crimes that he has admitted to, 
probably should go to jail for 600 years. It is not a question 
of that occurring. But there is a question of how to assure 
some jail time for some portion of those who are authors of 
crimes against humanity.
    That does not mean that every single member of the 
paramilitary is going to go to jail; they are not. But it does 
mean that there has to be some bottom line.
    The other is there has to be a date certain. Either you go 
into the cease fire now and agree to then accept the benefits 
down the road or you are simply a criminal. Because the problem 
is that if there is not a deadline, they can go out and, let us 
say, they want a certain amount of land and they say I can go 
out and kill those people, acquire that land, and then I will 
apply for cease fire and the benefits.
    So, there has to be some bottom lines in the legislation 
that are not there right now.
    Senator Dodd. Yes.
    Mr. Schneider. And one of the other things they might do is 
ask for Inter-American Court of Human Rights to examine the 
legislation to see how it fits with Colombia's obligations 
under international human rights conventions.
    Senator Dodd. Well, we are not even sure we are going to 
find the answers to whether or not there was any consultation 
here. I suspect there might have at least been some awareness 
of it; but we will see.
    Julia, you and Mark have both expressed a need to focus on 
the economic humanitarian side of the Colombian conflict. And I 
certainly agree that we need to do far more in that area and 
the dollar ratios of where things are going. Mark pointed out 
that the strongholds of guerrilla organizations are in the 
areas of the highest poverty in the country. I think the 
poverty levels hover around 80 percent.
    And it should not be any great leap of understanding to 
appreciate the fact that the guerrilla organizations have been 
most successful in the areas of the highest degree of poverty, 
generally speaking. There may be some exceptions to that but, 
generally speaking, that seems to be the case.
    And I would like to know if you might address in the 
limited time here about how you go about tracking that problem, 
when in most security cases the security situation does not 
lend itself. In fact, the irony is, in a sense, if you are 
trying to do it where the guerillas are the most strongly--that 
they are the strongest in these areas, how, then, even if you 
had the dollars to get them in, to make a difference, because 
you do not have the security to be able to carry that out.
    So there is kind of a Catch-22, I guess, is the overused 
expression here to describe trying to get the dollars, even if 
you could. And I am sympathetic to that. And I would like to 
have you address as well the issue of a free trade agreement. I 
have been supportive of some. I have had some difficulty with 
the fast track authority, cases where I think the agreements 
were going to involve certain things that should be included in 
free trade agreements. But there is a case to be made here, 
that if you really--what these countries need is the ability to 
have economic growth.
    And certainly, when I go in stores and I see, you know, 
``Made in the People's Republic of China,'' and I know very 
well that--that same product might be made in Ecuador or might 
be made in Colombia, I prefer it be made in the United States 
but, if it is going to be made somewhere, why not make it in a 
place that could really use some help today? Not that the 
People's Republic of China does not; but if you had to make the 
case to me, I would prefer, candidly, if I had to choose 
someplace outside of my own country, these countries that are 
struggling, faced with civil conflict, lack of jobs and 
opportunity. So, that can have some value. And I wonder if you 
might comment.
    And also, Mr. McLean, could you address the issue as well? 
So, let me----
    Mr. Schneider. Really quickly on the first point, it seems 
to me that what needs to be done initially is you have to 
develop a strategy and program. There is no rural development 
strategy in Colombia right now. You can ask anybody. You have 
to have it developed. And you have to then say, this is how we 
are going to deliver it and this is where the funds are coming 
from.
    For example, that 1 percent add-on for security this last 
year of a wealth tax, what about doing another 1 percent for 
this year and target it toward development? And say, whenever 
we are able to apply, as soon as we are able to apply, we will 
have the program in place.
    And the fact is that you have some rural areas today where 
you can apply it. I would not be surprised if, in some areas of 
Putumayo, where the government had re-entered the state, the 
state has re-entered, that you might be able to implement a 
rural development program. The point is that right now, you do 
not have the means or the plan or the program to do it. That 
needs to be first, because you also have to have something out 
there for the caompasino that says: Hey, as soon as we get this 
area secure, it is not just going to be with law enforcement; 
it is going to be with schools, health, roads, and economic 
opportunity.
    A second potential investment would be in the areas right 
now that are home to the laboratorios de la paz, the EU 
supported these peace laboratories at Padre de la Roux. I think 
you can replicate that in some areas. Again, do it now.
    And finally, with respect to ALCA, I say yes, but; the but 
is, think about where we have been and what is happening, what 
has happened in Bolivia and Peru. It has to be done, I am 
convinced now, with asking the question not only what is the 
impact on domestic employment here but what is the impact on 
rural poverty there?
    At least somebody needs to be thinking that through. And I 
really do not think it has happened.
    Senator Dodd. Mr. McLean.
    And then, Julia, I will come back to you on it.
    Mr. McLean. If I could link, really, the two parts of your 
question. One was about the regions where there is narcotics 
being eradicated and obvious guerrilla activity; and the other 
part, which is the larger, economy and the trade. I think those 
are linked.
    You know, you cannot and you never should expect that in 
the areas where there has been heavy narcotics growth--I am 
going to give you the example of Putumayo or give the example 
of the Catatumbo which is up by the Venezuela border up in the 
northeast. Those are areas that are basically, just a few years 
ago, indigenous areas. But you have people who have come in as 
colonos, as colonists, and brought the coca culture with them.
    You know, 20 years ago, 25 years ago, the Catatumbo was 
this wonderful forested area that had the Motillone Indians. 
They were, you know, beautiful. It was a place that people went 
to for ``eco-tourism,'' even before the word existed. Today, it 
is a desert, been wiped out by the slash-and-burn agriculture. 
And people there are at war with one another for the drug 
gains.
    The answer, clearly, is that many of those people have to 
leave. It is better for the land environmentally, for the 
indigenous people to allow those areas to return to a more 
tropical state and get people out of that economy and into a 
prospering, forward-looking economy that trade can bring.
    Now, I do not know all the--you know, it would take a long 
time to get to a free trade agreement. But it seems to me that, 
given that the WTO and the FTAA prospects are not looking good 
at this particular time, I would go for it. I would go for it. 
It seems to me Colombia is as worthy of it as a Chile is. And 
the Chile one, I think, was a pretty good agreement.
    Senator Dodd. Julia?
    Dr. Sweig. Thank you, Senator Dodd.
    Senator Dodd. Dr. Julia Sweig, I should say.
    Dr. Sweig. Senator Dodd, thank you very much. My mother 
will appreciate that you threw in the ``doctor.''
    You know, there are hundreds of very experienced 
individuals. And all of the multilateral institutions have lots 
of experience with how to do land reform in difficult rural 
environments even. I think the technical question is critical. 
How do you do security and serious rural initiatives 
simultaneously?
    But just drawing on Mark's comment that there is no rural 
development strategy in Colombia, the United States can play a 
vital role in, I think, setting the tone and establishing that 
we see that these are, in fact, priorities. Because right now, 
we fall more, I think, into the realm of platitudes. We support 
democracy and we support free trade. But we do not get into the 
specifics of what, in fact, really might help get this region 
moving forward.
    And so I think we can set the tone, first. And second, I 
think we can then, for example, since--well, Bobby Charles is 
not here now. But I have said this to him directly. INL is the 
elephant in the room. It has all the money. And it has lots of 
programs that it administers in the alternative development 
sphere. Convene and do this with much more senior level 
attention in the administration. A meeting of the multi-
laterals and the key international players from both the U.N. 
and OAS, those institutions that are putting money into the 
region, the Andean finance corporation. Get everybody in a room 
and sit around and say: How do we do this together?
    And I think what you will find is people are very, very 
anxious to speak to these issues and are looking for U.S. 
leadership on them to tie the issue of security and development 
together.
    Senator Dodd. Are there people who have already thought 
about this and have clear ideas of how this can be done?
    Dr. Sweig. I think there are. I think--you know, I am not 
an expert at all in rural development. But I know that there 
are and that they are waiting to be called. They are waiting 
for the call. And I think that it really could yield to some 
productive discussions.
    Can I answer on the trade front?
    Senator Dodd. Yes.
    Dr. Sweig. When we negotiate a bilateral or, in my view, it 
would be better if we are going to go bilateral with Colombia, 
go very quickly to establish that what we want is a region-wide 
Andean trade agreement.
    Senator Dodd. Actually, I focused in Colombia but, 
clearly----
    Dr. Sweig. But regional. But then to specifically ask the 
Colombians and every other country in the region what products 
need to get in here and quickly that will specifically replace 
the income from coca and to begin to sort of open up those 
markets. Maybe perhaps they already are but to begin to connect 
the dots a little bit more specifically.
    Senator Dodd. Good idea. This has been an excellent panel. 
We had a vote called. And we are kind of running out of our 
time. I would have done another round of questions. I want to 
thank the panel.
    If I can, two observations. And that is that in the past, I 
have always used the analysis that says guerrilla movements 
prosper in areas that are poorest. If there is one difference 
here, and I would have to look at that, is that the drug 
trafficking has just changed the whole dynamic. There is no 
longer a guerrilla movement. It is about narcotics.
    And I am not sure that does not change, I think, the long-
term vision of what we have to do. But it is not about 
guerrilla movements anymore. It is about drugs on all sides, 
whether it is AUC or ELN or the FARC. So, I just want to make 
that observation.
    And then the second observation about trade, and there have 
been some very, very good suggestions. I am avid free trader. 
But I worry that trade has not fulfilled the promise to those 
at the bottom of the rung, bottom of the economic ladder. And I 
think we have to start reflecting on that a little bit more, as 
we move forward.
    And the great fear I have is that we have made this the 
panacea, the great--you know, it is going to solve our 
problems. And people are not seeing that. And as a result, the 
reaction, the kickback, is very, very strong.
    Again, thanks to the panel. Julia, you started by saying--
Dr. Sweig started by talking about you have a great deal of 
humility and respect for the challenges being faced by the 
folks who have to make these decisions; I share that and you 
have been very helpful in our deliberations.
    Without objection, the record of today's hearings will 
remain open for 2 days to receive additional material and 
supplemental written responses from witnesses to any question 
posed by a member of the panel.
    This hearing of the Senate Foreign Relations Committee is 
now adjourned.
    [Whereupon, at 5:00 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


             Additional Statement Submitted for the Record


 Prepared Statement of Eric Farnsworth, Vice President for Washington 
                  Operations, Council of the Americas

    On behalf of the Council of the Americas, I am delighted to submit 
views concerning the possibility of a bilateral free trade agreement 
between the United States and Colombia.
    The Council of the Americas speaks for US business in Latin America 
and Caribbean issues. Our members include over 170 of the top US 
companies invested and doing business in the hemisphere. For almost 40 
years, the mandate of the New York-based Council has been to promote 
free markets, free ideas, and free people throughout the hemisphere. We 
are proud to have played a significant and successful role in the 
formulation and passage of NAFTA, passage of trade promotion authority, 
expansion of Caribbean and Andean trade preferences, and the just-
concluded bilateral agreement with Chile. As well, we are fully 
committed to achievement of a comprehensive Free Trade Area of the 
Americas by 2005 as the best hope for renewed growth and sustainable 
development in the hemisphere, part of the overarching development 
vision agreed by leaders at Summits in Miami, Santiago, and Quebec 
City.

                         FTAA REMAINS THE GOAL

    Indeed, it is the Free Trade Area of the Americas that the Council 
believes should remain the top trade priority in the hemisphere. The 
FTAA will do the most good for the greatest number of people, and will 
do so in the most efficient manner. In addition, the non-trade benefits 
of FTAA will be broad and diverse, supporting US national security 
interests by strengthening democracy and its institutions, building a 
common framework for hemispheric relations in the same manner NAFTA did 
in North America, and increasing opportunity broadly as the middle 
class is built in Latin America and the Caribbean.

                   WHERE DO BILATERAL AGREEMENTS FIT?

    To the extent the FTAA might be delayed, watered down, or otherwise 
fail to meet the promise of the three Summits of the Americas, however, 
the Council would support bilateral or sub-regional agreements between 
the United States and other nations in Latin America and the Caribbean. 
Additionally, bilateral and sub-regional agreements can provide impetus 
for the broader FTAA negotiations, and as may be the case, they should 
be pursued with vigor.
    Nonetheless, there is a risk that by pursuing bilateral agreements, 
attention will be diverted from the larger goal, both in the United 
States and in other nations with even greater resource constraints; 
that a ``spaghetti bowl'' of new trade agreements will actually confuse 
hemispheric trade patterns; or that trade and investment diversion will 
occur from one nation to another. As well, to the extent bilateral or 
sub-regional agreements are perceived to isolate major trading partners 
unnecessarily, they could even become counterproductive by causing a 
backlash to conclusion of FTAA or by limiting cooperation in other, 
non-trade areas.
    With this in mind, the Council of the Americas would support a 
bilateral trade agreement with Colombia within the following framework:

  <bullet> It must support, not detract from, a hemispheric FTAA.

  <bullet> It must include the latest generation of trade and 
        investment disciplines, much like the Chile and Singapore 
        agreements.

  <bullet> It must be consistent with pre-existing agreements, 
        including NAFTA and an agreement currently under negotiation 
        with Central America. For efficiency purposes, it might be 
        appropriate to conduct the negotiations, as anticipated with 
        the Dominican Republic, as part of a docking exercise onto a 
        broader agreement.

  <bullet> It should be open to additional countries in the Andean 
        region, once those nations reach adequate levels of political 
        and commercial readiness.

                             WHY COLOMBIA?

    Should bilateral agreements be pursued by the United States within 
the Western Hemisphere, Colombia is a solid choice. Its democracy, 
though under challenge, is strong and long-standing. The current 
President, Alvaro Uribe, is providing leadership to end the extra-
judicial guerrilla war while maintaining appropriate human rights 
protections. President Uribe is an ally of the United States on 
Afghanistan, Iraq, and the war on drugs, and maintains a strong bias in 
favor of anti-terror and narco-terror initiatives within the 
international community. Completing a bilateral agreement would link 
our two nations closer together, an important strategic goal, while 
also supporting Colombia's democracy by strengthening economic growth, 
providing Colombia's disaffected and dispossessed populations over time 
the economic benefits of democratic governance.
    Legal trade between the United States and Colombia is strong and 
growing. National income accounts tend to understate the amount of 
bilateral trade because, of course, they do not capture illicit trade 
flows. That said, the United States imports significant energy and 
agricultural goods (cut flowers, coffee), jewelry, and other products 
from Colombia, while exporting high-technology goods and services 
including aircraft and helicopters, telecommunications services and 
equipment, industrial machinery, and food and agriculture products. 
With the expansion of the ATPDEA in 2002, the textiles and apparel 
sector has also grown significantly in Colombia, just as it was 
designed to do.
    A bilateral agreement would enlarge this commercial relationship 
even further, leading to increased trade and investment flows, while 
providing a reciprocal framework for existing trade and investment 
activities and strengthening a strategic partner both economically and 
politically. At the same time, it would draw investment to Colombia--a 
positive development, to be sure, but not if it comes at the expense of 
foreign investment in neighboring nations. In other words, an agreement 
should create opportunities for new investment, not merely shift 
existing investment from one Andean nation to another. This would have 
to be taken into account in terms of an overall US strategic approach.
   an agreement is important, but other actions are also appropriate
    Finally, investment climate improvements including resolution of 
ongoing investment disputes and judicial reform should be redoubled 
with or without a bilateral trade agreement. Ultimately, it is not the 
presence or absence of a trade agreement with the United States that 
will determine the amount of trade and direct foreign investment in a 
country--it is the perception of risk and return from one nation to the 
other. As a result, Colombia, and indeed every nation in Latin America 
and the Caribbean that desires closer commercial relations with the 
United States, including Peru, should take concrete steps to address 
investor concerns as they arise, thereby ensuring that the investor 
community remains committed to each respective economy and maximizing 
the potential benefits of a bilateral trade agreement.
                              ----------                              


            Responses to Additional Questions for the Record


  Responses of Hon. Robert B. Charles, Assistant Secretary of State, 
 Bureau for International Narcotics and Law Enforcement Affairs, U.S. 
 Department of State, to Additional Questions for the Record Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question 1. President Uribe has presented a legislative proposal to 
the Colombia Congress that would grant amnesty in the form of suspended 
sentences to paramilitary leaders who turn themselves in, in exchange 
for compensation to the victims of their crimes.
          a. Has the administration taken an official position on the 
        legislation?
          b. Has the administration provided comments or 
        recommendations to the Colombian Government on the legislation? 
        If yes, please provide information on the recommendations, and 
        on whether they were provided before or after the legislation 
        was introduced to the Colombian Congress.
          c. What is the administration's view as to what the critical 
        components of an amnesty program in Colombia should be?

    Answers. a. President Uribe's draft Conditional Parole Legislation 
is being considered by Colombia's congress and may yet be revised. 
Various Colombian ministries criticized the original draft and proposed 
revisions as have various members of the Colombian Senate. The GOC has 
invited comments from interested national and international human 
rights groups, international organizations, and others. If and when it 
is passed, the Colombian Supreme Court will then have to review the 
constitutionality of the final version. As indicated in greater detail 
below (under section b.), the United States continues to reiterate the 
key principles that guide our position on any peace agreement. The 
Colombian Peace Commissioner has explained that the purpose of the 
legislation is to provide the authority to negotiate a final agreement 
to bring about the demobilization of terrorist groups. Under these 
constantly changing circumstances, the United States has not taken a 
position on the draft legislation.
    b. No one in the U.S. Embassy in Bogota or Department of State was 
consulted by the GOC on the contents of the Conditional Parole Bill 
prior to the Bill's introduction to the Colombian Congress. We were 
aware of reports that such a bill would be introduced, but were not 
offered an opportunity to and did not offer any recommendations on the 
bill.
    The Department of State and our Embassy continue to discuss issues 
related to the peace process, including the Conditional Parole Bill, 
with the Government of Colombia. In our discussions with the Uribe 
Administration, we have stressed that members of the AUC or other 
illegal armed groups who have committed gross violations of human 
rights or engaged in significant narcotics trafficking should remain 
accountable for their criminal actions both in the United States, if 
their extradition has been granted or would be warranted, and in 
Colombia. We have also made it clear that we will actively pursue 
extradition of Colombians indicted in the United States now and in the 
future. The GOC understands U.S. concerns and has assured us that the 
legislation will not undermine our current extradition relationship. As 
we monitor the legislative process, we will continue to insist that 
nothing in the bill or in negotiations with the AUC impede extraditions 
to the United States.
    c. We believe that a credible peace process must include 
accountability for the perpetrators of gross human rights violations 
and narcotrafficking.

    Question 2. President Uribe gave a speech on September 8, 2003, in 
which he referred repeatedly to some human rights groups as ``defenders 
of terrorism'' and ``spokespersons for terrorism.'' Civil society 
workers in Colombia are intimidated daily, and many of them live in 
constant fear for their lives. I am concerned that President Uribe's 
remarks, which may be construed as condemning the work of human rights 
defenders, could further endanger these workers. Furthermore, I am 
unaware of public responses to his remarks by Ambassador Wood or other 
U.S. officials.
          a. Was there a public U.S. response to Uribe's comments?
          b. Did the United States demarche the Colombian Government 
        after the President's speech? If so, please provide a summary 
        of the demarche.
          c. How did the Colombian Government receive the response?
          d. What more does the State Department intend to do in 
        response to the speech?
          e. Have we reached out to human rights groups in Colombia to 
        reassure them of U.S. support for their work?

    Answers. a. We have made our concerns about President Uribe's 
statement clear to the Government of Colombia at the highest levels, 
including in a September 30 meeting between Secretary Powell and 
President Uribe. Secretary Powell noted publicly following his 
September 30 meeting with President Uribe that he was convinced that 
the Colombian President was ``committed to the highest standards of 
human rights . . . and it's the way I have seen him operate in the time 
that we have worked together.'' Under President Uribe's administration, 
there has been a major improvement in Colombia's human rights 
situation. The first nine months of 2003 witnessed the following 
positive trends: the Colombian National Police recorded a 16 percent 
reduction in the national homicide rate; the National Labor School (a 
trade union NGO) registered a 68 percent reduction of homicides among 
trade unionists; the Free Country Foundation (an NGO specializing in 
kidnappings) reported a 30 percent reduction in kidnappings; and the 
Colombian Government agency responsible for assisting internally 
displaced persons reported a 66 percent reduction of internally 
displaced persons.
    b. On September 12, Ambassador Wood met with President Uribe and 
Foreign Minister Carolina Barco regarding President Uribe's remarks 
criticizing human rights groups. The Ambassador encouraged the 
Colombian Government to work proactively with human rights 
organizations.
    c. President Uribe vowed his continued commitment to human rights 
in his September 30 address to the UN General Assembly. Both at the UN 
and in his meeting with the Secretary of State, Uribe expressed his 
respect for human rights NGOs, his interest in remaining engaged with 
them and his willingness to accept constructive criticism and 
suggestions.
    d. In our conversations with the Colombian Government, we will 
continue to express our concerns and to emphasize the important role of 
both human rights and those NGO's which defend human rights.
    e. Protection of human rights is central to U.S. policy towards 
Colombia, where the U.S. Government has its largest human rights 
program in the world. Embassy officials regularly meet with Colombian 
human rights groups. In addition, Assistant Secretary for Western 
Hemisphere Affairs, Roger Noriega, Assistant Secretary for Democracy, 
Human Rights and Labor, Lorne Craner, and other State Department 
officials have routinely met with Washington-based NGOs to discuss 
human rights in Colombia. We believe that these frequent meetings along 
with our Embassy's regular engagement with senior Colombian officials 
express the United States proactive promotion of human rights 
protection and are producing real improvements in Colombia.

    Question 3. In 2002, Congress changed long-standing policy that 
limited the use of U.S.-provided equipment to counter-narcotics 
missions by giving Colombia authority to use the equipment for 
counterinsurgency purposes.
          a. To what extent is this new authority being used?
          b. Please provide concrete examples of how this authority is 
        being used, against the FARC, the ELN and the AUC. What types 
        of missions are being carried out under this new authority?
          c. To what degree is the use of this authority distracting 
        from the counter-drug mission?
          d. What is the decisionmaking process in the Embassy for 
        approving missions that are not directly related to counter-
        narcotics?

    Answers. a. The expanded authority provided by Congress in 2002 
recognizes that the narcotics industry is linked to Colombian terrorist 
organizations, including paramilitary groups. This expanded authority 
gives the United States added flexibility for more readily supporting 
Colombia's unified campaign against narcotics trafficking and terrorist 
organizations. We are able to train as well as provide equipment and 
intelligence support.
    b. The following are examples of use of the authority.
    Example 1: In early October 2002, units of the Counterdrug Brigade 
launched an air assault operation in southern Caqueta Department, which 
resulted in the death of eight members of the FARC's 15th Front, 
including the Front Commander Jose Ceballos (AKA El Mocho Cesar), and 
possibly his second-in-command. Five FARC were captured, along with 300 
kilograms of coca base, three tons of explosive materials, and a 
variety of other military equipment. The air assault by units of the 
Counterdrug Brigade and 12 UH-1N helicopters, 10 of them INL-supported, 
illustrates the flexibility provided by the expanded authority.
    Example 2: On April 20-21, 2003, units of the Colombian Combined 
6th Division captured what Colombian intelligence believes to be the 
entire stockpile of reserve ammunition for the FARC Southern Bloc. 
Available counterterrorism intelligence that would not have been shared 
prior to the expanded authority, had approximated the location of the 
cache. This was then confirmed by a walk-in source. The Counter-Drug 
Brigade, using USG-supplied riverine transports and Black Hawk and Huey 
II helicopters, located and seized the cache, which contained 285,210 
cartridges of 7.62 mm (AK-47) ammunition, 1,800 pounds of pentolite 
explosive, 816.5 kilograms of coca base, 1,450 gallons of gasoline, 8 
boats and 7 outboard motors, and 1 generator.
    Example 3: On January 3, 2003, the Colombian National Police (CNP) 
and Colombian Air Force (COLAF) conducted an airborne assault to rescue 
an ELN kidnap victim in a remote area north of the city of Cali. The 
USG-supported Antinarcotics Police (DIRAN) supplied 55 members of its 
elite airmobile company (``Junglas'') to lead the rescue, and four UH-
60 Black Hawk helicopters. The rescue was successful.
    As these examples illustrate, the expanded authority, as envisioned 
by the Congress and implemented by the Department of State, has 
provided invaluable operational flexibility, when the distinctions 
between counter-narcotics and counter-terrorism are not be clear cut.
    c. It is important to note that the expanded authority has not 
eroded the counter drug mission which remains our primary focus. It has 
required, however, the establishment of clear procedures for the 
approval of all missions by our Embassy in Bogota, as new resources 
were not added to accommodate wider use of CN assets and personnel for 
CT missions when the authorities were expanded.
    d. The U.S. Embassy maintains control of U.S.-provided counter-
narcotics assets, including operational oversight, logistics and 
maintenance of the helicopters made available by the United States. The 
Embassy's Narcotics Affairs Section (NAS) and the Military Group 
(MILGP) are in continual contact with the Colombian National Police 
(CNP) and Colombian military (COLMIL) concerning ongoing and planned 
activities. In the event of a disagreement, the United States 
Ambassador in Colombia retains the final decisionmaking authority. This 
has allowed us to continue an extraordinary rate of recent success with 
aerial eradication, while responding in a timely and effective way to 
counter-terrorism needs.

    Question 4. A ``factsheet'' prepared by SOUTHCOM, dated September 
1, 2003, sets forth date from the Colombian Ministry of Defense that 
indicates that, in the first half of calendar 2003, seizures of coca 
base are down 18%, heroin seizures are, down 43%, and the number of 
laboratories is down 28%. To what do you attribute these reductions?

    Answer. We have not seen the ``factsheet'' referred to in the 
question and cannot comment directly on this. We recommend that 
inquiries concerning the document be directed to SOUTHCOM.

    The following answer is in further response to Question 4 above.

    Answer. We do not believe that downward movement in these three 
statistical categories is representative of any significant downward 
trend in Colombian interdiction. Although seizures of coca base and 
heroin have dropped, Colombian security forces seized more cocaine 
through the end of October than in all of 2002 (nearly 125 metric tons 
compared to 124 metric tons). Public security forces have also 
destroyed 86 high value cocaine processing HCl labs, compared to a 
total of 66 in 2002.
    Contributing to this total, the CD Brigade is having its best year 
ever in seizing cocaine (4.2 mt, over 800 times the 2002 total of 0.5 
kilograms) and destroying HCl labs (15, compared to a total of 5 in 
2002). Through October, the Colombian National Police is on a par with 
last year in cocaine seizures (over 41 mt of cocaine compared to 52 mt 
for all of 2002), but significantly better in destroying HCl labs (71 
compared to 61 for all of 2002). The Navy (including Coast Guard) 
accounted for 68.7 mt tons of cocaine seized through October (compared 
to roughly 72 mt for all of 2002).
    With respect to the drop in laboratory destruction, we 
differentiate when possible between cocaine processing HCl labs and the 
less significant common base labs. Base labs, which do the initial 
refinement from coca leaf to base cocaine, are simple and cheap to set-
up and easy to replace. HCl labs utilize more sophisticated laboratory 
equipment, require significantly more resources to establish, and 
produce high-value finished product from base cocaine shipped in from 
various base labs. For this reason, the 50 percent decline in base labs 
to date (police and CD Brigade totals dropped from 1,083 in 2002 to 517 
through October 2003) is more than offset by the 30 percent increase in 
destruction of HCl laboratories (86 in 2002 vs. 66 through October 
2003).
    With respect to the heroin figure, although the amount seized has 
dropped from last year, we cannot estimate what the year-end total 
might be. In 2002, Colombia seized 680 kg of heroin. Through October of 
this year, security forces have seized 464 kg of heroin. A single major 
interdiction or several moderate busts could bring the final tally to 
over last year's total.

    Question 5. You testified that, so far in 2003, the U.S.-trained 
Counternarcotics Brigade has destroyed 15 HCl labs and 278 base labs. 
What were the number of labs destroyed by the CN Brigade in 2001 and 
2002?

    Answer. The information you requested is provided in the chart 
below:

                   Counternarcotics Brigade Results:


----------------------------------------------------------------------------------------------------------------
                                                                       2001            2002            2003
----------------------------------------------------------------------------------------------------------------
Base laboratories:                                                           800             682             278
HCl laboratories:                                                             18               3              15
Cocaine seizures:                                                         177 ks          0.5 ks        4,200 ks
----------------------------------------------------------------------------------------------------------------


    The decline in Counternarcotics (CN) Brigade activity in 2002, as 
illustrated by this chart, reflects the period when the Brigade had 
completed its counternarcotics activity in Putumayo and underwent 
extensive retraining. For future success, the Brigade has been retooled 
and taken out from under control of a specific area commander. These 
improvements allow COLAR leadership to use the lighter, more flexible 
brigade throughout the country for rapid deployment operations driven 
by actionable intelligence. The results so far in 2003 indicate a much 
improved performance.
    Importantly, the Brigade is providing extensive ground support for 
aerial eradication in response to a sharp increase in hostile fire in 
2003. This pairing of security support and eradication augments pilot 
safety, but necessarily strains resources for CN missions, which can in 
turn affect interdiction results.

    Question 6. Of the 25 Huey II, 14 Blackhawk and 32 UH-1N 
helicopters provided under Plan Colombia, how many are involved in 
operations and how many are being used for training? Of those involved 
in operations, what is their operational rate?

    Answer. At present, 8 Huey us, 3 Blackhawks and 5 UH-1N Plan 
Colombia helicopters are being used for training. All others are 
involved in operations.
    Operational rates (average over the last 6 months) for all 
airframes are 84.8 percent for Huey II's, 80.4 percent for UH-60 
Blackhawks, and 81.7 percent for UH-1N's.

    Question 7. How many personnel are there currently assigned to the 
Narcotics Affairs Section in Embassy Bogota? Are these personnel 
sufficient to manage INL funds? Are there plans to seek additional 
personnel?

    Answer. Currently there are 9 Foreign Service personnel, 24 
American Citizen contractors (PSC) (plus an additional 8 PSC positions 
that are currently being filled), 2 American Family Members (AFM) 
employees, and 64 Foreign Service Nationals (FSN) employed by the 
Narcotics Affair Section (NAS) at Embassy Bogota. In addition, INL's 
Washington-based Resource Management office (RM) provides budgetary, 
financial, contracting, and procurement support to all NAS and INL 
program offices throughout the world. Also, INL Air Wing (AW) provides 
support for the operation of air assets. NAS, with the assistance of 
INL/RM and INL/AW has had adequate personnel to manage INL funds in 
Colombia. NAS is currently evaluating its personnel to determine if it 
will seek new positions for upcoming years.

    Question 8. As of October 1, 2003, please provide budget data on 
funds (a) obligated and (b) expended for the ``Presidential Protection 
Initiative'' (i.e., protection of President Uribe and other senior 
government officials). Please provide a breakdown by sector or category 
(i.e., physical and technical security upgrades, protection courses/
training). What additional funds are anticipated for this purpose in 
fiscal 2004 or using prior-year funds?

    Answer. Of the $5 million initially obligated and then reprogrammed 
from the INL ACI FY-2002 budget for this purpose, the Diplomatic 
Security Service (DSS) within the Department of State expended $2.625 
million to provide seven protection and training courses ($2.495 
million) and to fund an implementation advisor for 6 months ($130,000). 
The remaining $2.375 million was transferred to the Embassy Regional 
Security Office (RSO) as of March 2003 for continuing implementation of 
the program.
    In fiscal year 2003, $7 million of the INL funds requested for 
Colombia in the President's supplemental appropriation request will go 
to fund physical security improvements and provide short-term security 
for high-ranking Colombian officials. Projects under this funding 
include costs for three U.S. security advisors ($1,035,000), security 
equipment and hardware ($1,440, 000), security upgrades for offices and 
official residences ($460,000), creation and operation of the VIP 
Protection Training Academy ($2,555,000) and administrative costs of 
operating the VIP Protection Academy and U.S. Advisor Mission 
($1,010,000).

    Question 9. Since the commencement of Plan Colombia in 2000, how 
much money has the Government of Colombia expended for Plan Colombia 
programs?

    Answer. In 1999, Colombia committed to spending $4.5 billion over 5 
years on counter-drug efforts, institution building, and social and 
economic development under Plan Colombia. President Uribe has 
repeatedly renewed his support for the goals of Plan Colombia. However, 
differing fiscal years and accounting practices make it difficult to 
fix a precise figure for the amount Colombia has expended to date on 
Plan Colombia programs.
    Nevertheless, to date we estimate that Colombia has spent or has 
committed over $4 billion. Colombia seems to be largely on track to 
fulfill its financial obligations under Plan Colombia. This includes 
more than $800 million raised by a onetime wealth tax. The Government 
of Colombia's contribution to Plan Colombia is being used for 
counterdrug efforts, as well as social and economic development 
projects. Colombia has also continued to modernize its armed forces; 
stabilize its economy in accord with IMF guidelines; and undertake an 
aerial eradication program resulting in the destruction of 
unprecedented amounts of coca.
    Of the IFI funds Colombia has received, the GOC is allocating $900 
million to Plan Colombia programs for social development projects such 
as employment creation, support for poor families and youth job 
training. Even though the October 25 referendum on political and 
economic reform measures was procedurally defeated, requiring the 
government to seek alternative means for raising needed financing, 
President Uribe has announced that social investment programs will not 
be cut.
    We are in the process of seeking to further update this information 
and will be pleased to provide it to you when available.

    Question 10. Since the commencement of Plan Colombia in 2000, how 
much money have foreign donors from Europe or Japan (a) committed and 
(b) expended in support of Plan Colombia programs?

    Answer. At three conferences held in 2000 and 2001 to support 
Colombia, the total of EU, European bilateral, Canadian and Japanese 
pledges, as well as support from the UN, came to approximately $600 
million. As the pledged assistance has come from different resources 
over several years, it is difficult to provide more definitive numbers 
on flows per year.
    We believe the international community can and should do 
substantially more, both in terms of funds pledged and their timely 
disbursement. We will be working toward this end under new INL 
leadership.
    Implementation of pledges made by many donor countries, with some 
exceptions, has been slow. We continue to press the Europeans to speed 
funding of their proposed programs, and to do more to assist Colombia 
in the funding of needed social programs. This will be a regular 
talking point with our allies at international meetings.
    Preliminary planning for another conference on international 
support for Colombia was held in London on July 10, 2003. All 
government representatives at this meeting reaffirmed strong support 
for the Colombian government's efforts to address threats to democracy, 
including terrorism, illegal drugs, human rights and humanitarian law 
violations. Attendees at the conference agreed that a follow-on meeting 
to be organized by the Inter-American Development Bank (IDE) and 
Colombia will be held in early 2004. This conference will consider how 
to coordinate programs more effectively, and how to refocus existing 
programs on Colombian priorities. In addition, the IDE is seeking to 
catalogue all clearly all ongoing programs, identifying what has been, 
is and will be implemented, and on what timetable.

    Question 11. During Operation Iraqi Freedom, was there a reduction 
in the intelligence assets and resources available for support of Plan 
Colombia? If so, what effect did this have on Plan Colombia operations? 
Have these assets and resources been restored since the President 
declared the end of the major combat operations in Iraq?

    Answer. The issue of availability and use of intelligence resources 
in Colombia and elsewhere, especially during these globally tense 
times, is very sensitive. We recommend that intelligence-related 
questions be directed to the intelligence community.

  Rewritten Responses of Assistant Secretary Charles to Three of the 
                    Questions Posed by Senator Biden

    Question 2. President Uribe gave a speech on September 8, 2003, in 
which he referred repeatedly to some human rights groups as ``defenders 
of terrorism'' and ``spokespersons for terrorism.'' Civil society 
workers in Colombia are intimidated daily, and many of them live in 
constant fear for their lives. I am concerned that President Uribe's 
remarks, which may be construed as condemning the work of human rights 
defenders, could further endanger these workers. Furthermore, I am 
unaware of public responses to his remarks by Ambassador Wood or other 
U.S. officials.
          a. Was there a public U.S. response to Uribe's comments?
          b. Did the United States demarche the Colombian Government 
        after the President's speech? If so, please provide a summary 
        of the demarche.
          c. How did the Colombians government receive the response?
          d. What more does the State Department intend to do in 
        response to the speech?
          e. Have we reached out to human rights groups in Colombia to 
        reassure them of U.S. support for their work?

    Answers. a. Our initial responses to President Uribe's remarks were 
private. Ambassador Wood immediately expressed our concerns directly to 
him. WHA/AND Office Director Phillip Chicola spoke to the Colombian TV 
and print media in mid-September. He said on the record that the U.S. 
Government takes the work of human rights groups seriously and that 
NGOs are a vital component in maintaining a healthy democracy. In 
speeches to various regional Colombian Chambers of Commerce in 
September and October, Ambassador Wood stressed the need for the 
military to protect civilian populations and human rights as it 
continues its successful operations against insurgent groups.
    b. The Department of State raised its concerns about President 
Uribe's speech at the highest levels. On September 12, Ambassador Wood 
met with President Uribe and Foreign Minister Carolina Barco to deliver 
a demarche on President Uribe's remarks. The same day, WHA/AND Director 
Chicola discussed the issue with Colombian Ambassador Moreno in 
Washington. In these meetings, our demarche to the Government of 
Colombia was that President Uribe's remarks were counterproductive and 
that it was essential for the Government of Colombia to maintain 
regular and open dialog with human rights groups. We also urged the 
Government of Colombia to make statements supportive of the work of 
human rights groups. Secretary Powell reiterated this message in his 
September 30 meeting with President Uribe in Washington. Under 
Secretary Dobriansky and Assistant Secretary Craner also made the same 
points in their meetings September 29 and 30 with Vice President 
Santos.
    c. President Uribe vowed his continued commitment to human rights 
in his September 30 address to the UN General Assembly. Both at the UN 
and in his meeting with the Secretary of State, Uribe expressed his 
respect for human rights NGOs, his interest in remaining engaged with 
them and his willingness to accept constructive criticism and 
suggestions.
    d. In our conversations with the Colombian Government, we will 
continue to express our concerns and to emphasize the important role of 
the NGOs.
    e. Officials in Washington and at Embassy Bogota met numerous times 
with human rights groups to discuss Uribe's remarks and reiterate that 
protection of human rights is central to U.S. policy in Colombia. 
Ambassador Wood met with Human Rights Watch on September 12 and 
discussed the issue extensively, emphasizing our commitment to ensure 
the safety and well being of all human rights workers. Assistant 
Secretary Noriega met with Human Rights Watch October 6 and Amnesty 
International October 10 on the same topic. Ambassador Wood will attend 
an Embassy reception for the Colombian human rights community planned 
for December 1. He will also deliver a speech at a December USAID 
awards ceremony for NGOs. His speech will emphasize that the U.S. 
values the work being done by NGOs in Colombia. There also have been 
many working-level contacts with human rights groups in Bogota and 
Washington. We believe that these frequent meetings, along with our 
Embassy's regular, engagement with senior Colombian officials, are 
producing real improvements in Colombia's protection of human rights.

    Question 4. A ``factsheet'' prepared by SOUTHCOM, dated September 
1, 2003, sets forth data from the Colombian Ministry of Defense that 
indicates that, in the first half of calendar 2003, seizures of coca 
base are down 18%, heroin seizures are down 43%, and the number of 
laboratories is down 28%. To what do you attribute these reductions?

    Answer. We do not believe that downward movement in these three 
statistical categories is representative of any significant downward 
trend in Colombian interdiction. Although seizures of coca base and 
heroin have dropped, Colombian security forces seized more cocaine 
through the end of October than in all of 2002 (nearly 125 metric tons 
compared to 124 metric tons). Public security forces have also 
destroyed 86 high value cocaine processing HCl labs, compared to a 
total of 66 in 2002.
    Contributing to this total, the CD Brigade is having its best year 
ever in seizing cocaine (4.2 mt, over 800 times the 2002 total of 0.5 
kilograms) and destroying HCl labs (15, compared to a total of 5 in 
2002). Through October, the Colombian National Police is on a par with 
last year in cocaine seizures (over 41 mt of cocaine compared to 52 mt 
for all of 2002), but significantly better in destroying HCl labs (71 
compared to 61 for all of 2002). The Navy (including Coast Guard) 
accounted for 68.7 mt tons of cocaine seized through October (compared 
to roughly 72 mt for all of 2002).
    With respect to the drop in laboratory destruction, we 
differentiate when possible between cocaine processing HCl labs and the 
less significant common base labs. Base labs, which do the initial 
refinement from coca leaf to base cocaine, are simple and cheap to set-
up and easy to replace. HCl labs utilize more sophisticated laboratory 
equipment, require significantly more resources to establish, and 
produce high-value finished product from base cocaine shipped in from 
various base labs. For this reason, the 50 percent decline in base labs 
to date (police and CD Brigade totals dropped from 1,083 in 2002 to 517 
through October 2003) is more than offset by the 30 percent increase in 
destruction of HCl laboratories (86 in 2002 vs. 66 through October 
2003).
    With respect to the heroin figure, although the amount seized has 
dropped from last year, we cannot estimate what the year-end total 
might be. In 2002, Colombia seized 680 kg of heroin. Through October of 
this year, security forces have seized 464 kg of heroin. A single major 
interdiction or several moderate busts could bring the final tally to 
over last year's total.

    Question 10. Since the commencement of Plan Colombia in 2000, how 
much money have foreign donors from Europe or Japan (a) committed and 
(b) expended in support of Plan Colombia programs?

    Answer. At three conferences to support Colombia, held during 2000 
and 2001, in Madrid, Bogota and Brussels, the total of EU, Europea 
bilateral, Canadian and Japanese pledges, as well as support from the 
UN, came to approximately EUR 500 million (US $600 million).
    Japan has pledged $175 million for programs in Colombia. Of this 
amount, $100 million in soft loans and credits for small banks to 
support crop substitution is available but has not yet been drawn by 
Colombia. However, a $70 million loan for an irrigation project is 
underway and Japan granted $5 million to international oganizations 
involved in humanitarian relief and economic development.
    Recently available figures from the EU Commission report that for 
the period 1999-2003 the Commission and member country programs in 
Colombia committed (i.e., obligated) EUR 111.5 million and disbursed 
EUR 76.1 million (EUR 1.00 is about $1.20 at today's exchange rate). By 
the end of 2003, the EU Commission anticipates that an additional EUR 
53 million will have been obligated and EUR 26 million spent, bringing 
1998-2003 totals to EUR. 164.5 million obligated and EUR 102.1 million 
disbursed.


----------------------------------------------------------------------------------------------------------------
                                                                  1998-2002           2003            Total
----------------------------------------------------------------------------------------------------------------
EUR Obligated                                                         111.5 M             53 M          164.5 M
EUR Disbursed                                                          76.1 M             26 M          102.1 M
----------------------------------------------------------------------------------------------------------------


    With the step-up in assistance efforts following the three donor 
meetings in 2000-2001, the EU Commission reports that EU (Commission 
plus member states) programs total EUR 300 million in the process of 
design or implementation.
    While these figures represent a somewhat increased commitment by 
the international community, actual obligations and disbursements have 
been slower than hoped. We are increasing our efforts to encourage a 
more rapid rate of implementation in Colombia, urging, in particular, 
an emphasis on the funding of social and economic development programs.
    A preliminary planning meeting for another conference on 
international support for Colombia took place in London on July 10 of 
this year. All government representatives at this meeting reaffirmed 
their strong political support for the Colombian Government in its 
efforts to address threats to democracy, terrorism, illegal drugs, and 
human rights and humanitarian law violations. That meeting also agreed 
that a follow-on conference, to be organized by the Inter-American 
Development Bank (IDB) and Colombia, would be held in 2004 to consider 
how better to coordinate programs and to refocus them on present-day 
Colombian priorities as articulated by the Uribe Government.

                                 ______
                                 

 Responses of General James T. Hill, Commander United States Southern 
 Command, to Additional Questions for the Record Submitted by Senator 
                          Joseph R. Biden, Jr.

                 PLANNING ASSISTANCE TEAMS IN COLOMBIA

    Question 1. I understand that there are now U.S. military units in 
Colombia, known as ``planning assistance teams,'' conducting mission 
planning with units. When we approved Plan Colombia in 2000, we 
approved the training and equipping of counter-narcotics units. Then, 
last year, we approved training for protecting the oil pipeline. This 
seems to be something different altogether. Please explain:
          a. The legal authority under which planning assistance teams 
        are operating;
          b. The purpose of the planning assistance teams;
          c. The cost of such teams in fiscal 2003;
          d. The size of such teams, and to what level units they are 
        assigned;
          e. The length of their assignments;
          f. The number of such teams in operation; and
          g. Any plans you have to expand the use or number of these 
        teams?

    Answer. [DELETED]

              DEPARTMENT OF DEFENSE ACTIVITIES IN COLOMBIA

    Questions 2. In 1998 and again in 2000, then Secretary of Defense 
Cohen issued memoranda to the DOD components limiting the activities of 
Defense Department personnel in counterdrug activities of Defense 
Department personnel in counterdrug activities, particularly in 
Colombia.
    The 1998 memo (``Military Support to Counter-narcotics 
Activities,'' Oct. 6, 1998) stated that ``Department of Defense 
personnel shall not directly participate in law enforcement 
activities'' and are ``prohibited from accompanying U.S. drug law 
enforcement agents or host nation law enforcement forces and military 
forces with counterdrug authority on actual counterdrug field missions 
or participating in any activity in which counterdrug-related 
hostilities are imminent.''
    The 2000 memo (``Defense Funded Training in Colombia,'' Mar. 9, 
2000) reiterated that personnel must ``not accompany U.S. or host 
nation personnel to, or provide counterdrug support from, a location 
outside of a secure base or area. This restriction applies to all 
support, including counterdrug training.''
          a. Are these memoranda still in effect and still applicable 
        to U.S. military activities in Colombia? Have they been 
        superseded or modified in any respect? If so, how?
          b. Is the Department developing, or planning to develop, any 
        changes in the policies these memoranda set forth?
          c. Since January 20, 2001, have there been any other 
        memoranda issued by the Secretary, the relevant Under Secretary 
        or Assistant Secretary, or the Secretaries of any of the 
        military departments governing this question, namely the rules 
        governing U.S. military personnel accompanying host-nation 
        forces on field operations or outside of a secure base or area?

    Answers. a. The 1998 and 2000 memoranda have been superseded by the 
DOD International Counter-narcotics Policy Memorandum of 3 October 
2003.
    The 2003 memorandum recognizes the link between narcotics 
activities and terrorism that has enabled USSOUTHCOM to focus 
operations oriented on assisting GOC security forces in combating 
narco-terrorist organizations.
    b. USSOUTHCOM is currently working with DOD to readdress the rules 
of engagement (ROE) for DOD personnel conducting planning assistance 
and training missions in Colombia. This supplemental ROE has not yet 
been approved. The supplemental ROE will continue to prohibit direct 
U.S. participation in hostilities.
    c. Language in the International Counter-narcotics Policy 
Memorandum of 3 October 2003 addresses U.S. military personnel 
accompanying host nation forces on field operations or outside of a 
secure base or area and is consistent with the 1998 SECDEF memo, 
prohibiting any direct U.S. participation in hostilities.

                        HUMAN RIGHTS DISCUSSION

    Question 3. Did Secretary Rumsfeld and General Myers discuss human 
rights with the Colombian military high command during their recent 
visit? If so what was the essence of their message?

    Answer. Respect for human rights is a consistent theme in all 
meetings that I have with Colombian officials. I defer to Secretary 
Rumsfeld and General Myers on their conversations with the Colombian 
officials.

               CHALLENGES FOR U.S. POLICY TOWARD COLOMBIA

    Question 4. In your testimony, you state that the Counter Narcotics 
Brigade is ``currently'' transforming to become more flexible and 
rapidly deployable to plan and conduct offensive operations throughout 
the country.
          a. How, specifically, is the CN Brigade transforming itself?
          b. In which departments has the Brigade been operating in 
        2003, and what types of missions?

    Answer. [DELETED]

                           PIPELINES ATTACKS

    Question 5. In your testimony, you state that ``pipeline attacks 
are down significantly.'' A ``factsheet'' prepared by SOUTHCOM, dated 
September 1, 2003, indicates that there were 21 attacks on the Cano 
Limon/Covenas pipeline from January to July 2003, as compared to 23 
such attacks in the same period in 2002. Is this reduction (two fewer 
attacks) what you meant by ``significant reduction''? Or are there 
other data supporting this assertion?

    Answer. The period cited in the question is a better example of 
sustainment than reduction. During the 5 year period from 1996 to 2001, 
attacks on the Cano Limon/Covenas pipeline increased every single year 
reaching a high point of 170 attacks in 2001. In 2002, attacks on the 
Cano Limon/Covenas pipeline dropped 76% to a total of 41; and the 
reduction has been sustained this year with only 33 attacks on the 
pipeline though October 2003. I consider this a significant and 
sustained reduction in the pipeline attacks.

                PILOTS TRAINING FOR HUEY II HELICOPTERS

    Question 6. In your testimony, you state that the Huey II 
helicopters provided under Plan Colombia are ``currently focused on 
supporting pilot training and infrastructure security.''
          a. How many are being used for pilot training and how many 
        for infrastructure security?
          b. Have any of these helicopters been used for counter-
        narcotics purposes? What percentage of time have they been 
        devoted to counter-narcotics purposes?

    Answers. a. [DELETED]
    b. Counter-narcotics mission support is a primary mission area for 
the Huey II helicopters. The U.S. Department of State Narcotics Affairs 
Section mission in Colombia is responsible for oversight of the Plan 
Colombia helicopter programs. Therefore, specifics concerning Huey II 
helicopter utilization rate percentages would best be answered by the 
U.S. Department of State.

                      USE OF PERSONNEL IN COLOMBIA

    Question 7. In your testimony, you indicated that you have 
``reorganized our personnel operating in Colombia to maximize the 
support that we can provide''. Please elaborate on the nature and 
purpose of this reorganization.

    Answer. [DELETED]

              CHALLENGES FOR U. S. POLICY TOWARD COLOMBIA

    Question 8. Testimony provided in 2002 indicated the Government of 
Colombia three-phased approach for infrastructure protection in 
Colombia. Has this plan been altered since 2002?
          a. Has this plan been altered since 2002?
          b. Is the Phase I objective of training of the Colombian 
        Armed Forces for protection of the first 178 kilometers of the 
        Cano Limon/Covenas pipeline complete? Were forces from both the 
        18th Brigade and the 5th Mobile Brigade trained, as planned? 
        What was the duration of the training?
          c. What are the current U.S. plans to assist with the next 
        two phases in the Arauca and Saravena departments for the 
        purpose of pipeline protection completed?

    Answers. [DELETED]

              FACTSHEET INFORMATION ON SEIZURE REDUCTIONS

    Question 9. A ``factsheet'' prepared by SOUTHCOM, dated September 
1, 2003, sets forth data from the Colombian Ministry of Defense that 
indicates that, in the first half of calendar 2003, seizures of coca 
base are down 18%, heroin seizures are down 43%, and the nuniber of 
laboratories destroyed are down 28%. To what do you attribute these 
reductions?

    Answer. I believe the reduction in coca-related seizures and coca 
base laboratories destroyed January-July this year compared to the same 
period in 2002 is a result of several contributing factors. One factor 
is the overall reduction in coca cultivation, particularly in the 
Putumayo and Caqueta areas. Another contributing factor is that during 
the first half of this year, a portion of Colombian security forces 
were involved in the search for three U.S. citizens captured by the 
FARC when their plane crashed in February. The other factor is the 
restructuring and re-training of the Colombian Counter-Narcotics 
Brigade early this year to become a lighter, more flexible force, able 
to deploy and operate throughout the country. The combination of these 
and other factors have collectively contributed to the reported 
reductions in coca base seizures and coca base laboratories destroyed 
earlier this year.
    Heroin seizures were down 43% January-July 2003 compared to same 
period in 2002. Our understanding of heroin production and trafficking 
in Colombia and surrounding countries has some informational voids and 
will require continued analysis.

             ASSESSMENT OF COLOMBIAN MILITARY CAPABILITIES

    Question 10. What is SOUTHCOM's current assessment of the military 
capabilities of the following organizations: Colombian military, FARC, 
ELN, and AUC? With regard to each, please include SOUTHCOM's assessment 
whether the organization's capabilities are improving, declining or 
holding steady.

    Answer. [DELETED]
 military balance between colombian security forces and illegal forces
    Question 11. Please provide SOUTHCOM's current assessment of the 
military balance between the Colombian security forces and the illegal 
armed actors in Colombia (FARC, ELN, and AUC).
    Answer. [DELETED]

                           COLOMBIAN MILITARY

    Question 12. Is the Colombian military, in terms of force 
structure, resources, and capabilities, currently able to establish 
security in the country? If not, what resources and changes in force 
structure (including troop levels) would be necessary to build a 
military force able to do so? What are the key areas needed for 
improvement?

    Answer. [DELETED]

                     COLOMBIAN MILITARY ASSESSMENT

    Question 13. What is SOUTHCOM's assessment of whether (and or what 
timeline), the Colombian military (as currently structured) can achieve 
a military victory over the illegal armed actors in Colombia?

    Answer. [DELETED]

                                 ______
                                 

Responses of Hon. Adolfo A. Franco, Assistant Administrator, Bureau for 
    Latin America and the Caribbean, U.S. Agency for International 
   Development, to Additional Questions for the Record Submitted by 
                      Senator Joseph R. Biden, Jr.

    Question 1. In your testimony, you highlight several successes of 
our alternative development programs in Colombia, yet last year a 
report prepared for your Agency painted a different picture. It 
concluded that the programs originally planned for Colombia are not 
likely to work for a number of reasons: the farmers in the southern 
part of the country distrust the government so they continue to plant 
coca as an insurance policy; the soil in the area is not conducive to 
many legal crops; and the infrastructure is so poor that farmers cannot 
get products to market.
    Can you comment on these obstacles? Have our alternative 
development programs shifted focus in the last year to overcome the 
challenges as outlined in this report? How so?

    Answer. The situation in Southern Colombia has changed dramatically 
in the last two years. Two of the most important changes were the 
Government of Colombia's (GOC's) decision to resume aerial eradication 
in Southern Colombia and USAID's success in carrying out alternative 
development programs in an insecure and difficult environment.
    The GOC's decision to resume aerial spraying in July 2002 was very 
important, because it changed many farmer's views regarding the 
viability of coca production. Embassy and USAID efforts to educate 
people on the risks of coca production were an important complement to 
the spray program in 2002, as they emphasized that coca production was 
a threat to their family's welfare and endangered legal crops grown 
with coca. The USAID program reinforced farmer's decisions to eradicate 
coca by requiring farmers to eradicate coca before they received 
program assistance (e.g., alternative crops or livestock, construction 
of small infrastructure projects, technical and organizational support, 
etc.). The alternative development program grew rapidly in 2002 and 
2003, as many farmers signed up for assistance and eradicated coca to 
avoid being sprayed.\1\ USAID's ability to identify and implement 
innovative programs that directly support communities that elect to 
eradicate was and is instrumental in the dramatic changes in coca 
production in Colombia. USAID's programs delivered promised assistance 
which spawned a new level of trust when farmers saw that the 
alternative development assistance was reliable and in their best 
interest.
---------------------------------------------------------------------------
    \1\ A survey of Putumayo farmers in 2002 found that the primary 
incentive for participation in the AD program was a desire to keep 
their farms from being sprayed.
---------------------------------------------------------------------------
    The report referred to in the question above did not predict 
failure for the alternative development program; rather it identified 
constraints and ways to improve program effectiveness. This report was 
issued when USAID was just initiating programs in southern Colombia. 
USAID acted on many of the report's findings to adapt the alternative 
development program to evolving circumstances on the ground in southern 
Colombia. Much of the information in this report was based on 
interviews with people who had lived in southern Colombia for years and 
reflected their experiences with previous, less successful development 
programs. The report was very useful and led to several implementation 
adjustments, the most significant of which were:
  <bullet> A decision to implement AD activities with entire townships 
        instead of with individual farmers;
  <bullet> A requirement that all farmers in a township eradicate all 
        coca before receiving USAID assistance;
  <bullet> A decision to carry out small infrastructure projects in 
        addition to alternative crop and income generation activities 
        in order to improve the community's quality of life and 
        increase its ability to carry out legal production or marketing 
        activities;
  <bullet> A decision to expand the focus of the program to include 
        areas to the north and west of Southern Colombia in order to 
        stem the flow of migrants that were coming into Southern 
        Colombia to produce illicit crops;
  <bullet> A decision to limit the range of crops assisted under 
        alternative development projects and to use the production 
        chain methodology to identify alternatives such as sustainable 
        natural forest management, tropical flowers, black pepper, 
        vanilla and agroforestry systems that can be competitive and 
        sustainable in areas like Southern Colombia that have 
        relatively fragile soils and poor infrastructure.

    Question 2. I know there is resistance among some farmers in 
Colombia to eradicate their coca crop, but what measures are we taking 
to ensure that aid is available to those farmers who are willing to 
eradicate?

    Answer. In mid 2001, USAID had only two projects to help farmers 
eradicate coca and produce licit crops; these projects were almost 
exclusively focused on the Departments of Putumayo and Caqueta in 
Southern Colombia. Since that time, USAID has greatly expanded the area 
and the number of projects that offer alternative development 
assistance. As of September 30, 2003, USAID had assisted more than 
31,000 families in 10 departments. USAID plans to continue assisting as 
many farmers as possible given the personnel and financial resources 
available and expects to assist 80,000 farm families by the end of FY 
2005.
    Alternative development programs cannot be developed for every 
farmer or every community where illicit crops are found. Security 
problems, low population densities and environmental fragility make 
some areas impractical for alternative development program 
interventions. The USG counter-narcotics program plans to control coca 
in remote areas of Colombia with low population densities by aerial 
eradication and to focus alternative development assistance on areas 
where activities can create legal income and employment. Farmers in 
remote areas who have coca will be sprayed unless they choose to 
manually eradicate coca. The new alternative development programs are 
focused on leveraging resources from the private sector and improving 
market access so that a legitimate economy can be re-established in 
these areas.

    Question 3. You testified that of the 220 warnings issued under the 
Early Warning System, 170 resulted in ``responses or interventions by 
State authorities.'' What percentage of these responses or 
interventions failed to prevent violence by illegal armed actors 
against non-combatants?

    Answer. Approximately 50% of the responses or interventions 
succeeded in preventing massive human rights violations or multiple 
homicides that the EWS had warned might occur. In many of these cases 
where the EWS did not totally prevent a human rights violation, we 
believe the magnitude of the abuses were lessened due to the early 
warning and some form of state intervention. USAID believes that the 
50% that have been prevented justify our efforts toward strengthening 
the EWS, but also believe that the response side of the warning and 
response system needs to be improved. In early 2004, USAID is planning 
to conduct an assessment of the EWS to identify the system's strengths 
and weaknesses, and will use the results to guide the improvement of 
the system.

    Question 4. What are the shortcomings of the current programs in 
Colombia to assist internally displaced people (IDPs)? What is the 
estimate of the number of IDPs who receive no assistance whatsoever 
from the U.S. or Colombian governments or international organizations? 
What measures are being considered, either by the U.S. Government or 
the Government of Colombia to remedy any shortfalls?

    Answer. International NGOs estimate that 2.5 million Colombians 
have been internally displaced by armed conflict since 1985. The 
Colombian Social Security Network has registered 1.7 million internally 
displaced persons into its program since 1995 and in April 2003, the 
UNDP estimated that there are currently 750,000 IDPs in Colombia. Since 
2001, USAID assistance has benefited 1.2 million internally displaced 
persons and the communities where they settle.
    While the U.S. currently provides an estimated 70% of the 
assistance provided to Colombian displaced persons, the major 
shortcoming of the current IDP program in Colombia is that there are 
not enough resources to meet all the needs of all the IDPs. The 
Government of Colombia, USAID and other concerned agencies are dealing 
with this problem by working with the nationa] and local government and 
community groups to identify and provide assistance that meets the most 
pressing needs of IDPs in many of the communities where they settle. 
Perhaps the most serious shortcoming is the inability of IDP programs 
to provide employment for all the IDPs who need jobs. With the economic 
situation in Colombia, it is difficult to create enough jobs for the 
high number of displaced persons. Nevertheless, since 2001, USAID's IDP 
assistance programs have created over 45,000 jobs, including micro-
enterprises, cottage industries and small farmer activities, and have 
helped countless others overcome obstacles to earning an income.
    The USAID Mission in Bogota estimates that at least 70% of the IDPs 
displaced over the last two years in Colombia have received some kind 
of assistance. The problem is that IDPs are not all the same. Some IDPs 
require different types of assistance and other IDPs require multiple 
types of assistance, but there are not enough resources to provide all 
the different types of assistance that are required by all the IDPs.

    Question 5. You testified that ``[t]here are many legal and policy 
issues to be resolved'' before U.S. Government resources could support 
a program of reintegrating ex-combatants into Colombian society. Please 
elaborate on the legal and policy issues that must be resolved.

    Answer. The Government of Colombia's plans for a demobilization and 
reincorporation program are becoming clearer as negotiations with 
illegal armed groups progress. From the U.S.G. standpoint, there are 
several important areas that need clarification. First, we need to know 
whether the Colombian definition of a demobilized ex-combatant of an 
illegal armed group is sufficient under U.S. law. This is an important 
issue because of the U.S. Foreign Terrorist Organizations Act, that 
prohibits any type of assistance or support to Foreign Terrorist 
Organizations (FTOs) or members of FTOs. The U.S. is considering the 
Colombian procedures that will be used to convert FTO combatants into 
ex-combatants and must determine that they are sufficiently credible to 
allow USG agencies to provide reincorporation assistance to 
excombatants without violating the FTO Act.
    The U.S.G. is also concerned about the verification process (or the 
follow-up procedures) that will be used to:
  <bullet> Check on how the reincorporation program is working,
  <bullet> Monitor how the presence of ex-combatants is affecting the 
        communities where they resettle, and
  <bullet> Ensure that the ex-combatants are not targets of violence.


</pre></body></html>
